<html>
<title> - NOMINATIONS FOR THE OFFICE OF SCIENCE AND TECHNOLOGY POLICY AND THE NATIONAL OCEANOGRAPHIC AND ATMOSPHERIC ADMINISTRATION</title>
<body><pre>[Senate Hearing 113-410]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-410

                 NOMINATIONS FOR THE OFFICE OF SCIENCE
                     AND TECHNOLOGY POLICY AND THE
                         NATIONAL OCEANOGRAPHIC
                     AND ATMOSPHERIC ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 19, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                         U.S. GOVERNMENT PRINTING OFFICE 

89-894 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
MARTIN HEINRICH, New Mexico          RON JOHNSON, Wisconsin
EDWARD MARKEY, Massachusetts         JEFF CHIESA, New Jersey
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 19, 2013...............................     1
Statement of Senator Nelson......................................     1
Statement of Senator Thune.......................................    20
Statement of Senator Heinrich....................................    58
Statement of Senator Cantwell....................................    59
Statement of Senator Ayotte......................................    61
Statement of Senator Markey......................................    64
    Letter dated March 20, 2013 to Hon. John P. Holdren, 
      Director, White House Office of Science and Technology 
      Policy, Executive Office of the President from Edward J. 
      Markey, Member of Congress; Bryan R. Haugen, M.D., 
      President, American Thyroid Association; John C. Morris, 
      M.D., Secretary/COO, American Thyroid Association; 
      Catherine Thomasson, Executive Director, Physicians for 
      Social Responsibility; S. David Freeman; Barbara R. Smith, 
      CAE, Executive Director, American Thyroid Association; and 
      Thomas B. Cochran, Ph.D., Consulting Senior Scientist, and 
      former Nuclear Program Director, Natural Resources Defense 
      Council, Inc...............................................    67
Statement of Senator Begich......................................    78

                               Witnesses

Dr. Robert M. Simon, Nominee to be Associate Director for Energy 
  and Environment, Office of Science and Technology Policy.......     2
    Prepared statement...........................................     3
    Biographical information.....................................     4
Dr. Jo Handelsman, Nominee to be Associate Director for Science, 
  White House Office of Science and Technology Policy............    21
    Prepared statement...........................................    22
    Biographical information.....................................    23
Dr. Kathryn Sullivan, Nominee to be Under Secretary of Commerce 
  for Oceans and Atmosphere and Administrator of the National 
  Oceanographic and Atmospheric Administration...................    45
    Prepared statement...........................................    46
    Biographical information.....................................    48

                                Appendix

Hon. Barbara Boxer, U.S. Senator from California, prepared 
  statement......................................................    87
Response to written questions submitted to Dr. Robert M. Simon 
  by:
    Hon. Amy Klobuchar...........................................    87
    Hon. John Thune..............................................    88
Response to written questions submitted to Dr. Jo Handelsman by:
    Hon. John Thune..............................................    89
    Hon. Amy Klobuchar...........................................    90
Response to written questions submitted to Dr. Kathryn Sullivan 
  by:
    Hon. John D. Rockefeller IV..................................    90
    Hon. Maria Cantwell..........................................    92
    Hon. Mark Begich.............................................    94
    Hon. Richard Blumenthal......................................    97
    Hon. Edward Markey...........................................   100
    Hon. Brian Schatz............................................   101
    Hon. Martin Heinrich.........................................   101
    Hon. John Thune..............................................   102
    Hon. Marco Rubio.............................................   104
    Hon. Lisa Murkowski..........................................   106

 
                 NOMINATIONS FOR THE OFFICE OF SCIENCE
                     AND TECHNOLOGY POLICY AND THE
                         NATIONAL OCEANOGRAPHIC
                     AND ATMOSPHERIC ADMINISTRATION

                              ----------                              


                      THURSDAY, SEPTEMBER 19, 2013

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good morning. Senator Thune will be here 
momentarily. I want to go ahead and get some of the 
preliminaries out. We have a panel of very distinguished folks 
and this Committee meets to consider their nominations for 
three very important positions.
    Bob Simon, of Maryland, to be Associate Director for 
Energy, Environment, Office of Science and Technology policy. 
Second, Jo Handelsman, of Connecticut, to be Associate Director 
for Science at the Office of Science and Technology Policy. And 
Kathy Sullivan, of Virginia, to be Under Secretary of Commerce 
for Oceans and Atmosphere and Administrator of the National 
Oceanographic and Atmospheric Administration. Henceforth, I 
shall use acronyms, NOAA, OSTP, etc.
    Dr. Simon is what we call a Senate graduate. He served 
honorably the Senate for the last 20 years and has been most 
recently Staff Director for the Senate Energy and Natural 
Resources Committee for then Chairman Jeff Bingaman. As Staff 
Director, Dr. Simon shepherded two major bipartisan energy 
bills, the Energy Policy Act of 2005 and the Energy 
Independence and Security Act of 2007, through Congress. That 
may have been about the last thing to have passed the Congress.
    In addition to his many accolades in science and clean 
energy and technology fields, Dr. Simon was known to be a 
mentor and role model to the staff and a trusted advisor to the 
members of the Committee.
    Dr. Handelsman has been a professor of molecular, cellular, 
and developmental biology at Yale and in that position since 
2010. She is also the current President of the American Society 
of Microbiology. She previously served as faculty, including 
the Department Chair of the Department of Bacteriology at the 
University of Wisconsin, Madison. She received her Bachelor's 
from Cornell and her Ph.D. from Wisconsin Medicine.
    Dr. Kathy Sullivan is the current Acting Administrator of 
NOAA and has held this position since February. As an 
oceanographer and an astronaut, she represents both the oceans 
and the sky, both sides of NOAA. She holds a Bachelor's degree 
in Earth Sciences from University of California Santa Cruz, a 
Doctorate in Geology from Dalhousie University. Dr. Sullivan 
made many trips to have discussions with me on important issues 
on the RESTORE Act, which includes trying to take care of the 
fish, and also many discussions on weather satellites.
    She also has the unique position, as an astronaut, of 
having done what are termed, another acronym, EVAs, which is a 
spacewalk watching earth from that perspective of only being 
tethered by a small little line.
    So all of you, I look forward to the confirmation by the 
Senate of your nominations. I don't think we'll have any 
problem, unless--well, you never can tell around here. So what 
I'd like to do, in the order that I introduced you, I would 
like you all to take a little capsule of less than five minutes 
to share with us, for the record. And what we will do, of 
course, is to put your written statement into the record. So 
let's start with you, Dr. Simon.

        STATEMENT OF DR. ROBERT M. SIMON, NOMINEE TO BE 
        ASSOCIATE DIRECTOR FOR ENERGY AND ENVIRONMENT, 
            OFFICE OF SCIENCE AND TECHNOLOGY POLICY

    Dr. Simon. Well, thank you very much, Chairman Nelson and 
Senator Heinrich and other members of the Committee. I'm 
pleased to be here today to be the President's nominee to be 
the Associate Director for Environment and Energy at the Office 
of Science Technology Policy. Thank you for making my full 
submitted statement part of the Committee's record and I will 
make, I think, three brief comments and then I will be happy to 
answer any questions you or other members of the Committee may 
have to the best of my ability.
    First of all, let me say that I am deeply honored by the 
President's decision to propose me for this position. As you 
mentioned, I spent the last 20 years of my life here in the 
Senate, working first for Senator J. Bennett Johnston of 
Louisiana and then for 16 years with Senator Jeff Bingaman from 
New Mexico.
    And at one point, I was in the Stennis Fellows Program and 
I vividly remember the first meeting of Stennis Fellows. 
Someone got up and said, ``you know, sometimes when I walk out 
of the office at night, I look up and I see the Capitol dome, 
all lit up. And then it hits me, I can't believe I am so 
privileged to actually be able to work here at the seat of our 
national government.''
    And when he said that, I looked around the room at the 
other Stennis Fellows and every staffer, every head of every 
staffer, Democrat, Republican, House, Senate, nodding up and 
down, yes, we know that experience. We've had that, too. And so 
I feel incredibly privileged that I have this additional 
opportunity for public service as an OSTP Associate Director. I 
look forward to working with Dr. John Holdren, the President's 
science advisor, with colleagues in the Executive Branch, and 
with all of you here, on both sides of the aisle, on the 
important issues before us.
    Second, I would like to acknowledge the help, support, 
mentoring and assistance of many people in my life without whom 
I wouldn't even be here today. They include, first of all, my 
wonderful family who is sitting behind me, but also many great 
teachers, mentors, professional colleagues, and friends over 
the years.
    Finally, let me observe that the Office of Science and 
Technology Policy is kind of an interesting beast. It doesn't 
actually have any line authority over Federal agencies or 
regulatory bodies. OSTP's job is actually to work cooperatively 
with other elements of the Executive Office of the President, 
with Federal departments and agencies and with the Congress, as 
these other organizations exercise their roles and 
responsibilities in the policy development process.
    OSTP can use the power of science and technology to be a 
constructive influence and that's very important. As an 
observer of OSTP over the years, I've admired its abilities to 
convene disparate agencies, to combine their information with 
the best other scientific insights available, and to help shape 
appropriate and technically sound policy outcomes.
    I hope I can contribute to that work, if confirmed. And I 
would be honored to be given that opportunity by the Senate. 
Thank you.
    [The prepared statement and biographical information of Dr. 
Simon follow:]

    Prepared Statement of Robert M. Simon, Nominee to be Associate 
                               Director, 
   Environment and Energy, Office of Science and Technology Policy, 
                   Executive Office of the President
    Chairman Rockefeller, Ranking Member Thune, and members of the 
Committee, I am pleased to be here today as President Obama's nominee 
to be the Associate Director for Environment and Energy at the Office 
of Science and Technology Policy (OSTP). I am deeply honored by the 
President's decision to propose me for this position. If confirmed by 
the Senate, I will look forward to assisting Dr. John Holdren, the 
President's science and technology advisor, and working with other 
members of the staff in the Executive Office of the President, as well 
as with the Congress.
    I would not be here today, but for the help, support, and guidance 
of many mentors, colleagues, members of my family, and friends.
    I had the good fortune to have two engineers as parents. Not many 
people my age can boast of having an engineer for a mother. My mother, 
in fact, was the first woman to graduate with a chemical engineering 
degree from the night school at Drexel Institute of Technology in 
Philadelphia in the early 1950s. Training for engineering as a woman 
back then was not easy--growing up, I heard stories from time to time 
of professors who were less than helpful to female students studying 
engineering. One response to those challenges was the decision by my 
mother and her friends to start the Society of Women Engineers at 
Drexel in 1949. More than six decades later, the Society has more than 
20,000 members representing all areas of engineering and many areas of 
technology. The Society encourages girls, starting as early as 
elementary school, to aspire to be engineers. It maintains the crucial 
networks of support and mentoring so necessary to any effort to broaden 
participation by women in science, technology, engineering, and 
mathematics, or STEM, careers.
    My late father was also a source of inspiration--with the 
optimistic, can-do nature most good engineers demonstrate in the face 
of challenges, as well as a keen appreciation that sometimes solutions 
can be over-engineered. One of his humorous observations, which I 
found, during my time in the Senate, often applied to legislation as 
well, was that ``if you keep improving something long enough, 
eventually it will break.''
    I went to a high school with an excellent science program. While I 
was there in the early 1970s, I led a number of students who worked 
with the faculty to develop an outdoor environmental education unit for 
middle-school students. In college and graduate school, I trained in 
chemistry, a core scientific discipline for environmental and energy 
issues. My first professional career experiences in Washington were at 
the National Research Council of the National Academies of Sciences and 
Engineering, where I directed the process of developing technical 
consensus around science, engineering, and energy policy issues.
    When I went to the Department of Energy in 1989, I had the good 
fortune to work directly for the Secretary of Energy, Admiral James D. 
Watkins. In that capacity, I was also able to see how technical 
information was used in the formulation and execution of energy and 
environmental policy. After successfully establishing the Secretary of 
Energy Advisory Board and directing its first set of studies, I was 
promoted into a more responsible position in the senior line management 
of the Office of Energy Research. There I learned more about scientific 
program management and the organizational and budgetary challenges that 
must be met in order to successfully manage programs and projects.
    In June 1993, the Chairman of the Senate Energy and Natural 
Resources Committee, Sen. J. Bennett Johnston, requested that I be 
detailed to the Committee as a science expert. For the next 20 years, I 
served at the interface of science, engineering, and public policy in a 
number of positions in the Senate. These included serving on the staff 
of the Committee on Energy and Natural Resources under Chairman 
Johnston; a stint in Senator Jeff Bingaman's personal office; a year on 
the staff of the Joint Economic Committee; and, finally, 14 years as 
the Democratic Staff Director of the Energy Committee. Together these 
positions gave me a strong understanding of how public policy in energy 
and environmental areas can be successfully crafted, on a bipartisan 
basis, through legislation. I had the good fortune of working for two 
Members who exemplified substantive, constructive, and bipartisan 
approaches to important policy issues. I also spent about half of my 
time in the Senate in the majority and the other half in the minority, 
so I gained a good appreciation of how the policy process looks from 
both vantage points.
    Should the Senate confirm me for the OSTP Associate Director 
position, I would welcome the opportunity to apply what I have learned 
over the course of my career to carry out the duties of a position that 
is entrusted with the development and reasoned application of 
scientific and technical information to the public policy process at 
its highest level in the Executive Branch.
    My career has been motivated from the beginning by an interest in 
public service. I hope to be able to continue helping formulate 
sensible approaches to crucial national and international challenges in 
the areas of energy and the environment. While the prospect of 
addressing these complex challenges in a manner that develops long-term 
social and political consensus is daunting, I cannot think of a more 
important set of issues to which I could make a substantive 
contribution.
    Thank you for the opportunity to testify on my nomination this 
morning. I appreciate the consideration that you will give to it and I 
look forward to answering any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Robert 
Michael Simon (also known as Bob Simon).
    2. Position to which nominated: Associate Director for Environment 
and Energy, Office of Science and Technology Policy, Executive Office 
of the President.
    3. Date of Nomination: July 25, 2013.
    4. Address (List current place of residence and office addresses):

        Home: Information not released to the public.
        Office: Eisenhower Executive Office Building, 1650 Pennsylvania 
        Avenue, N.W., Washington, D.C. 20504.

    5. Date and Place of Birth: January 12, 1956; Philadelphia, 
Pennsylvania.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Karen M. Simon, homemaker. Children: Stephen F. Simon, 
        age 28; Cathryn M. Simon, age 24; Anne-Marie W. Simon, age 18; 
        Gregory R. Simon (deceased).

    7. List all college and graduate degrees. Provide year and school 
attended.

        B.S., Chemistry, Ursinus College, 1977
        Ph.D., Inorganic Chemistry, Massachusetts Institute of 
        Technology, 1982

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Massachusetts Institute of Technology (Cambridge, MA), 
        Department of Chemistry

        Graduate Student--Research Assistant, September 1977-March 1982

        National Research Council (Washington, D.C.), Board on Chemical 
        Sciences and Technology

        Mellon Foundation Postdoctoral Fellow in Science Policy, March 
        1982-August 1983

        Staff Officer, September 1983-September 1985

        Senior Staff Officer and Associate Director, October 1985-
        January 1987

        Acting Staff Director, February 1987-December 1987

        Staff Director, January 1988-0ctober 1989

        National Research Council (Washington, D.C.), Commission on 
        Physical Sciences, Mathematics, and Resources

        Acting Associate Executive Director, April 1989-0ctober 1989

        U.S. Department of Energy, Office of the Secretary of Energy 
        Advisory Board

        Expert (temporary appointment as a Special Government 
        Employee), October 1989-July 1990

        Executive Director, July 1990-March 1992

        U.S. Department of Energy, Office of Energy Research

        Principal Deputy Director, October 1991-June 1993

        United States Senate, Committee on Energy and Natural Resources 
        (On detail from the U.S. Department of Energy)

        Science Fellow, June 1993-January 1997

        United States Senate, Office of Senator Jeff Bingaman (D--New 
        Mexico) (On detail from the U.S. Department of Energy)

        Science and Technology Advisor, January 1997-January 1998

        Congress of the United States, Joint Economic Committee

        Policy Analyst, January 1998-January 1999

        United States Senate, Committee on Energy and Natural Resources

        Democratic Staff Director, 1999-2001, 2003-2007

        Staff Director, 2001-2003, 2007-2012

        Senior Policy Advisor, January 2013

        Staff [S.Res.9], January 2013-March 2013

        U.S. Department of Energy, Office of the Under Secretary for 
        Science

        Expert (temporary appointment as a Special Government 
        Employee), March 2013-April 2013

        U.S. Department of Energy, Office of Science

        Senior Advisor, April 2013-June 2013

        Executive Office of the President, Office of Science and 
        Technology Policy

        Consultant, June 2013 to present
    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years.
    Member, Nominating Committee, Section on Societal Impacts of 
Science and Engineering, American Association for the Advancement of 
Science, February 2009-February 2012.
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        American Association for the Advancement of Science (member, 
        1979 to present)

        American Chemical Society (member, 1976 to present)

        Sigma Xi--The Scientific Research Society (member, 1981 to 
        present)

        St. Camillus Roman Catholic Parish, Silver Spring, Maryland 
        (member, 2001 to present)

        American Association of Retired Persons (member, 2011 to 
        present)

        Environment Maryland (periodic membership over last 10 years)

        Kiva (member, 2008 to present)

        MIT Club of Washington (periodic membership over last 10 years)

        Obama for America Energy and Environment Team (member, 2012 to 
        present)

        Organizing for America (member, 2013 to present)

        None of the above organizations restricts membership on the 
        basis of the above factors, except that full membership in St. 
        Camillus Parish requires one to be a Roman Catholic.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.

        Obama for America Energy and Environment Team (member, 2012 to 
        present)
        My services consisted solely of attending a public meeting of 
        the Energy and Environment Team and receiving its newsletters 
        and e-mails.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Certificate of Honor for scholarly accomplishment in the 
        sciences, Ursinus College, November 1985.

        Cash performance award for staff contribution to conference on 
        ``What Research Strategies Best Serve the National Interest in 
        a Period of Budgetary Stress,'' National Research Council, 
        1986.

        Career Appointment to the Senior Executive Service, 1990.

        DOE Senior Executive Service Superior Performance Award 
        (Highest Bonus Award), 1991, 1992.

        DOE Senior Executive Service Performance Award and cash bonus 
        for exceptional performance rating, 1993.

        DOE Senior Executive Service highest performance rating, 1994, 
        1995, 1996, 1997.

        John C. Stennis Congressional Staff Fellow for the 106th 
        Congress, Stennis Center for Public Service, 1999-2000.

        Stennis Center for Public Service, Senior Congressional Staff 
        Fellow, 2001-2012.

        Named one of ``The Hill 100'' key staffers of the 109th 
        Congress by National Journal, (April 9, 2005 issue).

        Salute to Excellence award from the President of the American 
        Chemical Society, ACS Middle Atlantic Regional Meeting, May 17, 
        2007.

        Public Service Award, Energy Efficiency Forum North America, 
        2012 (http://www.eeforum.net/Awards/Energy-Leadership-Awards).

        Recognition Award for Service to the Industry, National Energy 
        Resources Organization, 2012.

        Committee on Energy and Natural Resources Resolution of 
        Commendation for Service, 2012.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I have done my best to identify all books, articles, columns or 
publications, including through a review of my personal files and 
searches of publicly available electronic databases. Despite my 
searches, there may be additional presentations that I have been unable 
to identify, find or remember. I have located the following:
Books

        Frontiers in the Chemical Sciences, Washington, D.C.: AAAS 
        Press, 1986, 600 pp. (Co-editor with William Spindel)

National Research Council Reports (Available from www.nap.edu)

    (While reports from the National Research Council reflect the views 
of the expert committees that produce them, as the responsible member 
of the Research Council staff for the below reports, I also had a 
substantial role in writing and editing them.)

        Biosafety in the Laboratory: Prudent Practices for Handling and 
        Disposal of Infectious Materials (1989)

        Chemical Processes and Products in Severe Nuclear Reactor 
        Accidents (1989)

        Frontiers in Chemical Engineering: Research Needs and 
        Opportunities (1988)

        Separation and Purification: Critical Needs and Oppo1iunities 
        (1987)

        Report of the Research Briefing Panel on Chemical Processing of 
        Materials and Devices for Information Storage and Handling 
        (1987)

        Future Directions in Advanced Exploratory Research Related to 
        Oil, Gas, Shale, and Tar Sand Resources (1987)

        Report of the Research Briefing Panel on Chemical and Process 
        Engineering for Biotechnology (1984)
Articles

        Robert M. Simon, ``Issues in Risk Assessment and Cost-Benefit 
        Analysis and Their Relationship to Regulatory Reform,'' 
        University of Cincinnati Law Review, 1995, 63(4), pp. 1611-
        1641.

        Jeff Bingaman, Robert M. Simon, and Adam Rosenberg, ``Needed: A 
        Revitalized National S&T Policy,'' Issues in Science and 
        Technology Policy, Spring 2004, pp. 21-24. <http://
        www.issues.org/20.3/p_bingaman.html>

        Robert M. Simon, ``Seven Rules for Wannabe Cabinet Members,'' 
        Washington Post, November 16, 2012, p. B3. <http://
        miicles.washingtonpost.com/2012-11
        -16/opinions/35503240_1_nuclear-waste-nuclear-problems-energy-
        development>.

        Robe1i M. Simon, ``Staff Empowe1ment Is Key to Manager 
        Success,'' POLITICO, March 14, 2013, pp. 19-20. <http://
        www.politico.com/story/2013/03/
        staff-empowerment-is-key-to managers-success-88882.html>.
Speeches, Talks, and Panel Discussions





----------------------------------------------------------------------------------------------------------------
                                                      2002
----------------------------------------------------------------------------------------------------------------
April 26                       American Institute of Chemical Engineers, Northern California Section 40th Annual
                                Symposium: ``Meeting the Energy Needs of the New Millenium''
                               Speaker
                               Topic: An energy policy for the future
----------------------------------------------------------------------------------------------------------------
                                                      2003
----------------------------------------------------------------------------------------------------------------
January 28                     National War College
                               Course on Energy and Environn1ental Policy (Spring Semester)
                               Washington, D.C.
                               Speaker
                               Topic: Congress and national energy and climate policies

October 8                      National War College
                               Course on Energy and Environmental Policy (Fall Semester)
                               Washington, D.C.
                               Speaker
                               Topic: Congress and national energy and climate policies

November 21                    Georgetown University Law Center
                               Sustainable Energy Institute Forum
                               ``Democratic Presidential Candidates--Views on Energy Policy''
                               Moderator
----------------------------------------------------------------------------------------------------------------
                                                      2005
----------------------------------------------------------------------------------------------------------------
February 2                     National War College
                               Course on Energy and Environmental Policy
                               Washington, D.C.
                               Speaker
                               Topic: Congress and national energy and climate policies

February 8                     Pew Center on Climate
                               Washington, D.C.
                               Panel participant
                               Topic: National energy and climate policies

November 15                    American Association for the Advancement of Science
                               Leadership Seminar
                               Washington, D.C.
                               Speaker
                               Topic: Congress and national energy and climate policies

December 1                     Center for the New West Annual Energy Roundtable
                               Sun Valley, ID
                               Speaker
                               Topic: National energy policy
----------------------------------------------------------------------------------------------------------------
                                                      2006
----------------------------------------------------------------------------------------------------------------
February 1                     National War College
                               Course on Energy and Environmental Policy
                               Washington, D.C.
                               Speaker
                               Topic: Congress and national energy and climate policies

February 22                    Coal Utilization Research Council
                               Washington, D.C.
                               Speaker
                               Topic: Energy and climate change policy

April 21                       American Gas Association
                               Washington, D.C.
                               Speaker
                               Topic: Energy and climate change policy

October 16                     American Public Power Association
                               Washington, D.C.
                               Speaker
                               Topic: Energy and climate change policyOctober 24                     Keystone Energy Forum Annual Meeting
                               Keystone, CO
                               Speaker
                               Topic: Energy and climate change policyNovember 30                    Center for the New West Annual Energy Roundtable
                               Sun Valley, ID
                               Speaker
                               Topic: National energy policyDecember 12                    Eleanor Roosevelt High School AP Government Classes
                               Greenbelt, MD
                               Speaker
                               Topic: The roles of Congressional committees and staff
----------------------------------------------------------------------------------------------------------------
                                                      2007
----------------------------------------------------------------------------------------------------------------
January 31                     National War College
                               Course on Energy and Environmental Policy
                               Washington, D.C.
                               Speaker
                               Topic: Congress and national energy and climate policiesSeptember 27                   American Association of Blacks in Energy
                               Washington, D.C.
                               Speaker
                               Topic: National energy policyNovember 13                    American Association for the Advancement of Science
                               Leadership Seminar
                               Washington, D.C.
                               Speaker
                               Topic: Congress and national energy and climate policiesNovember 19                    National Research Council
                               Committee on Science, Technology, and the Law
                               Washington, D.C.
                               Speaker
                               Topic: National energy policy
----------------------------------------------------------------------------------------------------------------
                                                      2008
----------------------------------------------------------------------------------------------------------------
January 14                     Eleanor Roosevelt High School AP Government Classes
                               Greenbelt, MD
                               Speaker
                               Topic: The roles of Congressional committees and staffFebruary 19                    National War College
                               Course on Energy and Environmental Policy
                               Washington, D.C.
                               Speaker
                               Topic: Congress and national energy and climate policiesJune 17                        Resources for the Future Workshop on Climate Change Policy
                               Washington, D.C.
                               Speaker
                               Topic: Energy policy and climate changeOctober 29                     National War College
                               Course on Energy and Environmental Policy
                               Washington, D.C.
                               Speaker
                               Topic: Congress and national energy and climate policiesNovember 14                    North Dakota Energy Conference
                               Bismarck, ND
                               Speaker
                               Topic: Recap of energy policy and legislation in 110th Congress
----------------------------------------------------------------------------------------------------------------
                                                      2009
----------------------------------------------------------------------------------------------------------------
February 9                     Women's Council on Energy and the Environment
                               Monthly Breakfast
                               Washington, D.C.
                               Speaker
                               Topic: Outlook for new CongressFebruary 19                    60th Annual Oil and Gas Law Conference
                               Houston, TX
                               Speaker
                               Topic: Outlook for energy legislation/regulation in new AdministrationMarch 9                        Midwestern Conference of Major Superiors of Roman Catholic Orders of Religious
                                Men
                               Belleville, IL
                               Speaker
                               Topic: Climate and energy policiesJune 18                        Howard Baker, Jr., Center for Public Policy and Woodrow Wilson International
                                Center
                               Panel on Policy Responses to Climate Change
                               Washington, D.C.
                               Panel participant
                               Topic: Congressional views on climate change and energyJune 24                        CQ Forum on Climate Change and Manufacturing
                               Washington, D.C.
                               Panel participant
                               Topic: Congressional views on climate change and energyJuly 28                        Covington and Burling Breakfast Forum
                               Washington, D.C.
                               Speaker
                               Topic: Update on Senate Energy and Natural Resources CommitteeSeptember 14                   American Geological Institute Leadership Forum
                               Washington, D.C.
                               Panel participant
                               Topic: Congressional views on climate change and energyOctober 5                      CERA Natural Gas Workshop
                               Washington, D.C.
                               Panel participant
                               Topic: Policy landscape for natural gas as seen from CongressOctober 16                     Elmhurst College Niebuhr Center Social Justice Program
                               Elmhurst, IL
                               Speaker
                               Topic: Climate and energy policiesOctober 20                     CQ Roll Call Group Climate Conference
                               Washington, D.C.
                               Panel participant
                               Topic: Upcoming UN Copenhagen meeting and climate/energy policiesNovember 17                    American Association for the Advancement of Science Leadership Seminar
                               Washington, D.C.
                               Speaker
                               Topic: Congress and national energy and climate policiesNovember 19                    Catholic University Young Democrats Club
                               Washington, D.C.
                               Speaker
                               Topic: Energy and climate policy
----------------------------------------------------------------------------------------------------------------
                                                      2010
----------------------------------------------------------------------------------------------------------------
January 26                     American Gas Association Monthly Legislative Breakfast
                               Washington, D.C.
                               Speaker
                               Topic: Current status of energy and climate legislationFebruary 20                    American Association for the Advancement of Science Annual Meeting
                               San Diego, CA
                               Panel participant
                               Topic: Science, technology, and CongressMarch 10                       CSIS Energy Policy Conference: The Unconventional Gas Revolution
                               Washington, D.C.
                               Speaker
                               Topic: Potential perspectives on unconventional natural gasMarch 11                       CQ--Roll Call Group Forum on Natural Gas
                               Washington, D.C.
                               Panel participant
                               Topic: Congressional perspective on unconventional natural gasMarch 18                       Standard and Poor's Annual Utility Conference
                               New York, NY
                               Speaker
                               Topic: Path forward on energy and climate policyApril 16                       American Exploration and Production Council Annual Business Meeting
                               Washington, D.C.
                               Speaker
                               Topic: Current status of energy legislationApril 27                       Podesta Group ``At the Table'' Series
                               Washington, D.C.
                               Speaker
                               Topic: Current status of energy legislationMay 18                         Brookings Institution Forum: ``Back to the Future: The Prospects for Energy and
                                Climate in 2010''
                               Washington, D.C.
                               Panel participant
                               Topic: Science, policy, and regulationSeptember 29                   National Journal Energy Panel
                               Washington, D.C.
                               Panel participant
                               Topic: Status of energy legislationNovember 4                     CQ Post-Election Conference
                               Washington, D.C.
                               Panel participant
                               Topic: Outlook for energy policy in the next CongressNovember 10                    National Research Council Governing Board
                               Washington, D.C.
                               Speaker
                               Topic: How the Research Council can help Congress on important issues, including
                                energyNovember 16                    American Association for the Advancement of Science Leadership Seminar
                               Washington, D.C.
                               Speaker
                               Topic: Congress and national energy and climate policiesNovember 29                    President's Council of Advisors on Science and Technology Release of Report on
                                Energy Technology Innovation System
                               Washington, D.C.
                               Panel discussant
                               Topic: Congressional perspective on report recommendationsDecember 8                     National War College Course on Energy and Environmental Policy
                               Washington, D.C.
                               Speaker
                               Topic: Congress and national energy and climate policies
----------------------------------------------------------------------------------------------------------------
                                                      2011
----------------------------------------------------------------------------------------------------------------
January 20                     Eleanor Roosevelt High School AP Government Classes
                               Greenbelt, MD
                               Speaker
                               Topic: The roles of Congressional committees and staffFebruary 11                    Department of Commerce Manufacturing Council
                               Energy Subcommittee
                               Washington, D.C.
                               Panel participant
                               Topic: Energy and manufacturing policyFebruary 20                    American Association for the Advancement of Science
                               Annual Meeting
                               Washington, D.C.
                               Panel participant
                               Topic: Science, technology, and CongressFebruary 24                    Pew Center for Global Climate Change/Georgetown Climate Center
                               Conference on State and Federal Climate and Energy Policy
                               Washington, D.C.
                               Participant on ``Federal Outlook'' Panel
                               Topic: Outlook for energy policy in the 112th CongressMarch 1                        Abraham Group/Bloomberg
                               Conference on Energy and Environmental Challenges
                               Washington, D.C.
                               Panel participant
                               Topic: Outlook for energy legislation in 112th CongressMarch 11                       25x25 Meeting
                               Washington, D.C.
                               Speaker
                               Topic: Renewable fuels policyMay 20                         Quinn Gillespie Energy Breakfast
                               Washington, D.C.
                               Joint Presentation with McKie Campbell (Republican Staff Director)
                               Topic: Update on Senate Committee on Energy and Natural ResourcesJune 15                        DOE National Laboratories ``Strategic Planning Community of Practice''
                               Arlington, VA
                               Speaker
                               Topic: Update on Senate Committee on Energy and Natural ResourcesSeptember 14                   Superconducting Particle Accelerator Forum of America
                               Washington, D.C.
                               Speaker
                               Topic: Outlook for energy R&D budgetsOctober 10                     U.S. Association for Energy Economics/
                               International Association for Energy Economics
                               30th North American Conference
                               Panel Participant
                               Topic: Changing U.S. and international energy policy perspectivesOctober 19                     UNEP Finance Initiative Global Roundtable 2011
                               Washington, D.C.
                               Panel Participant
                               Topic: ``Green'' energy future seen from different perspectivesNovember 2                     National War College
                               Course on Energy and Environmental Policy
                               Washington, D.C.
                               Speaker
                               Topic: Congress and national energy and climate policiesNovember 15                    Natural Resources Defense Council
                               E2 Entrepreneurs Group
                               Washington, D.C.
                               Speaker
                               Topic: Outlook for energy and climate policiesNovember 16                    Atlantic Magazine Event on Energy Policy
                               Washington, D.C.
                               Joint Presentation with McKie Campbell (Republican Staff Director)
                               Topic: Update on Senate Committee on Energy and Natural ResourcesNovember 17                    American Association for the Advancement of Science
                               Leadership Seminar
                               Washington, D.C.
                               Speaker
                               Topic: Congress and national energy and climate policies
----------------------------------------------------------------------------------------------------------------
                                                      2012
----------------------------------------------------------------------------------------------------------------
February 14                    American Council of Engineering Companies
                               Energy and Environment Committee Winter Meeting
                               Washington, D.C.
                               Speaker
                               Topic: Clean Energy Standard and electricity policyMarch 5                        CERAWeek 2012
                               Houston, TX
                               Panel on ``U.S. Energy Policy in an Election Year''
                               Panel participant
                               Topic: Congressional outlook on energy policyApril 25                       American Fuel and Petrochemical
                               Manufacturers Meeting
                               Washington, D.C.
                               Speaker
                               Topic: Congressional perspective on energy policyMay 10                         National Research Council
                               Board on Environmental Change and Society
                               Washington, D.C.
                               Reception speaker
                               Topic: Opportunities for Board to contribute to energy policyMay 21                         Woodrow Wilson International Center for Scholars:
                               Panel on ``Congress and the Global Energy Crunch''
                               Washington, D.C.
                               Panel participant
                               Topic: Congressional perspective on energy policyMay 23                         Geothermal Energy Association
                               Washington, D.C.
                               Speaker
                               Topic: Renewable energy policyJune 7                         Argus Renewables Conference
                               Washington, D.C.
                               Speaker
                               Topic: Renewable energy policyJune 20                        Superconducting Particle Accelerator Forum of America
                               Washington, D.C.
                               Speaker
                               Topic: Outlook for energy R&D budgetsJune 29                        Silicon Valley Energy Summit
                               Stanford, CA
                               Speaker
                               Topic: Energy policy from a Federal legislative perspectiveJuly 11                        Association of American Universities SRO-CFR
                               Joint Meeting
                               Washington, D.C.
                               Speaker
                               Topic: Energy Policy from a Federal legislative perspectiveSeptember 27                   Lockheed Martin Energy Forum
                               Crystal City, VA
                               Panel participant
                               Topic: Outlook for energy policyOctober 12                     Energy and Environmental Study Institute Congressional Briefing on China
                               Washington, D.C.
                               Panel participant
                               Topic: Energy policy and ChinaOctober 15                     Stanford University Course, ``Energy in Transition: Technology, Policy and
                                Politics'' (Energy 154)
                               Stanford, CA
                               Speaker
                               Topic: Energy markets and energy policiesNovember 9                     World Resources Institute Corporate Consultative Group Meeting
                               2012 Mindshare Meeting
                               Washington, D.C.
                               Panel participant
                               Topic: Outlook for action on climate changeDecember 11                    Bureau on Safety and Environmental Enforcement (BSEE) Staff Retreat
                               Department of the Interior Building
                               Washington, D.C.
                               Speaker
                               Topic: Congressional perspective on BSEE mission
----------------------------------------------------------------------------------------------------------------
                                                      2013
----------------------------------------------------------------------------------------------------------------
February 12                    American Association for the Advancement of Science (AAAS)
                               AAAS Fellows Monthly Meeting
                               Washington, D.C.
                               Speaker
                               Topic: Introduction to energy and climate policyFebruary 14                    American Chemical Society
                               Webinar on Federal Budget for ACS Board Members
                               Washington, D.C.
                               Panel participant
                               Topic: Congressional outlook for budgetApril 10                       George Washington University School of Law
                               2013 J.B. and Maurice C. Shapiro Conference
                               Laying the Foundation for a Sustainable Energy Future: Legal and Policy
                                Challenges
                               Washington, D.C.
                               Panel Moderator
                               Topic: Economic sustainability in energy policy
----------------------------------------------------------------------------------------------------------------
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    In my capacity as Principal Deputy Director of the Office of Energy 
Research, U.S. Department of Energy, I testified on behalf of the 
Administration at a hearing entitled ``The Status of the 
Superconducting Super Collider,'' before the Subcommittee on 
Investigations and Oversight of the Committee on Science, Space, and 
Technology, U.S. House of Representatives, April 9, 1992. The 
Superconducting Super Collider was a major project under construction 
by the Department of Energy. My testimony described the then-current 
status of the project.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    The Office of Science and Technology Policy (OSTP) was established 
to serve as a source of scientific and technological analysis and 
judgment for the President with respect to major policies, plans, and 
programs of the Federal Government. Some of the most important and 
complex issues facing the Nation at this time are in the areas of 
environment and energy. In these areas, there is a great need for 
careful and balanced consideration of scientific and technical 
information, including the unce1iainties in such information, as it 
contributes to the broader analysis of the relevant issues.
    OSTP is not the final word in the formulation of any specific 
policy. It must work cooperatively with other parts of the Executive 
Office of the President, Federal Departments and agencies, and Congress 
as these other organizations bring their expertise to their particular 
roles in the policy development process. OSTP, though, must be a key 
contributor in its sphere of competence.
    If confirmed, I believe that my career to date has given me an 
excellent background from which to make a contribution to OSTP as its 
Associate Director for Environment and Energy.
    My scientific training is in chemistry, a core scientific 
discipline for environmental and energy issues. My early career 
experiences in Washington were at the National Research Council of the 
National Academies of Sciences and Engineering, where I directed the 
process of developing technical consensus around science, engineering, 
and energy policy issues.
    When I went to the Department of Energy in 1989, I had the good 
fortune to work directly for the Secretary of Energy, Admiral James D. 
Watkins. In that capacity, I was responsible for drawing together and 
presenting relevant scientific and technical info1mation and advice to 
him. I was also able to see how that information was used in the 
formulation and execution of energy and environmental policy. After 
successfully establishing the Secretary of Energy Advisory Board and 
directing its first set of studies, I was promoted into a more 
responsible position in the senior line management of the Office of 
Energy Research. There I learned more about scientific program 
management and the organizational and budgetary challenges that must be 
met in order to successfully manage programs and projects.
    In June 1993, the Chairman of the Senate Energy and Natural 
Resources Committee, Sen. J. Bennett Johnston, requested that I be 
detailed to the Committee as a science expert. As a member of the 
Committee's staff, I saw how scientific and technical information 
affects and is sometimes embodied in energy and environmental 
legislation.
    After Sen. Johnston's retirement, I was assigned by the Department 
of Energy to help Sen. Jeff Bingaman as a scientific and technical 
advisor. After a year, he hired me as a member of the staff of the 
Joint Economic Committee in 1998 and then asked me to lead the 
Democratic staff of the Senate Energy and Natural Resources Committee 
in 1999. My 14 years heading the staff of the Committee, about half of 
which was spent in the majority and half in the minority, gave me a 
very strong understanding of how public policy in energy and 
environmental areas can be successfully crafted through legislation. I 
built and managed a very capable staff of experts in the disciplines 
required to develop such legislation. As one of the most substantive, 
constructive, and bipartisan members of the Senate, Sen. Bingaman also 
set a high standard of excellence in working with his colleagues on 
both sides of the aisle, which I tried to emulate.
    I believe that all of these experiences, and the accomplishments 
that I was able to contribute to over the course of my career in the 
Senate, affirmatively qualifies me for a position that is entrusted 
with the development and reasoned application of scientific and 
technical information to the public policy process at its highest level 
in the Executive Branch.
    My interest in the position of Associate Director for Environment 
and Energy at the OSTP is natural, given my background and experience. 
My career has been marked by a commitment to public service. I have a 
strong desire to help formulate sensible approaches to crucial national 
and international challenges in the area of energy and the environment. 
U.S. energy policy is at a crossroads where many previous assumptions 
about our energy future must be re-examined. Domestic resources of 
natural gas, thanks to technological breakthroughs, now far exceed 
previous estimates that led to projected energy futures in which gas 
would become expensive and constrained. At the same time, the 
environmental challenges posed by an energy policy course that greatly 
increases atmospheric concentrations of greenhouse gases must be 
addressed. While the prospect of addressing these complex environmental 
and energy challenges in a manner that develops long-term social and 
political consensus is daunting, I cannot think of a more important set 
of issues to which I could make a substantive contribution, if 
confirmed.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I take very seriously my responsibility as a manager for ensuring 
that the activities under my purview are conducted in a manner that 
fully complies with applicable management and accounting controls. In 
OSTP, a number of personnel with specific responsibility for management 
and accounting issues report to the Director through his Chief of 
Staff. If confirmed, I plan to work closely with these colleagues to 
make sure that proposed expenditures under my purview are compatible 
with the missions and authorized programs of the Office; that I am 
complying with appropriate internal controls to prevent waste, fraud, 
and abuse, and cooperating with compliance audits; and that any 
concerns about potential management problems are promptly shared with 
the persons responsible for addressing those concerns.
    Over the course of my career, I have managed organizations large 
and small.
    While at the National Research Council (1982-1989), I progressed 
through a series of positions of increasing management responsibility, 
culminating in a dual position as Staff Director of the Board on 
Chemical Sciences and Technology and an acting position one level up as 
the Associate Executive Director of the largest management unit of the 
Research Council at that time.
    This track record of managerial experience was sufficient to 
qualify me for a career appointment in the Senior Executive Service in 
1990 (which required a review of my managerial competencies both by an 
internal board in the Department and at the Office of Personnel 
Management), when I became a permanent full-time employee of the 
Department of Energy.
    As the first Executive Director of the Secretary of Energy Advisory 
Board (1990-1991), I was responsible for establishing a new office, 
hiring its staff, and creating procedures to ensure compliance with the 
applicable Departmental orders and regulations.
    As Principal Deputy Director of the Office of Energy Research 
(1991-1993), I was the senior career civil servant in an organization 
with several layers of management and over 1,100 Federal employees 
across the country. I was responsible for both general management 
direction and overall compliance with requirements that included 
administrative and personnel procedures, as well as environment, safety 
and health requirements. While in this position, I participated in a 
revamp and streamlining of the grant-making procedures and requirements 
of the Office.
    As Democratic Staff Director and full committee Staff Director of 
the Senate Committee on Energy and Natural Resources (1999-2012), I 
supervised over 30 professional and support staff consisting of very 
highly skilled and specialized lawyers, scientists, engineers, and 
economists. During my tenure, the Committee was one of the most 
productive in the Senate, enacting 426 public laws from 1999-2012. Two 
of these laws were major bills that set new directions for national 
energy policy. Two of the other 424 public laws amalgamated an 
additional 221 individual public lands bills between them, and 
represented a major accomplishment in the protection of our natural 
resources. Successfully passing these laws required strong staff 
management, close coordination with Senate leadership, and careful 
consultation on a bipartisan and bicameral basis with colleagues who 
sometimes had views that diverged from my own. Chairman Bingaman set 
the tone for substantive, constructive, and bipartisan engagement on 
these issues, and I was fortunate to be able to work for him in that 
vein.
    I have received consistently favorable reviews for my management 
style and the results it has achieved over the years, including the 
highest performance rating for each year I was at the Department of 
Energy and substantial cash performance awards in 3 of those years.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The top challenge facing OSTP in the environment and energy arena 
is ensuring that a careful and balanced consideration of scientific and 
technical information is at the foundation of the public policy process 
for issues where such information materially affects the decision to be 
made. There are many such issues at the nexus between energy and 
environmental concerns. In order to create a setting where innovation 
and investment in long-term solutions to these concerns can flourish, 
we need a broadly-based and stable consensus on the path forward. 
Conducting scientific observations that lead to generally accepted and 
predictive models of natural systems; assembling credible information 
on the extent, economic availability, and risks/benefits of accessing 
needed natural resources; and developing technical analyses of relevant 
future technologies and policies are all necessary if we are to 
identify a path forward toward solutions that are both environmentally 
and economically sustainable.
    Closely behind this challenge in terms of difficulty and complexity 
is the need for OSTP to help the Administration, the Congress, and key 
elements of American society (such as our industrial sector and our 
institutions of education and training) to address the most important 
S&T needs and opportunities at a time of severely constrained Federal 
resources. This is because we must continue to develop the scientific 
information and technological advances required to meet important 
national needs, but do not have infinite resources to do so. OSTP must 
establish a broad and coherent set of priorities for science and 
technology investments. These priorities must be determined in a way 
that maintains excellence in the most important areas of science and 
engineering, that allows for new initiatives to address outstanding 
intellectual prospects and crucial societal needs, that ensures that we 
have the highly trained personnel needed to exploit future frontier 
areas of research and development, and that guides the difficult task 
of identifying and phasing down investments in areas of lesser 
importance.
    The third significant challenge OSTP faces is a function of its 
institutional design. OSTP has a broad mandate to advise the President, 
but no line authority over the Federal agencies and organizations about 
which it is advising. Thus, to be successful, it must build effective 
relationships of persuasion and trust across a spectrum of Federal and 
external entities. These relationships are required to gain the 
information and analysis needed to develop the substance of good 
advice, but likely will develop only if OSTP's processes allow the 
affected agencies to feel that their voices are heard in an effective 
and timely manner. The effectiveness of OSTP in convening disparate 
agencies, coordinating their information in the policy development 
process, and implementing the decisions that result from its advice 
will always be a product of both the quality of its staff and the 
confidence it has engendered in the fairness of its processes. And, 
OSTP will always be challenged by the necessity of carrying out its 
work in limited time.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have no financial arrangements, deferred compensation agreements, 
or other continuing dealings with any business associates, clients, or 
customers. I will continue to maintain my TIAA traditional retirement 
annuity (fixed), which had a value, as of March 31, 2013, of 
$121,056.52. I also have a retirement account with the Federal Thrift 
Savings Plan (TSP), which had a value, as of July 31, 2013, of 
$827,981.81.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and OSTP's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with OSTP's designated 
agency ethics official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and OSTP's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with OSTP's designated 
agency ethics official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    No activities outside my duties as an employee of the United States 
Senate.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and OSTP's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with OSTP's designated 
agency ethics official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None to my knowledge.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                       Resume of Robert M. Simon
Experience

Executive Office of the President, Office of Science and Technology 
Policy
Consultant, June 2013 to present

Provide advice on policy formulation to the Director and other staff of 
the Office of Science and Technology Policy.

U.S. Department of Energy
Expert, Office of the Under Secretary for Science, March 2013-April 
2013
Senior Advisor, Office of Science, April 2013-June 2013

Provided advice on policy formulation and outreach to the Office of 
Science and other elements of the Department of Energy.

United States Senate, Committee on Energy and Natural Resources
Staff Director, 2001-2003, 2007-2012
Democratic Staff Director, 1999-2001, 2003-2007
Senior Policy Advisor, January 2013
Staff [S. Res. 9], January 2013-March 2013

Roles

  <bullet> Served as overall Staff Director for the Committee when 
        Democrats were the Majority party in the Senate. Responsible 
        for overall coordination and administrative management of the 
        Committee, including the nonpartisan support staff. Developed 
        and implemented an effective bipartisan agenda of legislative 
        and oversight activities over several successive Congresses.

  <bullet> Served as Democratic Staff Director when Democrats were the 
        Minority party. Responsible principally for Democratic staff. 
        Responded to Majority initiatives and worked to shape 
        bipartisan outcomes.

  <bullet> In both roles, directed professional and support staff for 
        the Committee. Formulated legislative strategies and negotiated 
        agreements with Republican staff. Dealt directly with senior 
        government policymakers, including the Secretary of Energy, the 
        Secretary of the Interior, the White House, and the Senate 
        Democratic leadership.
Accomplishments

  <bullet> In 112th Congress (2011-2012), continued to work towards 
        bipartisan formulation of energy policy, winning Committee 
        approval of 19 energy bills. These bills promoted clean energy 
        development, encouraged advanced vehicles, improved energy 
        efficiency standards, conserved water in energy applications, 
        ensured the cybersecurity of the national electrical grid, and 
        secured future availability of key isotopes for medical 
        diagnosis. Two of these bipartisan bills were enacted into law.

  <bullet> From the 106th to the 112th Congress (1999-2012):

    <ctr-circle> Supervised Committee approval of 955 bills and 
            resolutions.

    <ctr-circle> Contributed to the enactment of 426 public laws.

    <ctr-circle> Managed Committee's review for the Senate confirmation 
            of 128 Executive Branch nominations.
Notable Laws
  <bullet> Omnibus Public Land Management Act of 2009. Combined 160 
        separate measures approved by the Committee during the 110th 
        Congress into a law enacted at the beginning of the 111th 
        Congress. Protected over 2 million acres of wilderness, 
        expanded several national parks, established 10 new National 
        Heritage Areas, ensured the wild and scenic character of 
        hundreds of miles of rivers, and authorized numerous water 
        projects at the U.S. Bureau of Reclamation.

  <bullet> Consolidated Natural Resources Act of 2008. Consolidated 
        enactment of 62 separate legislative measures to conserve and 
        protect public lands.

  <bullet> Energy Independence and Security Act of 2007. Provided a 
        substantial boost to the use of renewable fuels and a major 
        increase in energy efficiency standards, including the first 
        increase in vehicle fuel economy standards in 30 years. Made 
        key advances towards effective carbon capture and sequestration 
        technologies. Enacting this law required detailed coordination 
        with leadership staff in the House of Representatives to 
        harness the work of 5 Senate committees and 10 House committees 
        on this legislation, a task that had to be accomplished in an 
        informal process of unprecedented complexity between the two 
        chambers.

  <bullet> America COMPETES Act. The first comprehensive science and 
        technology competitiveness law in over a decade. Boosted basic 
        research across the government and education and training of 
        scientists and engineers.

  <bullet> Energy Policy Act of 2005. The first comprehensive law 
        governing energy policy in 13 years. Boosted the scientific and 
        technological missions and programs of the Department of Energy 
        (DOE), including the first comprehensive authorization of DOE 
        research and development (R&D) programs since the 1970s and the 
        establishment of a new Under Secretary for Science to bring 
        greater coherence to DOE's R&D efforts. Established strong new 
        consumer protections for electricity markets and robust fiscal 
        incentives for renewable energy and energy efficiency.

  <bullet> Energy Employees Occupational Illness Compensation Act of 
        2000. Established a new program to compensate DOE workers for 
        illnesses from past hazardous and radiological exposures in the 
        workplace. Since enactment, over $8 billion of compensation and 
        health care costs have been paid to over 125,000 sick workers 
        and their survivors.

Congress of the United States, Joint Economic Committee
Policy Analyst, 1998-1999

    Chief scientific and technical advisor to the Democratic staff of 
the Joint Economic Committee. Responsible for cross-cutting issues 
involving the interaction between the economy and defense, energy, and 
environmental sectors, as well as the role of Federal R&D in promoting 
national economic productivity.

  <bullet> Led a successful effort in which Congress directed the 
        Department of Defense (DOD) to double its commitment to basic 
        and applied R&D over an 10-year period. This effort made the 
        training of the next generation of scientists and engineers for 
        future defense needs a key objective of the DOD R&D program.

  <bullet> Broadened the statutory authority for DOE laboratories to 
        carry out R&D work for other agencies and clarified and reduced 
        administrative charges to these other agencies.

United States Senate, Office of Senator Jeff Bingaman (D-New Mexico)
(On detail from the U.S. Department of Energy)
Science and Technology Advisor, 1997-1998

    Chief scientific and technical expert for Senator Jeff Bingaman, 
with lead responsibility for scientific and technical issues relating 
to energy, defense, environment, and management of Federal R&D.

  <bullet> Improved DOE management of procurement, R&D, and facilities 
        through the Department of Energy Standardization Act of 1997 
        and amendments to the National Defense Authorization Act for FY 
        1998.

  <bullet> Primary drafter of amendments to appropriations bills 
        preserving Federal-utility energy conservation programs, re-
        establishing a scientific and technical advisory capability for 
        Congress similar to the former Office of Technology Assessment, 
        and stopping sales from the Nation's Strategic Petroleum 
        Reserve.

United States Senate, Committee on Energy and Natural Resources
(On detail from the U.S. Department of Energy)
Science Fellow, 1993-1997

    Scientific and technical advisor to senior Senate leaders in the 
energy and environmental arena. Worked principally with Committee 
chairman, Senator J. Bennett Johnston (D--Louisiana).

  <bullet> Made Federal-industry partnering more predictable through 
        changes to technology transfer laws.

  <bullet> Wrote laws eliminating restrictions affecting the hiring of 
        senior managers in the DOE and enhancing the ability of 
        academic researchers to serve as temporary <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="96d7e4f9e2f7e2f9e4e5d6">[email&#160;protected]</a> managing 
        DOE R&D programs.

  <bullet> Key expert on environmental and health risk assessment and 
        administrative law during the Senate debate on regulatory 
        reform.

U.S. Department of Energy, Office of Energy Research
Principal Deputy Director, 1991-1993

Principal line officer under the Director of Energy Research, Dr. Will 
Happer, who managed an annual R&D budget of over $3 billion and over 
1,100 staff in Washington, D.C. and in regional field offices.

  <bullet> Provided day-to-day management oversight over R&D programs 
        in materials, chemistry, engineering, geosciences, 
        environmental sciences, molecular biology, nuclear medicine, 
        biotechnology, and global climate change. Helped reorient the 
        R&D priorities of the Office, resulting in increased budgets 
        while other DOE programs were cut.

  <bullet> Changed DOE procurement regulations to cut paperwork 
        requirements for R&D funding by two-thirds.

  <bullet> Senior line manager supervising management of environment, 
        worker safety, and health at DOE facilities.

  <bullet> Testified before Congress, led a multi-agency U.S. 
        delegation to a major workshop with the Japanese on 
        environmental technologies, and routinely worked with senior 
        Congressional and Executive Branch staff on R&D matters.

U.S. Department of Energy, Office of the Secretary of Energy Advisory 
Board
Executive Director, 1990-1992
Expert, 1989-1990

Developed and directed the Secretary of Energy Advisory Board, a group 
of distinguished external advisors who reported directly to the 
Secretary of Energy, Admiral James D. Watkins, and served as the 
Department's long-range planning arm. Helped recruit and worked closely 
with first Chair, Dr. Thomas Everhart (then-President of the California 
Institute of Technology).

  <bullet> Organized high-profile studies on national energy policy; 
        the future of DOE national laboratories; economic modeling; 
        radioactive waste management; and science education policy.

  <bullet> Served as principal liaison between the Secretary of Energy 
        and the scientific and technical community.

  <bullet> Coordinated DOE participation in Administration science and 
        technology policy making.

National Research Council, Washington, D.C., 1982-1989

A progression of assignments involving greater amounts of 
responsibility at the Research Council (the operating arm of the 
National Academy of Sciences and the National Academy of Engineering), 
leading to two final concurrent positions: one of which involved 
directing a staff of 5 professional and support personnel, and a 
portfolio of projects with a combined annual budget of over $650,000; 
and the other of which involved managing the largest unit of the 
Research Council.

  <bullet> Produced 7 significant reports from 1984-1989.

  <bullet> Managed external peer review for a $40 million/year Air 
        Force research program in chemical and atmospheric sciences.

  <bullet> Coordinated U.S. participation in 3 international scientific 
        organizations.
Education

Massachusetts Institute of Technology, Cambridge, Massachusetts--Ph.D., 
Inorganic Chemistry, June 1982

Ursinus College, Collegeville, Pennsylvania--B.S., Chemistry, May 1977
Selected Recognitions

Elected a Fellow of the American Association for the Advancement of 
Science, 2006.

Career Appointment to the Senior Executive Service, 1990 (one of the 
youngest career Senior Executives in the DOE).

Leadership award from the President of the American Chemical Society, 
ACS Middle Atlantic Regional Meeting, May 2007.

2008 Alumni Award, Ursinus College.

Public Service Award, Energy Efficiency Forum North America, 2012

Recognition Award for Service to the Industry, National Energy 
Resources Organization, 2012

    Senator Nelson. Thank you, Dr. Simon. Let me turn to 
Senator Thune for his statement, please. Senator.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. I want to thank you 
for holding this hearing to consider these nominations today. 
And I want to thank our panelists here today for their 
willingness to serve. Obviously, already hearing from Dr. 
Simon, and I look forward to hearing from the other members of 
the panel as well, but I want to thank them for being here and 
for their willingness to take on these important positions.
    The OSTP has the important role of leading and coordinating 
interagency efforts to develop and implement science and 
technology policies and budgets across the Federal Government. 
This often means managing dozens of agencies' participation and 
input on a single policy issue, which can be a difficult task.
    The OSTP also has the job of working with our private 
sector to ensure that Federal investments in science and 
technology contribute to our Nation's economic prosperity. Dr. 
Simon, who will cover the areas of environment and energy at 
OSTP, is no stranger to the Senate. As I'm sure has already 
been mentioned, his 20 year career on the Energy and Natural 
Resources Committee will, I hope, help facilitate productive 
relationships between the executive branch and Congress.
    I am interested, of course, on his perspective and thoughts 
in forest health R&D which, he mentioned, is a topic of 
interest, and his meeting with the Committee staff and the 
subject of mining education and research which are key 
components of the energy value chain.
    Our other OSTP nominee, Dr. Handelsman, has impressive 
credentials and is a prolific author on technical subjects 
within the field of microbiology as well as science education. 
In particular, I would like to hear her opinions about how 
agriculture R&D may contribute to the food supply and food 
security. I am hopeful that, in her position covering the 
science and STEM portfolio at OSTP, she can provide leadership 
on the issue of STEM education and work with Members of 
Congress to improve coordination of these programs across the 
Federal Government.
    I also hope that both of these nominees will work with this 
committee as it considers legislation to reauthorize the 
America Competes Act later this year.
    After serving at the helm of NOAA, as Acting Administrator 
for nearly 7 months now, I'm pleased to see that Dr. Kathy 
Sullivan has been nominated to lead this important agency. In 
areas such as weather forecasts, severe storm warnings, 
fisheries management, and support for marine commerce, NOAA 
impacts the readiness and livelihoods of Americans on a daily 
basis.
    As an administrator, Dr. Sullivan will be responsible for 
all of this and more. While she has already made significant 
strides in providing steady leadership through this tough and 
uncertain fiscal environment, I look forward to hearing Dr. 
Sullivan's views today in learning more about her vision for 
NOAA moving forward.
    I would also like to take this opportunity to personally 
extend an invitation to all of you to visit South Dakota. We 
have some exciting cutting edge research going on in our state 
at the Sanford Underground Research Facility, otherwise known 
as SURF, which is located in the old Homestake Mine in Lead, 
South Dakota. Physics researchers are leading the Large 
Underground Xenon, or LUX, experiment to detect the existence 
of dark matter.
    The South Dakota School of Mines and Technology in Rapid 
City is collaborating with our land grant, South Dakota State 
University in Brookings, to constitute the Center for 
Bioprocessing Research and Development, which is making 
discoveries in feedstock development, bioprocessing microbes 
and enzymes, and biofuels that will enable bioindustries to 
meet U.S. energy needs.
    So Mr. Chairman, I expect that we can advance these 
nominations through the Committee and hopefully the Senate, in 
a timely manner and I appreciate your holding the hearing 
today. I look forward, again, to the testimony and the 
opportunity to interact with our nominees and am very much 
anxious to hear the responses to our questions. So thank you 
again for having the hearing and thank you all for being here.
    Senator Nelson. OK, Dr. Handelsman.

         STATEMENT OF DR. JO HANDELSMAN, NOMINEE TO BE 
 ASSOCIATE DIRECTOR FOR SCIENCE, WHITE HOUSE OFFICE OF SCIENCE 
                     AND TECHNOLOGY POLICY

    Dr. Handelsman. Chairman Nelson, Ranking Member Thune, and 
Committee members, I am honored to be here today as President 
Obama's nominee for the position of Associate Director for 
Science in the Office of Science and Technology Policy. I am 
also pleased to have the opportunity to tell you a bit about 
what motivated me to become a scientist, first in academia and 
now, if confirmed, in public service.
    Two experiences stand out as critical influences on my 
career and scientific choices. The first was in my seventh 
grade science class, where I looked through a microscope for 
the very first time and I saw the magnificent world of 
microorganisms. At that moment, I knew I wanted to become a 
scientist. That glimpse of the microscopic world not only 
motivated me, but also changed my attitudes and ideas about 
science education.
    I believe that every student should have the opportunity to 
have their microscope moment, as I did. Students need to learn 
science by thinking about science, learning to think like 
scientists, and doing science, not just reading about the 
science that others have generated that ends up in a textbook. 
And they need to have teachers who inspire them and foster 
scientific thinking.
    I know this Committee shares my commitment to improving 
U.S. Science and engineering education and I would welcome the 
opportunity to work with you on this important challenge that 
faces our Nation.
    The second experience that shaped me very much as a 
scientist was my mother's death. That loss was deepened by the 
fact that she died with an infection with antibiotic-resistant 
bacteria, precisely the focus of my own research. So after 20 
years of seeking new antibiotics, I stood by helplessly as my 
mother suffered and eventually died of disease because we 
lacked sufficient antibiotics to help her. And my mother's case 
is just one of many Americans who die of infectious disease 
caused by antibiotic-resistant bacteria. And despite it being 
one of the greatest threats to our healthy in the future, I 
think we invest insufficiently in the problem in our research 
portfolio.
    Infectious disease is probably just one of the many 
challenges that face us that can be addressed with science and 
also one of quite a few that we under-invest in. And so if I 
have the honor of being the Associate Director for Science, I 
would help to ensure that America's research portfolio was 
balanced and addressed the most serious risks that our Nation 
faces.
    I bring to these challenges the experience and wisdom of 
four decades of looking through microscopes and 28 years as a 
professor, first at the University of Wisconsin and then, more 
recently, at Yale. If confirmed, I would be honored to use the 
skills and experience that I've gained to serve the American 
people in strengthening science and technology education and 
research.
    I thank you for having me here today and I, of course, 
would be happy to answer your questions.
    [The prepared statement and biographical information of Dr. 
Handelsman follow:]

 Prepared Statement of Dr. Jo Handelsman, Nominee, Associate Director 
    for Science, White House Office of Science and Technology Policy
    Chairman Rockefeller, Ranking Member Thune, and Committee members, 
I am honored to be here today as President Obama's nominee to serve as 
the Associate Director for Science in the White House Office of Science 
and Technology Policy. I am pleased to have this opportunity to 
introduce myself, to tell you a little about what inspires me, and to 
discuss what I would hope to accomplish, if confirmed, in this position 
of public service.
    Many experiences contributed to my decision to pursue a career as a 
scientist--and to apply my knowledge and skills to public service--but 
two experiences in particular stand out.
    When I was 12 years old, I looked through a microscope for the 
first time and saw a microscopic organism swimming about in a world 
that had been invisible and completely unknown to me. It was a 
revelatory experience, and at that moment I knew I wanted to become a 
scientist. From that day on, I didn't really want to do much else 
besides look through a microscope at whatever I could find--to explore 
this tiny yet amazingly complex ecosystem of living things. So I did 
enough babysitting for the next six months to save up $72 to buy a 
wonderful old microscope that had been used in European hospitals in 
the 1930s and somehow had made its way across the ocean to America. I 
still have that microscope today. And the universe it introduced me to 
was--and continues to be--no less wondrous than the one that today's 
astronomers--and perhaps a few Senators--marvel at as they look through 
their giant telescopes to the outer limits of space.
    All students should be able to have their own ``microscope 
moments''. Most will not decide to follow the path that I did, but the 
right experiences in classrooms and on field trips can teach them the 
important lesson that science is not about facts in a textbook, but 
about exploring the world around us, about discovery, about puzzles, 
and about problem solving. The understanding that science is not a body 
of facts but rather a process--a way of asking questions and solving 
problems--is increasingly important for all of us, as personal and 
societal decision-making is increasingly dependent on our ability to 
interpret and make judgments about scientific data.
    But it is also important on a larger scale, because science and 
technology today are also essential for our Nation's continued 
innovation, competitiveness, and economic strength. If America is to 
maintain its leadership position in the world it is absolutely 
necessary that we as a nation inspire a new generation of Americans to 
excel in science, technology, engineering, and mathematics--the so-
called STEM subjects. As you may know, I co-chaired a working group of 
the President's Council of Advisors on Science and Technology that 
prepared the report, Engage to Excel, which focused on the pending 
shortfall of domestically trained scientists and engineers for the U.S. 
workforce and called for actions to increase by one million the number 
of college graduates with STEM degrees over the next decade. Our 
working group concluded that a critical aspect of attracting more 
students to STEM careers is providing those ``microscope moments'' to 
students throughout science education. I know that the Congress and the 
Administration share this important goal and, if confirmed, I would 
welcome the opportunity to help improve our citizens' understanding of 
science and inspire more young people to become scientists and 
engineers.
    The second experience that has shaped me as a scientist and 
inspired me to apply my skills on the scale of Federal service was my 
mother's death. The pain of that loss was deepened because she died 
from an infection with antibiotic-resistant bacteria--precisely the 
focus of my own research. After 20 years of seeking new antibiotics and 
inventing new ways to find them, I stood by helplessly watching my 
mother suffer because we still lacked sufficient antibiotics to save 
her. And my mother's case is a personal example of the type of 
infectious disease that kills many thousands of Americans each year. 
Antibiotic-resistant bacteria represent one of the greatest health 
threats confronting us today, and also represent a gap in our federally 
funded research portfolio.
    That experience intensified my search for new antimicrobials and 
inspired many studies of antibiotic resistance in my lab. But beyond 
that, it connected me with a problem of national and even global 
significance, as antimicrobial resistance is a major problem around the 
world, and it forced me to consider the U.S. biomedical research agenda 
in a personal way. It stimulated me to think hard about strategic 
investment in science and the prioritization of precious resources.
    As you know, Mr. Chairman, OSTP serves as a coordinating office for 
many scientific and technological endeavors that cross department and 
agency lines. If confirmed, I can promise that I will bring all of my 
personal and professional power to bear to ensure that America's 
research portfolio is balanced with regard to the most serious risks we 
face as a nation, and that critical gaps are addressed methodically but 
aggressively, as American taxpayers appropriately expect.
    Finally, I should note that none of this can be accomplished by the 
Federal Government alone, and academic researchers and teachers have a 
huge role to play. Toward that end of partnering with and leveraging 
the immense potential of academic science and science education, I 
bring 28 years of experience as a professor at two great universities--
the University of Wisconsin and Yale University--which have provided me 
with an understanding of the responsibilities and contributions of both 
public and private institutions. If confirmed, I would be honored to 
serve the people of the United States by helping to focus this Nation's 
diverse public and private resources on the task of ensuring that U.S. 
policies effectively bolster scientific research and education.
    Thank you for having me here today, and I would be happy to answer 
your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Legal name: Jo Emily Handelsman
        Former name: Joanne Emily Handelsman

    2. Position to which nominated: Associate Director for Science in 
the Office of Science and Technology Policy.
    3. Date of Nomination: July 31, 2013.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Yale University, Department of Molecular, Cellular & 
        Developmental Biology, 219 Prospect Street, 904 Kline Biology 
        Tower, New Haven, CT 06511.

    5. Date and Place of Birth: March 19, 1959; New York City.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Casey Nagy, Special Assistant to the Vice President, 
        Yale University; Director, Yale-NUS College Office--New Haven, 
        Yale (collaboration with the National University of Singapore). 
        Children: Erin Nagy, stepdaughter, 26 years old Nathan Nagy, 
        stepson, 21 years old.

    7. List all college and graduate degrees. Provide year and school 
attended.

        B.S. 1979 Cornell University, Agronomy
        Ph.D. 1984 University of Wisconsin-Madison, Molecular Biology

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
    Note: Management-level positions are indicated below with an 
asterisk.
Yale University Positions
  <bullet> *2010 to present, Director, The Center for Scientific 
        Teaching at Yale

  <bullet> 2010 to present, Professor, Department of Molecular, 
        Cellular and Developmental Biology

  <bullet> 2011 to present, Frederick Phineas Rose Professor

  <bullet> 2002 to present, Howard Hughes Medical Institute Professor
University of Wisconsin Positions
  <bullet> *2007-2009, Professor and Chair, Department of Bacteriology

  <bullet> *2002-2010, Director, Wisconsin Program for Scientific 
        Teaching

  <bullet> *1997-1999, Director, Institute for Pest and Pathogen 
        Management,

  <bullet> 1995-2007, Professor, Department of Plant Pathology

  <bullet> 1991-1995, Associate Professor, Department of Plant 
        Pathology

  <bullet> 1985-1991, Assistant Professor, Department of Plant 
        Pathology

  <bullet> 1984-1985, Postdoctoral Fellow, Department of Plant 
        Pathology
Other Positions Relevant to Nominated Position
  <bullet> 2012 to present, Series Editor, ``Entering Mentoring,'' the 
        Wisconsin Program for Scientific Teaching

  <bullet> 2003 to present, Series Editor, Controversies in Science and 
        Technology (unpaid), published by University of Wisconsin Press
  <bullet> *2006-2012, President, Rosalind Franklin Society (unpaid)

  <bullet> *2004-2012, Co-Director (with Bill Wood, University of 
        Colorado), National Academies Summer Institute on Undergraduate 
        Education in Biology

  <bullet> 2007-2011, Editor-in-Chief, DNA and Cell Biology (unpaid), 
        published by Mary Ann Liebert, Inc. Publishers

  <bullet> *2001-2007, Co-Director (and Co-Founder), Women in Science 
        and Engineering Leadership Institute (WISELI)

  <bullet> 2005-2008, Editor, Applied and Environmental Microbiology 
        (unpaid), published by the American Society for Microbiology

  <bullet> 2005-2008, Editor, Cell Biology Education (unpaid), 
        published by the American Society for Cell Biology

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years.

        Co-chair, President's Council of Advisors on Science and 
        Technology (PCAST) Working group on Science Technology 
        Engineering and Math (STEM) in Higher Education (2011-2012)

        Member, PCAST Working group on K-12 STEM Education (2010-2011)

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years.

  <bullet> American Society for Microbiology, President, (2013 to 
        present)

  <bullet> American Society for Microbiology, President-elect (2012-
        2013)

  <bullet> University of Wisconsin, STEM Diversity Project, Advisory 
        Committee, Committee Member (2012 to present)

  <bullet> National Academy of Sciences, Board on Life Sciences, Chair 
        (2012 to present)

  <bullet> Lehigh University, ADVANCE Program, External Advisory 
        Committee, Committee Member (2011 to present)

  <bullet> University of Minnesota, STEM Education Initiative, Advisory 
        Committee, Committee Member (2011 to present)

  <bullet> Harvard School of Public Health, Board of Overseers, (2009 
        to present)

  <bullet> National Academies Summer Institutes on Science Education, 
        Executive Committee, Co-chair (2012-2013)

  <bullet> American Society for Microbiology, President-elect (2012-
        2013)

  <bullet> Rosalind Franklin Society, President; (2006-2012)

  <bullet> American Academy of Microbiology, Committee on Colloquia, 
        Committee Member; (2007-2011)

  <bullet> Institute of Medicine of the National Academies, Forum on 
        Microbial Threats, Member; (2005-2010)

  <bullet> Member Advisory Committee Wellness Center for Alternative 
        Medicine, Madison WI (non-profit clinic that provides 
        alternative medicine for low-income people), member; (2007-
        2008)

  <bullet> Handelsman Investments, LLC, Partner, (2001-2008, dates are 
        approximate)

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

  <bullet> American Society for Microbiology (1983 to present; 
        currently President-Elect)

  <bullet> American Association for the Advancement of Science (Member, 
        1985 to present; currently member of Nominating Committee and 
        Councilor-at-large)

  <bullet> The International Society for Molecular Plant-Microbe 
        Interactions (1989-2009)

  <bullet> American Phytopathological Society (1985-2007)

  <bullet> Soil Science Society of America (2003)

  <bullet> The International Society for Microbial Ecology (1998 to 
        present)

  <bullet> The Rosalind Franklin Society (President 2007-2012)

  <bullet> Connecticut Academy of Science and Engineering (2012 to 
        present)

  <bullet> American Civil Liberties Union (1985 to present)

  <bullet> American Automobile Association (1990 to present)

  <bullet> Harbor Athletic Club, Middleton WI (2000-2011)

  <bullet> Planet Fitness, North Haven, CT (2009 to present)

  <bullet> Young Men's Christian Association, Branford, CT (2011 to 
        present)

  <bullet> National Academies Summer Institutes on Science Education, 
        Executive Committee, Co-chair (2012 to present)

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period. None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        2013--Bard College, Honorary Doctor of Science

        2013--American Society for Microbiology Graduate Mentoring 
        Award

        2012--Named one of the ``Ten People Who Mattered this Year'' by 
        Nature magazine

        2012--Connecticut Academy of Science and Engineering, Elected 
        Member

        2011--Presidential Award for Excellence in Science, 
        Engineering, and Math Mentoring

        2011--American Society for Microbiology DC White Research and 
        Mentoring Award

        2011--Frederick Phineas Rose Professorship, Yale University

        2010--American Institute of Biological Sciences (AIBS) 
        Education Award

        2009--American Society for Microbiology Carski Foundation 
        Distinguished Undergraduate Teaching Award

        2009--Named ``Revolutionary Mind'' by Seed Magazine 2009--
        Association for Women in Science, Fellow

        2008--American Association for the Advancement of Science, 
        Fellow

        2008--National Research Council, National Associate

        2008--American Society for Microbiology Roche Diagnostics Alice 
        C. Evans Award

        2006--Young Women's Christian Association Woman of Distinction 
        Award

        2004--National Academies Education Mentor in the Life Sciences

        2003--American Academy of Microbiology, Fellow

        2002--Howard Hughes Medical Institute Professor

        2002--Clark Lecturer in Soil Biology, Soil Science Society of 
        America

        1998--Cabinet 99 Recognition Award, University of Wisconsin

        1995--Chancellor's University Teaching Award, University of 
        Wisconsin Sciences, University of Wisconsin

        1988--Chancellor's Research-Service Award, University of 
        Wisconsin

        1984--1985 National Institutes of Health (NIH) Postdoctoral 
        Fellowship

        1984--American Cancer Society Postdoctoral Fellowship

        1979--Honors, Cornell University

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I have done my best to identify all books, articles, columns or 
publications, including through a review of my personal files and 
searches of publicly available electronic databases. Despite my 
searches, there may be additional presentations that I have been unable 
to identify, find, or remember. I have located the following:
Publications: Microbiology
        Shade, A., J.G. Caporaso, J. Handelsman, R. Knight, and N. 
        Fierer. 2013. A meta-analysis of changes in bacterial and 
        archaeal communities with time. ISME Journal. In press.

        Shade, A., P.S. McManus, and J. Handelsman. 2013. Unexpected 
        diversity during community succession in the apple flower 
        microbiome. mBio. 4(2): e00602-12. doi:10.1128/mBio.00602-12.

        Shade, A., H. Peter, S.D. Allison, D. Baho, M. Berga, H. 
        Buergmann, D.H. Huber, S. Langenheder, J.T. Lennon, J.B. 
        Martiny, K. Matulich, T.M. Schmidt, and J. Handelsman. 2012. 
        Fundamentals of microbial community resistance and resilience. 
        Frontiers in Microbiology. 3: 417. doi: 10.3389/
        fmicb.2012.00417.

        Araujo J.F., A.P. de Castro, M.M. Costa, R.C. Togawa, G.J. 
        Junior, B.F. Quirino, M.M. Bustamante, L. Williamson, J. 
        Handelsman, and R.H. Kruger. 2012. Characterization of soil 
        bacterial assemblies in Brazilian savanna-like vegetation 
        reveals acidobacteria dominance. Microbial Ecology. 64(3): 760-
        770.

        Shade, A., C.S. Hogan, A.K. Klimowicz, M. Linske, P.S. McManus, 
        and J. Handelsman. 2012. Culturing captures members of the soil 
        rare biosphere. Environmental Microbiology. 14(9): 2247-2252.

        McMahon, M.D., C. Guan, J. Handelsman, and M.G. Thomas. 2012. 
        Metagenomic analysis of Streptomyces lividans reveals host-
        dependent functional expression. Applied and Environmental 
        Microbiology. 78: 3622-3629.

        Shade, A. and J. Handelsman. 2012. Beyond the Venn diagram: The 
        hunt for a core microbiome. Environmental Microbiology. 14(1): 
        4-12.

        de Castro, A.P., B.F. Quirino, H. Allen, L.L. Williamson, J. 
        Handelsman, and R.H. Kruger. 2011. Construction and validation 
        of two metagenomic DNA libraries from Cerrado soil with high 
        clay content. Biotechnology Letters. 33: 2169-2175.

        Mason, K.L., T.A. Stepien, J.E. Blum, J.F. Holt, N.H. Labbe, 
        J.S. Rush, K.F. Raffa, and J. Handelsman. 2011. From commensal 
        to pathogen: Translocation of Enterococcus faecalis from the 
        midgut to the hemocoel of Manduca sexta. mBio. 2(3): e00065-11.

        Maloy, S., J. Handelsman, and S. Singh. 2011. Dynamics of host-
        associated microbial communities. Microbe. 6: 21-25.

        Schloss, P.D., H.K. Allen, A.K. Klimowicz, C. Mlot, J.A. Gross, 
        S. Savengsuksa, J. McEllin, J. Clardy, R.W. Ruess, and J. 
        Handelsman. 2010. Psychrotrophic strain of Janthinobacterium 
        lividum from a cold Alaskan soil produces prodigiosin. DNA and 
        Cell Biology. 29(9): 533-41.

        Borlee, B.R., G.D. Geske, H.E. Blackwell, and J. Handelsman. 
        2010. Identification of synthetic inducers and inhibitors of 
        the quorum-sensing regulator LasR in Pseudomonas aeruginosa by 
        high-throughput screening. Applied and Environmental 
        Microbiology. 76(24): 8255-8258.

        Klimowicz, A.K., T.A. Benson, and J. Handelsman. 2010. A 
        quadruple-enterotoxin-deficient mutant of Bacillus 
        thuringiensis remains insecticidal. Microbiology. 156: 3575-
        3583.

        Lang, K.S., J.M. Anderson, S. Schwarz, L. Williamson, J. 
        Handelsman and R.S. Singer. 2010. Novel florfenicol and 
        chloramphenicol resistance gene discovered in Alaskan soil by 
        using functional metagenomics. Applied and Environmental 
        Microbiology. 76(15): 5321-5326.

        Donato, J., L.A. Moe, B.J. Converse, K.D. Smart, F.C. Berklein, 
        P.S. McManus and J. Handelsman. 2010. Metagenomic analysis of 
        apple orchard soil reveals antibiotic resistance genes encoding 
        predicted bifunctional proteins. Applied and Environmental 
        Microbiology. 76(13): 4396-4401.

        Broderick, N.A., E. Vasquez, J. Handelsman and K. F. Raffa. 
        2010. Effect of clonal variation among hybrid poplars on 
        susceptibility of gypsy moth (Lepidoptera: Lymantriidae) to 
        Bacillus thuringiensis subsp. kurstaki. Journal of Economic 
        Entomology. 103(3): 718-725.

        Broderick, N.A., K.F. Raffa and J. Handelsman. 2010. Chemical 
        modulators of the innate immune response alter gypsy moth 
        larval susceptibility to Bacillus thuringiensis. BMC 
        Microbiology. 10(1): 129.

        Allen, H.K., J. Donato, H.H. Wang, K.A. Cloud-Hansen, J. Davies 
        and J. Handelsman. 2010. Call of the wild: Antibiotic 
        resistance genes in natural environments. Nature Reviews 
        Microbiology. 8(4): 251-259.

        Robinson, C.J., P.D. Schloss, Y. Ramos, K.F. Raffa and J. 
        Handelsman. 2010. Robustness of the bacterial community in the 
        cabbage white butterfly larval midgut. Microbial Ecology. 
        59(2): 199-211.

        Handelsman, J. 2009. Metagenetics: Spending our inheritance on 
        the future. Microbial Biotechnology. 2(2): 138-139.

        Broderick, N.A., C.J. Robinson, M.D. McMahon, J. Holt, J. 
        Handelsman and K.F. Raffa. 2009. Contributions of gut bacteria 
        to Bacillus thuringiensis-induced mortality vary across a range 
        of Lepidoptera. BMC Biology. 7: 11-20.

        Klepzig, K.D., A.S. Adams, J. Handelsman, and K.F. Raffa. 2009. 
        Symbioses: A key driver of insect physiological processes, 
        ecological interactions, evolutionary diversification, and 
        impacts on humans. Environmental Entomology. 38(1): 67-77.

        Allen, H.K., K.A. Cloud-Hansen, J.M. Wolinski C. Guan, S. 
        Greene, S. Lu, M. Boeyink, N.A. Broderick, K.F. Raffa, and J. 
        Handelsman. 2009. Resident microbiota of the gypsy moth midgut 
        harbor antibiotic resistance determinants. DNA and Cell 
        Biology. 28(3): 109-117.

        Vasanthakumar, A., J. Handelsman, P.D. Schloss, and K.F. Raffa. 
        2008. Gut microbiota of an invasive subcortical beetle, Agrilus 
        planipennis Fairmaire, across various life stages. 
        Environmental Entomology. 37(5): 1344-1353.

        Allen, H. K., L.A. Moe, J. Rodbumrer, A. Gaarder, and J. 
        Handelsman. 2008. Functional metagenomics reveals diverse 
        &beta;-lactamases in a remote Alaskan soil. ISME Journal. 3: 
        243-251.

        Little, A.E.F., C. Robinson, S.B. Peterson, K.F. Raffa, and J. 
        Handelsman. 2008. Rules of engagement: Interspecies 
        interactions that regulate microbial communities. Annual Review 
        of Microbiology. 62: 375-401.

        Borlee, B. R., G.D. Geske, C.J. Robinson, H. Blackwell, and J. 
        Handelsman. 2008. Quorum-sensing signals in the microbial 
        community of the cabbage white butterfly larval midgut. ISME 
        Journal. 2: 1101-1111.

        Liles, M.R., L.L. Williamson, J. Rodbumrer, V. Torsvik, R.M. 
        Goodman, and J. Handelsman. 2008. Recovery, purification, and 
        cloning of high-molecular-weight DNA from soil microorganisms. 
        Applied and Environmental Microbiology. 74(10): 3302-3305.

        Isenbarger, T. A., M. Finney, C. Rios-Velazquez, J. Handelsman, 
        and G. Ruvkun. 2008. Miniprimer PCR, a new lens for viewing the 
        microbial world. Applied and Environmental Microbiology. 74(3): 
        840-849.

        Schloss, P.D. and J. Handelsman. 2008. The last word: Books as 
        a statistical metaphor for microbial communities. Annual Review 
        of Microbiology. 61: 23-24.

        Schloss, P.D. and J. Handelsman. 2008. A statistical toolbox 
        for metagenomics: Assessing functional diversity in microbial 
        communities. BMC Bioinformatics. 9: 34.

        Handelsman, J. 2007. Metagenomics and microbial communities. 
        In: Encyclopedia of the Life Sciences. John Wiley and Sons, 
        Ltd. Chichester, UK.

        Delalibera, I. A. Vasanthakumar, B.J. Burwitz, P.D. Schloss, 
        K.D. Klepzig, J. Handelsman, and K.F. Raffa. 2007. Composition 
        of the bacterial community in the gut of the pine engraver, Ips 
        pini (Say) (Coleoptera) colonizing red pine. Symbiosis 43: 97-
        104.

        Guan, C., J. Ju, B.R. Borlee, L.L. Williamson, B. Shen, K.F. 
        Raffa, and J. Handelsman. 2007. Signal mimics derived from a 
        metagenomic analysis of gypsy moth gut microbiota. Applied and 
        Environmental Microbiology. 73(11): 3669-3676.

        Vasanthakumar, A, I. Delalibera Jr., J. Handelsman, K.D. 
        Klepzig, P. Schloss, and K.F. Raffa. 2006. Characterization of 
        gut-associated microorganisms in larvae and adults of the 
        southern pine beetle, Dendroctonus frontalis Zimmerman. 
        Environmental Entomology. 35: 1710-1717.

        Broderick, N.A., K.R. Raffa, and J. Handelsman. 2006. Midgut 
        bacteria required for Bacillus thuringiensis insecticidal 
        activity. Proceedings of the National Academy of Sciences. 
        103(41): 15196-15199.

        Chan, Y.A., M.T. Boyne, A.M. Podevels, A.K. Klimowicz, J. 
        Handelsman, N.L. Kelleher, and M.G. Thomas. 2006. 
        Hydroxymalonyl-acyl carrier protein (ACP) and aminomalonyl-ACP 
        are two additional type I polyketide synthase extender units. 
        Proceedings of the National Academy of Sciences. 103(39): 
        14349-14354.

        Sabree, Z.L., V. Bergendahl, M.R. Liles, R.R. Burgess, R.M. 
        Goodman, J. Handelsman. 2006. Identification and 
        characterization of the gene encoding the Acidobacterium 
        capsulatum major sigma factor. Gene. 376: 144-151.

        Peterson, S.B., A.K. Dunn, A.K. Klimowicz, and J. Handelsman. 
        2006. Peptidoglycan from Bacillus cereus mediates commensalism 
        with rhizosphere bacteria from the Cytophaga-Flavobacterium 
        group. Applied and Environmental Microbiology. 72: 5421-5427.

        Schloss, P.D., I. Delalibera, J. Handelsman, K.F. Raffa. 2006. 
        Bacteria associated with the guts of two wood-boring beetles: 
        Anoplophora glabripennis and Saperda vestita (Cerambycidae). 
        Environmental Entomology. 35: 625-629.

        Schloss, P.D. and J. Handelsman. 2006. Introducing TreeClimber, 
        a test to compare microbial community structures. Applied and 
        Environmental Microbiology. 72: 2379-2384.

        Schloss, P.D. and J. Handelsman. 2006. Introducing SONS, A tool 
        for operational taxonomic unit-based comparisons of microbial 
        community memberships and structures. Applied and Environmental 
        Microbiology. 72(10): 6773-6779.

        Schloss, P.D. and J. Handelsman. 2006. Toward a census of 
        bacteria in soil. PLoS Computational Biology. 2: e92.

        Handelsman, J. 2006. Metagenomics or megagenomics? Nature 
        Reviews Microbiology. 3: 457-458.

        Cloud-Hansen, K.A., S.B. Peterson, E.V. Stabb, W.E. Goldman, 
        M.J. McFall-Ngai, and J. Handelsman. 2006. Breaching the great 
        wall: Peptidoglycan and microbial interactions. Nature Reviews 
        Microbiology. 4: 710-716.

        Gillespie, D., M.R. Rondon, and J. Handelsman. 2005. 
        Metagenomic libraries from uncultured microorganisms. In: 
        Molecular Microbial Ecology. A.M. Osborn and C. J. Smith, eds. 
        Bios Sci. Pub.: 261-279.

        Williamson, L.L., B.R. Borlee, P.D. Schloss, C. Guan, H.K. 
        Allen, and J. Handelsman. 2005. Intracellular screen to 
        identify metagenomic clones that induce or inhibit a quorum-
        sensing biosensor. Applied and Environmental Microbiology. 71: 
        6335-6344.

        Handelsman, J. 2005. How to find new antibiotics. The 
        Scientist. 19: 20.

        Schloss, P.D. and J. Handelsman. 2005. Metagenomics for 
        studying unculturable microorganisms: Cutting the Gordian knot. 
        Genome Biology. 6: 229.

        Delalibera, I., K. Raffa, and J. Handelsman. 2005. Contrasts in 
        cellulolytic activities of gut microorganisms between the wood 
        borer Saperda vestita (Coleoptera: Cerambycidae), and the bark 
        beetles Ips pini, and Dendroctonus frontalis (Coleoptera: 
        Curculionidae). Environmental Entomology. 34: 541-547.

        Handelsman, J., C.J. Robinson, and K. Raffa. 2005. Microbial 
        communities in lepidopteran guts: From models to metagenomics. 
        In: The Influence of Cooperative Bacteria on Animal Host 
        Biology. M.J. McFall-Ngai, B. Henderson, and E.G. Ruby, eds. 
        New York: Cambridge University Press, pp. 143-168.

        Schloss, P. D., and J. Handelsman. 2005. Introducing DOTUR, a 
        computer program for defining operational taxonomic units and 
        species richness. Applied and Environmental Microbiology. 
        71(3): 1501-1506.

        Handelsman, J. 2005. Sorting out metagenomes. Nature 
        Biotechnology. 23(1): 38-39.

        Schloss, P. D., and J. Handelsman. 2004. Status of the 
        microbial census. Microbiology and Molecular Biology Reviews. 
        68(4): 686-691.

        Handelsman, J. 2004. Metagenomics: Application of genomics to 
        uncultured microorganisms. Microbiology and Molecular Biology 
        Reviews. 68(4): 669-685.

        Liles, M.R., L.L. Williamson, J. Handelsman, and R.M. Goodman. 
        2004. Isolation of high molecular weight genomic DNA from soil 
        bacteria for genomic library construction. In Molecular 
        Microbial Ecology Manual, 2nd ed. G.G. Kowalchuk, F.J. de 
        Bruijn, I.M. Head, A.D. Akkermans, and J.D. van Elsas, eds. The 
        Netherlands: Kluwer Academic Publishers, pp. 839-852.

        Safdar, N., J. Handelsman, and D.G. Maki. 2004. Does 
        combination antimicrobial therapy reduce mortality in gram-
        negative bacteraemia? A meta-analysis. The Lancet--Infectious 
        Diseases. 4(8): 519-27.

        Schloss, P.D., B.R. Larget, and J. Handelsman. 2004. 
        Integration of microbial ecology and statistics: A test to 
        compare gene libraries. Applied and Environmental Microbiology. 
        70(9): 5485-92.

        Riesenfeld, C.R., P.D. Schloss, and J. Handelsman. 2004. 
        Metagenomics: Genomic analysis of microbial communities. Annual 
        Review of Genetics. 38: 525-52.

        Riesenfeld, C.R., R.M. Goodman, and J. Handelsman. 2004. 
        Uncultured soil bacteria are a reservoir of new antibiotic 
        resistance genes. Environmental Microbiology. 6(9): 981-989.

        Emmert, E.A.B., A.K. Klimowicz, M.G. Thomas, and J. Handelsman. 
        2004. Genetics of zwittermicin A production in Bacillus cereus. 
        Applied and Environmental Microbiology. 70: 104-113.

        Broderick, N.A., K. Raffa, R.M. Goodman, and J. Handelsman. 
        2004. Census of the bacterial community of the gypsy moth 
        larval midgut using culturing and culture-independent methods. 
        Applied and Environmental Microbiology. 70: 293-300.

        Handelsman, J. 2004. Soils--the metagenomics approach. In: 
        Microbial Diversity Bioprospecting. Alan T. Bull, ed. American 
        Society for Microbiology Press, pp. 109-119.

        Handelsman, J. and K. Smalla. 2003. Conversations with the 
        silent majority. Current Opinion in Microbiology. 6: 271-273.

        Schloss, P.D. and J. Handelsman. 2003. Biotechnological 
        prospects from metagenomics. Current Opinion in Biotechnology. 
        14: 303-310.

        Liles, M.R., B.F. Manske, S.B. Bintrim J. Handelsman, and R.M. 
        Goodman. 2003. A census of rRNA genes and linked genomic 
        sequences within a soil metagenomic library. Applied and 
        Environmental Microbiology. 69: 2684-2691.

        Dunn, A.K., A.K. Klimowicz, and J. Handelsman. 2003. Use of a 
        promoter trap to identify Bacillus cereus genes regulated by 
        tomato seed exudate and a rhizosphere resident, Pseudomonas 
        aureofaciens. Applied and Environmental Microbiology. 69: 1197-
        205.

        Broderick, N.A., R.M. Goodman, J. Handelsman, and K.F. Raffa. 
        2003. Effect of host diet and insect source on synergy of gypsy 
        moth (Lepidoptera: Lymantriidae) mortality to Bacillus 
        thuringiensis subsp. kurstaki by zwittermicin A. Environmental 
        Entomology. 32: 387-391.

        Handelsman, J., and L.P. Wackett. 2002. Ecology and industrial 
        microbiology: Microbial diversity--sustaining the Earth and 
        industry, editorial overview. Current Opinion in Microbiology. 
        5: 237-239.

        Gillespie, D.E., S.F. Brady, A.D. Bettermann, N.P. Cianciotto, 
        M.R. Liles, M.R. Rondon, J. Clardy, R.M. Goodman, and J. 
        Handelsman. 2002. Isolation of antibiotics turbomycin A and B 
        from a metagenomic library of soil microbial DNA. Applied and 
        Environmental Microbiology. 68: 4301-4306.

        Dunn, A.K. and J. Handelsman. 2002. Toward an understanding of 
        microbial communities through analysis of communication 
        networks. Antonie von Leewenhoek. 81: 565-574.

        Handelsman, J. 2002. Future trends in biocontrol. In: 
        Biological Control of Crop Diseases. S.S. Gnanamanickam, ed. 
        New York: Marcel Dekker, Inc., pp. 443-448.

        Handelsman, J., M. Liles, D. Mann, C. Riesenfeld, and R.M. 
        Goodman. 2002. Cloning the metagenome: Culture-independent 
        access to the diversity and functions of the uncultivated 
        microbial world. In: Methods in Microbiology--Functional 
        Microbial Genomics. Academic Press, pp. 241-255.

        Brady, S.F., C.J. Chao, J. Handelsman, and J. Clardy. 2001. 
        Cloning and heterologous expression of a natural product 
        biosynthetic gene cluster from eDNA. Organic Letters 3: 1981-
        1984.

        Simon, H.M., K.P. Smith, J.A. Dodsworth, B. Guenthner, J. 
        Handelsman, and R.M. Goodman. 2001. Influence of tomato 
        genotype on growth of inoculated and indigenous bacteria in the 
        spermosphere. Applied and Environmental Microbiology. 67: 514-
        520.

        Bittinger, M.A., J.A. Gross, J. Widom, J. Clardy, and J. 
        Handelsman. 2000. Rhizobium etli CE3 carries vir gene homologs 
        on a self-transmissible plasmid. Molec. Plant-Microbe Interact. 
        13: 1019-1021.

        Handelsman, J. 2000. Antagonism. In: Encyclopedia of Plant 
        Pathology. O.C. Maloy and T.D. Murray, eds. New York: John 
        Wiley.

        Kazmar, E.R., R.M. Goodman, C.R. Grau, D.W. Johnson, E.V. 
        Nordheim, D.J. Undersander, and J. Handelsman. 2000. Regression 
        analyses for evaluating the influence of Bacillus cereus on 
        alfalfa yield under variable disease intensity. Phytopathology. 
        90: 657-665.

        Rondon, M.R., P.R. August, A.D. Bettermann, S.F. Brady, T.H. 
        Grossman, M.R. Liles, K.A. Loiacono, B.A. Lynch, I.A. MacNeil, 
        C. Minor, C.L. Tiong, M. Gilman,M.S. Osburne, J. Clardy, J. 
        Handelsman, and R.M. Goodman. 2000. Cloning the soil 
        metagenome: A strategy for accessing the genetic and functional 
        diversity of uncultured microorganisms. Applied and 
        Environmental Microbiology. 66: 2541-2547.

        Bittinger, M.A. and J. Handelsman. 2000. Identification of 
        genes in the RosR regulon of Rhizobium etli. Journal of 
        Bacteriology. 182: 1706-1713.

        Broderick, N.A., R.M. Goodman, K.F. Raffa, and J. Handelsman. 
        2000. Synergy between zwittermicin A and Bacillus thuringiensis 
        subsp. kurstaki against gypsy moth (Lepidoptera: Lymantriidae). 
        Environmental Entomology. 29: 101-107.

        Stohl, E.A., J.L. Milner, and J. Handelsman. 1999. Zwittermicin 
        A biosynthetic cluster. Gene. 237: 403-411.

        Stohl, E.A., S.F. Brady, J. Clardy, and J. Handelsman. 1999. 
        ZmaR, a novel and widespread antibiotic resistance determinant 
        that acetylates zwittermicin A. Journal of Bacteriology. 181: 
        5455-5460.

        Raffel, S.J., E.R. Kazmar, R. Winberg, E.S. Oplinger, J. 
        Handelsman, R.M. Goodman, and C.R. Grau. 1999. First report of 
        root rot of soybeans caused by Corynespora cassiicola in 
        Wisconsin. Plant Disease. 83: 696.

        Rondon, M.R., S.J. Raffel, R.M. Goodman, and J. Handelsman. 
        1999. Toward functional genomics in bacteria: Analysis of gene 
        expression in Escherichia coli from a bacterial artificial 
        chromosome library of Bacillus cereus. Proceedings of the 
        National Academy of Sciences. 96: 6451-6455.

        Smith, K.P., J. Handelsman, and R.M. Goodman. 1999. Genetic 
        basis in plants for interactions with disease-suppressive 
        bacteria. Proceedings of the National Academy of Sciences. 96: 
        4786-4790.

        Shang, H., J. Chen, J. Handelsman, and R.M. Goodman. 1999. 
        Behavior of Pythium torulosum zoospores during their 
        interaction with tobacco roots and Bacillus cereus. Current 
        Microbiology. 38: 199-204.

        Dunn, A.K. and J. Handelsman. 1999. A vector for promoter 
        trapping in Bacillus cereus. Gene. 226: 297-305.

        Emmert, E.A.B. and J. Handelsman. 1999. Biocontrol of plant 
        disease:
        A (Gram-) positive perspective. FEMS Microbiology Letters. 171: 
        1-9.

        Rondon, M.R., R.M. Goodman, and J. Handelsman. 1999. The 
        Earth's bounty: Assessing and accessing soil microbial 
        diversity. Trends in Biotechnology. 17: 403-409.

        Handelsman, J., M.R. Rondon, S. Brady, J. Clardy, and R.M. 
        Goodman. 1998. Molecular biology access to the chemistry of 
        unknown soil microbes: A new frontier for natural products. 
        Chemistry & Biology. 5: R245-R249.

        Goodman, R.M., S.B. Bintrim, J. Handelsman, B.F. Quirino, J.C. 
        Rosas, H.M. Simon, and K.P. Smith. 1998. A dirty look: Soil 
        microflora and rhizosphere microbiology. In: Radical Biology: 
        Advances and Perspectives on the Function of Plant Roots. H.E. 
        Flores, J.P. Lynch, and D. Eissenstat, eds. Rockville, MD: 
        American Society of Plant Physiologists Press, pp. 219-231.

        Emmert, E.A.B., J.L. Milner, J.C. Lee, K.L. Pulvermacher, H.A. 
        Olivares, J. Clardy, and J. Handelsman. 1998. Effect of 
        canavanine from alfalfa seeds on the population biology of 
        Bacillus cereus. Applied and Environmental Microbiology. 64: 
        4683-4688.

        Rosas, J.C., J.A. Castro, E.A. Robleto, and J. Handelsman. 
        1998. A method for screening Phaseolus vulgaris L. germplasm 
        for preferential nodulation with a selected Rhizobium etli 
        strain. Plant and Soil. 203: 71-78.

        O'Connell, K.P., S.J. Raffel, B.J. Saville, and J. Handelsman. 
        1998. Mutants of Rhizobium tropici strain CIAT899 that do not 
        induce chlorosis in plants. Microbiology. 144: 2607-2617.

        Biermann, B.J., J.S. de Banzie, J. Handelsman, J.F. Thompson, 
        and J.T. Madison. 1998. Methionine and sulfate increase a 
        Bowman-Birk-type protease inhibitor and its messenger RNA in 
        soybeans. Journal of Agricultural and Food Chemistry. 46: 2858-
        2862.

        Silo-Suh, L.A., E.V. Stabb, S.J. Raffel, and J. Handelsman. 
        1998. Target range of zwittermicin A, an aminopolyol antibiotic 
        from Bacillus cereus. Current Microbiology. 37: 6-11.

        Stabb, E.V. and J. Handelsman. 1998. Genetic analysis of 
        zwittermicin A resistance in Escherichia coli: Effects on 
        membrane potential and RNA polymerase. Molecular Microbiology. 
        27: 311-322.

        Bintrim, S.B., T.J. Donohue, J. Handelsman, G.P. Roberts, and 
        R.M. Goodman. 1997. Molecular phylogeny of Archaea from soil. 
        Proceedings of the National Academy of Sciences. 94: 277-282.

        Smith, K.P., J. Handelsman, and R.M. Goodman. 1997. Modeling 
        dose-response relationships in biological control: Partitioning 
        host responses to the pathogen and biocontrol agent. 
        Phytopathology. 87: 720-729.

        Bittinger, M.A., J.L. Milner, B.J. Saville, and J. Handelsman. 
        1997. rosR, a determinant of nodulation competitiveness in 
        Rhizobium etli. Molecular Plant-Microbe Interactions. 10: 180-
        186.

        Milner, J., L. Silo-Suh, R.M. Goodman, and J. Handelsman. 1997. 
        Antibiosis and beyond: Genetic diversity, microbial 
        communities, and biological control. In: Ecological 
        Interactions and Biological Control. D.A. Andow, D.W. Ragsdale, 
        and R.F. Nyvall, eds. Minneapolis, MN, pp. 107-127.

        O'Connell, K.P., R.M. Goodman, and J. Handelsman. 1996. 
        Engineering the rhizosphere: Expressing a bias. Trends in 
        Biotechnology 14: 83-88.

        Handelsman, J. and E.V. Stabb. 1996. Biocontrol of soilborne 
        plant pathogens. Plant Cell. 8: 1855-1869.

        Raffel, S.J., E.V. Stabb, J.L. Milner, and J. Handelsman. 1996. 
        Genotypic and phenotypic analysis of zwittermicin A-producing 
        strains of Bacillus cereus. Microbiology. 142: 3425-3436.

        Milner, J.L., L. Silo-Suh, J.C. Lee, H. He, J. Clardy, and J. 
        Handelsman. 1996. Production of kanosamine by Bacillus cereus 
        UW85. Applied and Environmental Microbiology. 62: 3061-3065.

        Gilbert, G.S., M.K. Clayton, J. Handelsman, and J.L. Parke. 
        1996. Use of cluster and discriminant analyses to compare 
        rhizosphere bacterial communities. Microbial Ecology. 32: 123-
        147.

        Milner, J.L., E.A. Stohl, and J. Handelsman. 1996. Zwittermicin 
        A resistance gene from Bacillus cereus. Journal of 
        Bacteriology. 178: 4266-4272.

        Chen, J., L.M. Jacobson, J. Handelsman, and R.M. Goodman. 1996. 
        Compatibility of systemic acquired resistance and microbial 
        biocontrol for suppression of plant disease in a laboratory 
        assay. Molecular Ecology. 5: 73-80.

        Milner, J.L., S.J. Raffel, B.J. Lethbridge, and J. Handelsman. 
        1995. Culture conditions that influence accumulation of 
        zwittermicin A by Bacillus cereus UW85. Applied Microbiology 
        and Biotechnology. 43: 685-691.

        Osburn, R.M., J.L. Milner, E.S. Oplinger, R.S. Smith, and J. 
        Handelsman. 1995. Effect of Bacillus cereus UW85 on the yield 
        of soybean at two field sites in Wisconsin. Plant Disease. 79: 
        551-556.

        Stabb, E.V., L. Jacobson, and J. Handelsman. 1994. Zwittermicin 
        A-producing strains of Bacillus cereus from diverse soils. 
        Applied and Environmental Microbiology. 60: 4404-4412.

        Silo-Suh, L.A., B.J. Lethbridge, S.J. Raffel, H. He, J. Clardy, 
        and J. Handelsman. 1994. Biological activities of two 
        fungistatic antibiotics produced by Bacillus cereus UW85. 
        Applied and Environmental Microbiology. 60: 2023-2030.

        Araujo, R.S., E.A. Robleto, and J. Handelsman. 1994. A 
        hydrophobic mutant of Rhizobium etli altered in nodulation 
        competitiveness and growth in the rhizosphere. Applied and 
        Environmental Microbiology. 60: 1430-1436.

        He, H., L.A. Silo-Suh, J. Handelsman, and J. Clardy. 1994. 
        Zwittermicin A, an antifungal and plant protection agent from 
        Bacillus cereus. Tetrahedron Letters. 35: 2499-2502.

        Gilbert, G.S., J. Handelsman, and J.L. Parke. 1994. Root 
        camouflage and disease control. Phytopathology. 84: 222-225.

        O'Connell, K.P. and J. Handelsman. 1993. Foliar chlorosis in 
        symbiotic host and non-host plants induced by Rhizobium tropici 
        type B strains. Applied and Environmental Microbiology. 59: 
        2184-2189.

        Halverson, L.J., M.K. Clayton, and J. Handelsman. 1993. 
        Variable stability of antibiotic-resistance markers in Bacillus 
        cereus UW85 in the soybean rhizosphere in the field. Molecular 
        Ecology. 2: 65-78.

        Halverson, L.J., M.K. Clayton, and J. Handelsman. 1993. 
        Population biology of Bacillus cereus UW85 in the rhizosphere 
        of field-grown soybeans. Soil Biology & Biochemistry. 25: 485-
        493.

        Beattie, G.A. and J. Handelsman. 1993. Evaluation of a strategy 
        for identifying nodulation competitiveness genes in Rhizobium 
        leguminosarum biovar phaseoli. Journal of General Microbiology. 
        139: 529-538.

        Smith, K.P., M.J. Havey, and J. Handelsman. 1993. Suppression 
        of cottony leak of cucumber with Bacillus cereus strain UW85. 
        Plant Disease. 77: 139-142.

        Gilbert, G.S., J.L. Parke, M.K. Clayton, and J. Handelsman. 
        1993. Effects of an introduced bacterium on bacterial 
        communities on roots. Ecology. 74: 840-854.

        Milner, J.L., R.S. Araujo, and J. Handelsman. 1992. Molecular 
        and symbiotic characterization of exopolysaccharide-deficient 
        mutants of Rhizobium tropici strain CIAT899. Molecular 
        Microbiology. 6: 3137-3147.

        Halverson, L.J. and J. Handelsman. 1991. Enhancement of soybean 
        nodulation by Bacillus cereus UW85 in the field and in a growth 
        chamber. Applied and Environmental Microbiology. 57: 2767-2770.

        Handelsman, J., W.C. Nesmith, and S.J. Raffel. 1991. Microassay 
        for biological and chemical control of infection of tobacco by 
        Phytophthora parasitica var. nicotianae. Current Microbiology. 
        22: 317-319.

        O'Connell, K.P., R.S. Araujo, and J. Handelsman. 1990. 
        Exopolysaccharide-deficient mutants of Rhizobium strain CIAT899 
        induce chlorosis in beans. Molecular Plant-Microbe 
        Interactions. 3: 424-428.

        Handelsman, J., S. Raffel, and L. Sequeira. 1990. Monoclonal 
        antibodies against Agrobacterium tumefaciens strain C58. 
        Current Microbiology. 21: 181-185.

        Handelsman, J., S.J. Raffel, E.H. Mester, L. Wunderlich, and 
        C.R. Grau. 1990. Biological control of damping-off of alfalfa 
        seedlings by Bacillus cereus UW85. Applied and Environmental 
        Microbiology. 56: 713-718.

        Gilbert, G.S., J. Handelsman, and J.L. Parke. 1990. Role of 
        ammonia and calcium in lysis of zoospores of Phytophthora 
        cactorum by Bacillus cereus UW85. Experimental Mycology. 14: 1-
        8.

        Beattie, G., M. Clayton, and J. Handelsman. 1989. Quantitative 
        comparison of the laboratory and field competitiveness of 
        Rhizobium leguminosarum biovar phaseoli. Applied and 
        Environmental Microbiology. 55: 2755-2761.

        O'Connell, K.P. and J. Handelsman. 1989. chvA locus may be 
        involved in export of neutral B-1,2-linked D-glucan from 
        Agrobacterium tumefaciens. Molecular Plant-Microbe 
        Interactions. 2: 11-16.

        Beattie, G.A. and J. Handelsman. 1989. A rapid method for the 
        isolation and identification of Rhizobium from root nodules. 
        Journal of Microbiological Methods. 9: 29-33.

        Handelsman, J. and J.L. Parke. 1989. Mechanisms of biocontrol 
        of soilborne plant pathogens. In: Plant-Microbe Interactions 
        Vol. 3. T. Kosuge and E.W. Nester, eds. New York: McGraw Hill, 
        pp. 27-61.

        Triplett, E.W., G.P. Roberts, P.W. Ludden, and J. Handelsman. 
        1989. What's new in nitrogen fixation. ASM News. 55: 15-21.

        Handelsman, J., E.H. Mester, L. Wunderlich, and C. Grau. 1988. 
        Rapid screening of bacteria for biocontrol of Phytophthora 
        damping off of alfalfa. Biological and Cultural Tests. 3: 60.

        Ugalde, R.A., J. Handelsman, and W.J. Brill. 1986. Role of 
        Galactosyltransferase Activity in Phage Sensitivity and 
        Nodulation Competitiveness of Rhizobium meliloti. Journal of 
        Bacteriology. 166: 148-154.

        Handelsman, J. and W.J. Brill. 1985. Erwinia herbicola isolates 
        from alfalfa roots may play a role in nodulation by Rhizobium 
        meliloti. Applied and Environmental Microbiology. 49: 818-821.

        Handelsman, J., R.A. Ugalde, and W.J. Brill. 1984. Rhizobium 
        meliloti competitiveness and the alfalfa agglutinin. Journal of 
        Bacteriology. 157: 703-707.
Publications: Education, Women in Science

        Moss-Racusin, C.A., J.F. Dovidio, V.L. Brescoll, M.J. Graham, 
        and J. Handelsman. 2012. Science faculty's subtle gender biases 
        favor male students. Proceedings of the National Academy of 
        Sciences. 109(41): 16474-16479.

        Anderson, W. A., U. Banerjee, C.L. Drennan, S.C.R. Elgin, I.R. 
        Epstein, J. Handelsman, G.F. Hatfull, R. Losick, D.K. O'Dowd, 
        B.M. Olivera, S.A. Strobel, G.C. Walker, and M. Warner. 2011. 
        Changing the culture of science education at research 
        universities. Science. 331(6014): 152-153.

        Rios-Velazquez, C., L.L. Williamson, K.A. Cloud-Hansen, H.K. 
        Allen, M.D. McMahon, Z.L. Sabree, J.J. Donato, and J. 
        Handelsman. 2011. Summer workshop in metagenomics: One week 
        plus eight students equals gigabases of cloned DNA. Journal of 
        Microbiology & Biology Education. 12(2): 120-126.

        Sheridan, J.T., E. Fine, C.M. Pribbenow, J. Handelsman, and M. 
        Carnes. 2010. Searching for excellence & diversity: Increasing 
        the hiring of women faculty at one academic medical center. 
        Academic Medicine. 85(6): 999-1007.

        Pribbenow, C., J. Sheridan, J. Winchell, D. Benting, J. 
        Handelsman, and M. Carnes. 2010. The tenure process and 
        extending the tenure clock: The experience of faculty at one 
        university. Higher Education Policy. 23: 17-28.

        Pfund, C., S. Miller, K. Brenner, P. Bruns, A. Chang, D. Ebert-
        May, A. Fagen, J. Gentile, S. Gossens, I. Khan, J. Labov, C.M. 
        Pribbenow, M. Susman, L. Tong, R. Wright, W.B. Wood, R. Yuan, 
        and J. Handelsman. 2009. Summer institute to improve university 
        science teaching. Science. 324: 470.

        Miller, S., C. Pfund, C. Pribbenow, and J. Handelsman. 2008. 
        Scientific teaching in practice. Science. 322: 1329-1330.

        Cloud-Hansen, K., J. Kuehner, L. Tong, S. Miller, and J. 
        Handelsman. 2008. Money, sex, and drugs: A case study to teach 
        the genetics of antibiotic resistance. CBE-Life Sciences 
        Education. 7(3): 302-309.

        Pfund, C., J. Handelsman, S. Miller Lauffer. 2006. The merits 
        of training mentors. Science. 311: 473-474.

        Sheridan, J., P. Flatley Brennan, M. Carnes, and J. Handelsman. 
        2006. Discovering directions for change in higher education 
        through the experiences of senior women faculty. Journal of 
        Technology Transfer. 31(3): 387.

        Handelsman, J., N. Cantor, M. Carnes, D. Denton, E. Fine, B. 
        Grosz, V. Hinshaw, C. Marrett, S. Rosser, D. Shalala, and J. 
        Sheridan. 2005. More women in science. Science. 309: 1190-1191.

        Carnes, M., S. Geller, E. Fine, J. Sheridan, and J. Handelsman. 
        2005. NIH Director's Pioneer Awards: Could the selection 
        process be biased against women? Journal of Women's Health. 
        14(8): 682-689.

        Carnes, M., J. Handelsman, and J. Sheridan. 2005. Diversity in 
        academic medicine: The stages of change model. Journal of 
        Women's Health. 14(6): 471-475.

        Wood, W.B. and J. Handelsman. 2004. Meeting Report: The 2004 
        National Academies Summer Institute on Undergraduate Education 
        in Biology. Cell Biology Education. 3: 215-217.

        Handelsman, J., D. Ebert-May, R. Beichner, P. Bruns, A. Chang, 
        R. DeHaan, J. Gentile, S.M. Lauffer, J. Stewart, S.M. Tilghman, 
        and W.B. Wood. 2004. Scientific teaching. Science. 304: 521-
        522.

        Lauffer, S. and J. Handelsman. 2004. A new generation of 
        scientific teachers. Focus on Microbiology Education. 10: 4-6.

        Handelsman, J. 2003. Teaching scientists to teach. HHMI 
        Bulletin. 12: 31.

        Handelsman, J. 2002. Microbiology as a change agent in science 
        education. ASM News. 68: 163-167.
Books: Education

        Pfund, C. and J. Handelsman, eds. 2012. Mentor Training for 
        Clinical and Translational Researchers. Part of the Entering 
        Mentoring Series. W.H. Freeman. 121 pp.

        Fine, E. and J. Handelsman, eds. 2012. Searching for excellence 
        & diversity: A guide for search committees. WISELI. 126 pp.

        Kleinman, D.L., J. Delborne, K.A. Cloud-Hansen, and J. 
        Handelsman, eds. 2010.Controversies in Science and Technology 
        Volume 3: From Evolution to Energy. Mary Ann Liebert, Inc., New 
        York. 438 pp.

        Kleinman, D.L., C. Matta, K. Cloud-Hansen, and J. Handelsman, 
        eds. 2008. Controversies in Science and Technology, Volume II: 
        From Climate to Chromosomes. Mary Ann Liebert, Inc., New York. 
        533 pp.

        Handelsman, J., S. Miller, and C. Pfund. 2007. Scientific 
        Teaching. W.H. Freeman and Company, New York, NY. 184 pp.

        Handelsman, J., C. Pfund, S. Miller Lauffer, and C.M. 
        Pribbenow. 2005. Entering Mentoring: A Seminar to Train a New 
        Generation of Scientists. University of Wisconsin Press, 
        Madison, WI. 141 pp.

        Kleinman, D.L., A.J. Kinchy, and J. Handelsman, eds. 2005. 
        Controversies in Science and Technology, Volume I: From Maize 
        to Menopause. University of Wisconsin Press, Madison, WI. 341 
        pp.

        Handelsman, J., B.J. Houser, and H. Kriegel. 1997. Biology 
        Brought to Life: A guide to teaching students to think like 
        scientists. Wm. C. Brown Publishers, Inc., Dubuque, Iowa. 256 
        pp.

        Handelsman, J. 1997. Biology Brought to Life: Laboratory 
        Guidebook. Wm. C. Brown Publishers, Inc., Dubuque, Iowa. 53 pp.
Publications: Editorials

        Handelsman, J. 2012. Dedicated to winning the future through 
        undergraduate research. DNA and Cell Biology. 31(6): 891-892.

        Handelsman, J. 2011. Stemming the tide. DNA and Cell Biology. 
        30(9): 631. Handelsman, J. 2011. Highlights from the July 2011 
        issue of DNA and Cell Biology. DNA and Cell Biology. 30(7): 
        431.

        Handelsman, J. 2011. Call for papers: special issue on 
        undergraduate research. DNA and Cell Biology. 30(6): 891-892.

        Handelsman, J. 2011. Highlights from the March 2011 issue of 
        DNA and Cell Biology. DNA and Cell Biology. 30(3): 135.

        Handelsman, J. 2011. Highlights from the February 2011 issue of 
        DNA and Cell Biology. DNA and Cell Biology. 30(2): 69.

        Handelsman, J. 2011. A New Year of DNA and Cell Biology. DNA 
        and Cell Biology. 30(1): 1.

        Handelsman, J. 2010. Highlights from the November 2010 issue of 
        DNA and Cell Biology. DNA and Cell Biology. 29(11): 647.

        Handelsman, J. 2010. Not science fiction: Undergraduates 
        productive in research. DNA and Cell Biology. 29(9): 465.

        Handelsman, J. 2010. Highlights from the August 2010 issue of 
        DNA and Cell Biology. DNA and Cell Biology. 29(8): 397.

        Handelsman, J. 2010. Highlights from the July 2010 issue of DNA 
        and cell biology. DNA and Cell Biology. 29(7): 337.

        Handelsman, J. 2010. Highlights from the May 2010 issue of DNA 
        and Cell Biology: Unusual systems and techniques. DNA and Cell 
        Biology. 29(5): 213.

        Handelsman, J. 2010. Highlights from the March 2010 issue of 
        DNA and Cell Biology. DNA and Cell Biology. 29(3): 101.

        Handelsman, J. 2009. Highlights from the November 2009 issue of 
        DNA and Cell Biology. DNA and Cell Biology. 28(11): 541.

        Handelsman, J. 2009. Highlights from the October 2009 issue of 
        DNA and Cell Biology. DNA and Cell Biology. 28(10): 479.

        Handelsman, J. 2009. News from DNA and cell biology. DNA and 
        Cell Biology. 28(9): 423.

        Handelsman, J. 2009. Microbial symbiosis: in sickness and in 
        health. DNA and Cell Biology. 28(8): 359-360.

        Handelsman, J. 2009. Highlights from the May 2009 issue of DNA 
        and Cell Biology. DNA and Cell Biology. 28(5): 221.

        Handelsman, J., Highlights from the March 2009 issue of DNA and 
        Cell Biology. DNA Cell Biol, 2009. 28(3): 101.

        Handelsman, J. 2009. Odd, weird, and bizarre: Model systems 
        issue. DNA and Cell Biology. 28(2): 49.

        Handelsman, J. 2008. Call for papers: Symbiosis special issue. 
        DNA and Cell Biology. 27(11): 587.

        Handelsman, J. and R.A. Grymes. 2008. Looking for a few good 
        women? DNA and Cell Biology. 27(9): 463-465.

        Felnagle, E. and Handelsman, J. 2008. Commonalities in sickness 
        and in health. DNA and Cell Biology. 27(7): 345-346.

        Handelsman, J. 2008. Call for papers: Unique model systems. DNA 
        and Cell Biology. 27(6): 287.

        Handelsman, J. 2008. Metagenomics is not enough. DNA and Cell 
        Biology. 27(5): 219-221.

        Handelsman, J. 2008. Youth matters. DNA and Cell Biology. 
        27(3): 115.

        Handelsman, J. 2008. The gray zone: Scientific misconduct comes 
        in many shades. DNA and Cell Biology. 27(2): 63-64.

        Handelsman, J. 2008. DNA and Cell Biology 2008 New Year's 
        resolutions. DNA and Cell Biology. 27(1): 1.

        Handelsman, J. 2007. Help wanted: Newspapers seek Ph.D.'s in 
        biomedical sciences. DNA and Cell Biology. 26(12): 809-810.

        Handelsman, J. and Birgeneau, R. 2007. Women advancing science. 
        DNA and Cell Biology. 26(11): 763-764.
Speeches, Talks, and Panel Discussions
                                  1996

  <bullet> American Society for Microbiology (ASM) Annual Meeting, 
        Atlanta, GA, Microbial Interactions Research

  <bullet> International Society of Chemical Ecology Meeting, Cornell 
        University, plenary address

  <bullet> ASM Microbial Diversity Meeting, Plant-Microbe Symbioses

  <bullet> 9th International Congress of Molecular Plant-Microbe 
        Interactions, Chemical biology of plant disease suppression by 
        Bacillus cereus

  <bullet> NIH NRSA meeting, antibiotic resistance in Staph aureus
                                  1998

  <bullet> National Association of University Attorneys, workshop on 
        sexual harassment and the law

  <bullet> University of Kentucky, Molecular and ecological 
        underpinnings of biological control of plant disease

  <bullet> University of Georgia, Molecular and ecological 
        underpinnings of biological control of plant disease

  <bullet> University of Minnesota, Molecular and ecological 
        underpinnings of biological control of plant disease
                                  2001
  <bullet> Various venues, From Socrates to Feminists: active learning 
        in the classroom

  <bullet> 101st ASM Meeting, Education Conference, The Golden Ages of 
        Microbiology Education

  <bullet> 101st ASM Meeting, Environmental Microbial Genomics

  <bullet> Frontiers in Genomics, Communication between Bacillus cereus 
        and its environment

  <bullet> Keystone Conference, Metagenomics of Environmental Microbes, 
        Bacteria and Their Environments
                                  2002

  <bullet> Stanford University, Research on Microbial Interactions

  <bullet> Department of Energy Genomes to Life Principal 
        Investigators' Meeting, invited presentation

  <bullet> Woods Hole Marine Biology Laboratory, Microbial Diversity 
        Course, class lecture

  <bullet> NSF meeting for Microbial Observatories Principal 
        Investigators, keynote address

  <bullet> American Soil Science Society of America, award lecture

  <bullet> Howard Hughes Medical Institute, invited presentation on 
        education

  <bullet> NSF ADVANCE Program PI's meeting, presentation on women in 
        science
                                  2004

  <bullet> Howard Hughes Medical Institute--Professors' meeting, 
        presentation on teaching

  <bullet> Howard Hughes Medical Institute--Investigators' meeting, 
        invited presentation on teaching

  <bullet> NSF Microbial Observatories meeting, research presentation

  <bullet> American Society for Microbiology, Microbial Ecology 
        Division N lecture

  <bullet> ASM Conference on Cell--Cell Communication, invited research 
        presentation

  <bullet> DARPA Meeting on Endogenous Host Defenses, invited research 
        presentation

  <bullet> National Academy of Sciences Beckman Frontier Symposium, 
        invited research presentation

  <bullet> University of Maryland-Baltimore County Symposium on 
        Interdisciplinary Biology Education, invited presentation on 
        teaching

  <bullet> Conference on Microbial Communities and Infectious Disease, 
        Pasteur Institute invited research presentation
                                  2008

  <bullet> 4/24/08, Marvin A. Brennecke Lecture, Washington University 
        in St. Louis, Phalanx or Traitors? Microbial communities in the 
        gypsy moth gut

  <bullet> 5/21/08, Forum on Microbial Threats, IOM; Washington, DC, 
        Expanding the resistance universe with metagenomics

  <bullet> 6/1/08, ASM General Meeting, Boston, MA, Beyond Bias and 
        Barriers

  <bullet> 7/28/08, APS Centennial Meeting, Minneapolis, MN, (1) Apples 
        and antibiotics: Metagenomic discovery of antibiotic resistance 
        genes in orchard soil (2) Phalanx or traitors?--Signaling in 
        microbial communities and host health

  <bullet> 10/2/08, Distinguished Lecture, University of Colorado in 
        Boulder, (1) Phalanx or Traitors? The role of microbial 
        communities in host health (2) The Fallacy of Fairness: Why Not 
        Apply Science to the Scientists?

  <bullet> 10/28/08, Frontiers in Pharmacology, UW-Madison, 
        Conversations Among the Unseen: Molecular Signaling in 
        Microbial Communities

  <bullet> 11/4/08, Chaos and Complex Systems Seminar, UW-Madison, 
        Conversations with the silent majority in soil microbial 
        communities

  <bullet> 11/25/08, Fourth Tuesday Group, UW-Madison Phalanx or 
        Traitors?, The role of microbial communities in host health

  <bullet> 12/6/08, Higher Education Seminar: Following the Money in 
        Tough Times, Hechinger Institute, Columbia University, 
        Revolution in the Science Classroom: Energizing Science and 
        Engineering Instruction (with Donald Giddens of Georgia Tech)
                                  2009

  <bullet> 1/27/09, FRESH seminar, UW-Madison, The Many Faces of 
        Bacillus cereus and its Friends

  <bullet> 2/5/09, Evolution Group, UW-Madison, invited research 
        presentation

  <bullet> 2/10/09, Genomics: GTL, Bethesda, MD, invited research 
        presentation

  <bullet> 2/18/09, The American Association for the Advancement of 
        Science (AAAS) Annual Meeting, Teaching Science in a Large 
        Public University

  <bullet> 3/3/09, IOM Forum on Microbial Threats, Washington, DC, 
        Antibiotic Use in Agriculture, AMR, and Antimicrobial 
        Discovery: An Ecological Perspective

  <bullet> 3/13/09, University of Michigan Microbial Ecology Symposium, 
        Phalanx or Traitors? The role of microbial communities in host 
        health

  <bullet> 3/23/09, Seminar in: Topics in Agricultural Biotechnology 
        UW-Madison, Biocontrol of pest and pathogens in agriculture and 
        forestry

  <bullet> 3/25/09, Soils Department seminar, UW-Madison, Seeing the 
        Unseen: The Soil Metagenome in an Alaskan Boreal Forest

  <bullet> 4/9/09, Dept. of Microbiology, University of Illinois, 
        Urbana--Champaign seminar, Phalanx or Traitors? The role of 
        microbial communities in host health

  <bullet> 4/17/09, Auburn University WISE Institute Faculty seminar, 
        The Fallacy of Fairness: Why Not Apply Science to the 
        Scientists?

  <bullet> 4/20/09, Yale University seminar, New Haven, CT, 
        Metagenomics to Metagenetics: Dissection of Microbial 
        Communities in Soil and Caterpillar Guts

  <bullet> 4/29/09, Food Research Institute Spring Meeting, UW-Madison, 
        Antibiotic Resistance and the Food Supply

  <bullet> 5/5/09, Academy Evenings in Madison, UW-Madison, 
        Microorganisms: Calamity and Salvation for the Earth and Its 
        Residents

  <bullet> 5/17/09, The American Society for Microbiology (ASM) General 
        Meeting, invited research presentation

  <bullet> 8/17/09, Society for Industrial Microbiology Conference, 
        Park City, Utah, Bacillus thuringiensis, resident gut 
        microbiota, and innate immunity in lepidopteran insects

  <bullet> 11/19/09, Harvard University Department of Organismic and 
        Evolutionary Biology, Phalanx or Traitors? Role of the gut 
        microbial community in the health of lepidopteran insects

  <bullet> 12/3/09, Delaware Biotechnology Institute, Listening to the 
        silent majority: antibiotic resistance among uncultured 
        bacteria in soil

  <bullet> 12/10/09, Rosalind Franklin Society, President and Speaker
                                  2010

  <bullet> 3/11/10, National Institute of General Medical Sciences, 
        invited research presentation

  <bullet> 4/28/10, Yale University Science and Engineering Forum 
        invited research presentation

  <bullet> 6/28/10, Gordon Research Institute, invited research 
        presentation

  <bullet> 7/14/10, Howard Hughes Medical Institute Professors Meeting, 
        presentation on teaching

  <bullet> 8/4/10, HHMI BIO 2020: Developing the Next Generation, 
        Scientific Teaching in the Summer

  <bullet> 8/23/10, ISME13, invited research presentation

  <bullet> 8/30/10, Raper Symposium, UW-Madison, Symbiosis between 
        caterpillars and gut microbial communities

  <bullet> 9/3/10, MCGD Track Talk, Yale University, Metagenomics and 
        Microbiomes: Molecular bases of bacterial ecology and diversity

  <bullet> 10/15/10, Jane Coffin Childs Postdoctoral Fellows Symposium, 
        invited research presentation

  <bullet> 10/22/10, Brown Friday Chemistry Colloquium; Yale 
        University, Chemical Ecology of Caterpillar-Microbe 
        Interactions

  <bullet> 11/11/10, Evolutionary Medicine course lecture, Guest 
        Lecturer

  <bullet> 12/7/10, University of Connecticut Department of Molecular 
        Biology, The commensal-to-pathogen switch in an insect 
        microbiome
                                  2011

  <bullet> 1/26/11, Presidential Award in Science, Engineering, and 
        Math Mentoring award lecture

  <bullet> 1/28/11, Science Education Colloquia, Yale University, What 
        is Scientific Teaching?--The Changing Landscape of Science 
        Education

  <bullet> 2/2/11, University of Maryland, Scientific Teaching: 
        Evidence for change in science education

  <bullet> 2/19/11, AAAS Annual Meeting, What about the ``how'' in 
        education change?

  <bullet> 3/3/11, CBIO/GENE/MCDB 901b, Yale University Guest Lecturer

  <bullet> 3/4/11, Perspectives on Science and Engineering, Yale 
        University Microbes and Us: Why we should respect our bacterial 
        friends

  <bullet> 3/28/11, University of Colorado Symposium, Science on FIRE: 
        Facilitating Interdisciplinary Research and Education invited 
        presentation on education

  <bullet> 4/5/11, Galston Lecture, Yale University, The Future of Our 
        Microbial Planet

  <bullet> 4/15/11, Morehouse Division of Science and Mathematics 
        Faculty Development Workshop invited research seminar

  <bullet> 4/18/11, National Academy of Sciences DELS Dimensions of 
        Microbiology, Probing microbial communities with metagenomics 
        and chemistry

  <bullet> 5/13/11, Yale Chemical Biology Symposium, Antibiotics and 
        Signals in Microbial Communities

  <bullet> 5/22/11, ASM Gen Mtg: DC White Research and Mentoring Award 
        Lecture, Language Metaphors in Microbial Ecology

  <bullet> 5/28/11, Yale College Reunions, The Future of the Microbial 
        Planet

  <bullet> 6/2/11, ASMCUE, Scientific Teaching: Evidence for change in 
        science education

  <bullet> 6/6/11, Mastering Metagenomics Short Course, Yale University 
        Metagenomics & Beyond

  <bullet> 6/8/11, Wind River Conference on Prokaryotic Biology, (1) 
        Scientific Teaching: Evidence for change in science education, 
        (2) It Takes a Village: Cooperation and antagonism in the 
        caterpillar gut microbial community

  <bullet> 7/21/11, SCHOLAR enrichment speaker, Yale University, 
        Commensals to Pathogens

  <bullet> 7/29/11, Med School New Faculty Speaker, Yale, invited 
        presentation on mentoring

  <bullet> 9/20/11, Yale Digestive Diseases Seminar, Strategy and 
        Serendipity in Academic Careers

  <bullet> 9/26/11, Stony Brook University Seminar, (1) Scientific 
        Teaching: Launching a Revolution in Science Education, (2) 
        Phalanx or traitor? Impact of gut microbial communities on 
        insect health

  <bullet> 10/11/11, CIRTL Forum; Madison, WI, A Revolution in Science 
        Education: From fringe activity to national mandate

  <bullet> 11/3/11, University of Georgia Microbiology Department, 
        Phalanx or traitor? Impact of gut microbial communities on 
        insect health

  <bullet> 11/28/11, MB&B Seminar Series, Yale University, Molecular 
        Diversity in Microbial Communities
                                  2012

  <bullet> 1/20/12, Johns Hopkins Symposium on Teaching Excellence in 
        the Sciences, National trends in the transformation of STEM 
        education

  <bullet> 2/15/12, Yale EEB Seminar Series, Metagenomic analysis of 
        antibiotic resistance in the environment

  <bullet> 3/1/12, NIH Wednesday Afternoon Lecture, Phalanx or traitor? 
        Impact of gut microbial communities on insect health

  <bullet> 3/2/12, AWIS Bethesda, Improving College STEM Education

  <bullet> 3/6/12, Institute of Medicine Forum on Microbial Threats, 
        Interspecies interactions among rhizosphere and soil bacteria

  <bullet> 3/16/12 MIT Education Group Seminar, Engage to excel: A 
        national perspective on science education

  <bullet> 5/12/12 Yale Talks About Drug Discovery Symposium, 
        Organizer, Speaker, Panel Member

  <bullet> 5/18/12 28th New Phytologist Symposium; Rhodes, Greece, 
        Keynote speaker: The Plant Microbiome: Uniquely Green 
        Microbiology

  <bullet> 6/1/12,Yale Alumni Event, The Future of the Microbial Planet

  <bullet> 6/17/12, ASM General Meeting, Microbial modulation of 
        diversity and disease in the caterpillar gut

  <bullet> 8/4/12, American Phytopathological Society Annual Meeting, 
        From Metagenomics to Metabolomics: Communication in the 
        Rhizosphere

  <bullet> 9/30/12, ASM Education Board, Small World Initiative

  <bullet> 10/9/12, HHMI Undergraduate Science Education meeting, The 
        nature of student persistence in STEM: PCAST and beyond

  <bullet> 10/15/12, Yale Office of Research Administration, One 
        microbiologist's view of research: Discovering antibiotics, 
        improving teaching, and including more people in science

  <bullet> 11/5/12, Microbial Community Dynamics: Cooperation and 
        Competition workshop in St. Louis, Molecular and functional 
        diversity of environmental microbial communities

  <bullet> 11/19/12, The National Academies Committee on Women in 
        Science, Engineering, and Medicine Committee Meeting, A 
        Perspective on Recent Relevant Research & Implications for 
        CWSEM

  <bullet> 12/11/12, Institute of Medicine Forum on Microbial Threats 
        15th Anniversary, From the war metaphor to the microbial planet
                                  2013

  <bullet> 1/14/13, Yale Physics Club, The Fallacy of Fairness: 
        Rethinking the Meritocracy of Science

  <bullet> 1/25/13, University of Pennsylvania Phoebe Leboy Lecture, 
        The Fallacy of Fairness: Progress and Challenges for Women in 
        Science 2013

  <bullet> 2/14/13, AAAS Annual Meeting Workshop on Responsible 
        Professional Practices, Mentoring and being mentored

  <bullet> 2/16/13, AAAS Annual Meeting, A Persistence Framework: A New 
        Look at STEM Retention and the Undergraduate Experience

  <bullet> 3/6/13,Harvard University Medical School Joint Committee on 
        the Status of Women, Addressing Subtleties in Gender Bias in 
        Academic Medicine, panelist

  <bullet> 3/11/13, Penn State Center for Excellence in Science 
        Education Seminar, National trends in the transformation of 
        STEM education

  <bullet> 3/12/13, Penn State Distinguished Lecture in the Life 
        Sciences, The rest of the biosphere: Metagenomics reveals 
        unexpected species and genes in natural habitats

  <bullet> 3/20/13, Ivy Plus Equal Opportunity/Diversity Officers 
        Meeting at Yale University, Unconscious Bias

  <bullet> 4/3/13, Women Faculty Forum, The Double Blind: Bias and 
        belief systems in science

  <bullet> 3/28/13, Johns Hopkins Universities, Call of the wild: 
        Antibiotic resistance genes in diverse habitats

  <bullet> 4/8/13, NIH Dynamics of Host-Associated Microbial 
        Communities Conference, Retrospective Musings

  <bullet> 4/15/13, AAU Spring Presidents Meeting, invited presentation 
        on education

  <bullet> 4/18/13, Yale Class of 1950 Reunion, The Future of the 
        Microbial Planet

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony. None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I am deeply committed to the proposition that robust scientific and 
technological discovery, coupled with effective science education, is 
essential to a strong economy and a truly democratic society. Through 
its policies and strategic investments, the United States has fostered 
the world's premier science and technology engine, which has catalyzed 
the growth of the country's technology industry and the U.S. economy 
more generally over the past 50 years. I wish to contribute to the 
future of this engine by providing counsel based on the best and most 
accurate knowledge of emerging areas in science and technology. If 
confirmed as Associate Director for Science in the Office of Science 
and Technology Policy, I would bring extensive experience not only in 
my primary area of microbiology but also in biomedical sciences more 
broadly, as well as expertise in agricultural technology, environmental 
science, human diversity in science, and--of great importance for this 
job--science, technology, engineering, and math (STEM) education. I 
anticipate developing and contributing to creative initiatives that 
will strengthen U.S. scientific research and education and propel the 
United States toward meeting our industrial workforce needs of the 21st 
Century.
    But the importance of science and science education reaches beyond 
this foundational economic priority. In my experience communicating 
science to the public, I find that people are eager to learn science 
and want to be inspired and enthralled by discovery. In this age of 
high technology and specialized science, it is especially satisfying to 
excite the human imagination with the fantastic feats of modern 
science. By their very nature, the acts of problem-solving and 
discovery cultivate attitudes of hope and optimism--traits that have 
driven this country to greatness from its earliest days. Serving the 
government and citizens of the United States by informing and advising 
about science would be an unrivaled honor and privilege.
    Four features of my career have prepared me for this position: my 
broad training and interests in science and technology; my research in 
and innovative approaches to science education; my insistence that the 
public be better informed about science; and my creative and inclusive 
leadership style.
    Breadth in Science and Technology. The Associate Director for 
Science has a portfolio that spans the breadth of science. My formal 
education, in Agronomy and Molecular Biology, represents fields that 
are different in scientific content, outlook, and scale. Agronomy is an 
applied science focused on improving crop performance and soil health, 
whereas molecular biology is a fundamental science that aims to 
understand the inner workings of cells across all organisms. Over the 
last 28 years, my research group has pushed the boundaries of 
established fields of microbiology. We also contributed to the 
pioneering of metagenomics, a field that I named. Metagenomics is the 
study of a mixture of genomes from all of the different bacteria in a 
community. Metagenomics provides access to the information locked up in 
bacteria that cannot be studied by traditional techniques because they 
are recalcitrant to culturing in the laboratory. My research has 
focused on problems at the economically pivotal intersection of 
microbiology with agriculture (such as using bacteria to control insect 
pests) and medicine (such as discovering new antibiotics), as well as 
in basic microbiology research that is entwined with chemistry and 
computational sciences.
    Beyond my own research career, I have provided national-level 
leadership through service on committees that have had a substantive 
impact on the trajectories of key fields in science and technology. For 
instance, I co-chaired a committee that prepared the 2007 National 
Research Council report, ``The New Science of Metagenomics,'' which 
provided a roadmap for this new and rapidly growing domain of research. 
The recommendations in that report fostered NIH's Human Microbiome 
Project, which has transformed our understanding of the role of 
microorganisms in human health and chronic disease, a field poised to 
offer a new era of microbial treatments for disease and personalized 
medicine. In addition to my direct experience in a wide array of 
research fields, the breadth of my research program has necessitated 
collaboration with scientists in many other fields, including 
statistics, chemistry, and internal medicine. These diverse research 
thrusts have required funding from numerous Federal and private 
institutions, preparing me to be an effective interface with leaders of 
agencies with a multitude of missions.
    Research and Innovation in STEM Education. My research in STEM 
education has similarly spanned the realms of basic and applied 
science. My education research group has particularly aimed at 
understanding the importance of human diversity in undergraduate 
education and the impact of new educational interventions on diverse 
students. I developed an approach known as ``scientific teaching'' that 
relies on validated teaching practices and uses student diversity to 
improve classroom learning for all students. Scientific teaching has 
contributed to the transformation of science education in colleges and 
universities nationwide through the National Academies Summer 
Institutes on Undergraduate Education and programs in scientific 
teaching for future faculty. I co-founded the Summer Institutes in 2003 
in an effort to train university faculty in effective teaching methods. 
My team led the expansion of the original Summer Institute to eight 
Institutes across regions of the United States that have each affected 
participants directly, as well as faculty subsequently trained by the 
participants. My programs at the University of Wisconsin-Madison and 
Yale University that are directed at training future faculty in 
classroom teaching and mentoring, have served as a model for other 
programs, creating a nationwide cohort of young scientists ready to 
change university teaching. Together, the programs for both current and 
future faculty have trained more than 1,000 in effective teaching 
methods. My books, ``Entering Mentoring'' and ``Scientific Teaching,'' 
have influenced thousands of other educators. In 2011, President Obama 
presented me with the Presidential Award on Science, Mathematics, and 
Engineering Mentoring in recognition of my national work on education 
transformation.
    STEM education must be a core element of any U.S. strategy for 
continued global leadership and is a central responsibility within 
OSTP's Science Division. My experience in improving science education 
nationally--both in terms of my evidence-based understanding of 
pedagogical theory and my practical experience launching on-the-ground 
initiatives--has prepared me to offer leadership in the strategic 
formulation and implementation of national initiatives. And my teaching 
experience will provide me with the skills to communicate with 
scientists and non-scientists about technical and education issues.
    Public Engagement with Science. I believe that science must be 
accessible and compelling to non-scientists to ensure the robustness of 
our democracy and the furtherance of the American spirit of innovation. 
My 27 years of teaching biology to non-science majors prepared me to 
teach science to the public. My greatest delight in teaching has always 
been captivating people, especially those who think they have no 
interest in science, with the extraordinary impact and power of 
scientific investigation. I learned to strip away jargon to expose 
nuggets of biology that have broad appeal because of either their 
intrinsic beauty or their implications for the human condition. At 
OSTP, I would look forward to communicating about science with broad 
audiences to advance understanding of science and strengthen the 
public's voice in science policy.
    As a professor at a land grant university, I had ample opportunity 
to engage with the citizens of Wisconsin on science issues for 27 
years. Through that outreach, I learned firsthand of the public's 
concerns about new advances in science and technology as well as the 
importance of public dialogue in a pluralistic society. As department 
chair at the University of Wisconsin-Madison, I designed an outreach 
program with an open venue for the public to discuss microbiology, and 
a museum with living and interactive displays that illustrated the 
interactions between microorganisms and animals. Since moving to Yale 
University, I have developed a program to train graduate students in 
the sciences to communicate with the public effectively, using leading 
science journalists to coach and advise the graduate students.
    If confirmed to serve at OSTP, I could aid the government in 
serving the public with sound science policy. The fiber of the 
partnership between government and citizen depends on public 
understanding of science and science policy in order to make informed 
decisions in an increasingly technological world. My past experience in 
public communication would contribute to effective dissemination of 
information about science and science policy.
    Leadership Style. My approach to leadership is informed by my study 
of education. Copious research shows that students learn little without 
active engagement in their learning. Likewise, I have found that to be 
most creative and productive in the workplace, people need active 
engagement in decisions and strategic action. I therefore developed an 
engaged approach to leading groups (and a process known as ``speed-
visioning'') that I have applied and refined to lead my research 
laboratory, committees, a department, and a national movement in 
science education. My contributions in microbiology and education 
research have relied upon constructing groups with hand-picked talent 
and personalities that attain a level of creativity that far exceeds 
the abilities of the individuals within the groups. In leading a 
department, I entered an established organization and built a similar 
ethos of innovation and excellence. The skills of selecting talent and 
inspiring excellence from teams will be useful in leading staff, 
galvanizing support for initiatives, building coalitions, and 
negotiating compromises, all of which are key roles for the OSTP 
Associate Director for Science.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    OSTP has a sophisticated staff that shares the responsibility of 
providing counsel and problem solving to assist the President. It is 
important that the staff share a common vision and maintain a 
collaborative operating style for maximum effectiveness. It will be 
essential for me to affirm this vision, if confirmed, and to meet 
regularly with key personnel to ensure that effective management and 
accounting principles are being applied.
    My research lab has typically contained 15 to 20 postdoctoral 
scientists, graduate students, undergraduate students, and 
occasionally, high school students. Running a lab entails obtaining 
funding for each member, providing a balance of guidance and 
independence, and fostering individual growth that strengthens the 
group through teamwork and cooperation. Achieving maximum productivity 
requires managing interpersonal challenges, individual responses to 
failure and success, and the tumultuous landscape of funding in a 
rapidly changing field of science.
    At the University of Wisconsin, I served as chair of the Department 
of Bacteriology, a unit of 180 people with an annual budget of 
$6,000,000. The Department's mission includes research, education, and 
public outreach, and is supported by funding from a variety of public 
and private sources, each governed by different legal parameters and 
institutional policies. I corrected irregular fiscal practices; 
maintained a balanced budget; and used flexibility, good will, and 
creative fundraising to sustain and expand the operation in an era of 
significant budget reductions.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

  1.  The overriding challenge--the task that, if handled skillfully, 
        will have the greatest long-term impact on the future of the 
        country--is to ensure that the national science budget is 
        deployed strategically. In an era of tight resources, it is 
        particularly challenging to achieve a balance between 
        sustaining successful ongoing programs and initiating new areas 
        of research. The very nature of science is dynamic, a blend of 
        investigations designed to achieve greater depth in existing 
        areas and those seeking to expand the frontiers of knowledge. 
        The constant change in scientific knowledge requires that 
        science leaders in government exhibit vision, flexibility, and 
        commitment to supporting at appropriate levels those fields of 
        investigation with the greatest potential to serve the American 
        people in the short-, medium-, and long-terms.

  2.  The second challenge is to make science education more effective. 
        In both K-12 and higher education, there have never been 
        greater opportunities to take advantage of new knowledge about 
        how people learn as well as modern educational technology. The 
        challenge is to enhance current science education through 
        myriad routes of influence. Building on my previous work, which 
        has focused on the agency of individual educators and 
        educational institutions, the OSTP position provides a platform 
        and an opportunity to apply modern lessons about science 
        education on a national scale and for the full breadth of 
        players in the STEM education community. I served on the 
        committees (and co-chaired one) that authored the 2011 and 2012 
        reports on STEM education prepared by the President's Council 
        of Advisors on Science and Technology (PCAST). I am deeply 
        knowledgeable about the necessary changes, and about how to 
        implement those changes programmatically.

  3.  The third challenge is communication among scientists, policy 
        makers, and the public. People will not support priorities they 
        don't understand. The scientific community will chafe at the 
        difficult choices made by government if they are not cognizant 
        of the basis for the choices. Likewise, the public will not 
        understand why resources are invested in science without 
        understanding its potential impact on our collective future. I 
        believe that OSTP, in close collaboration with our colleagues 
        in Congress, can play a catalytic role in enhancing this 
        dialogue through the Federal agencies and private sector with 
        which OSTP interacts.

                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    If confirmed, I will take an unpaid leave of absence from my 
position as the Howard Hughes Medical Institute Professor and Frederick 
Phineas Rose Professor at Yale University.
    I will maintain my Yale pension plan, my Accumulated Sick Leave 
Escrow Account, and my Wisconsin Retirement System Pension Account 
through the University of Wisconsin-Madison.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    If confirmed, I will take an unpaid leave of absence from my 
position as the Howard Hughes Medical Institute Professor and Frederick 
Phineas Rose Professor at Yale University.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and OSTP's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with OSTP's designated 
agency ethics official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and OSTP's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with OSTP's designated 
agency ethics official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    I have engaged in no such activity.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and OSTP's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with OSTP's designated 
agency ethics official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None to my knowledge.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                        Resume of Jo Handelsman
Howard Hughes Medical Institute Professor and Frederick Phineas Rose 
Professor
Yale University
Department of Molecular, Cellular & Developmental Biology
219 Prospect Street, 904 Kline Biology Tower
New Haven, CT 06511
Education
1979-1984, Ph.D., University of Wisconsin-Madison, Molecular Biology

1976-1979, B.S., Cornell University, Agronomy
Positions Held

2012--National Academies Summer Institutes on Science Education, 
Executive Committee, Co-chair

2012--Series Editor, ``Entering Mentoring''

2010--Professor, Department of Molecular, Cellular and Developmental 
Biology, Yale University

2010--Director, The Center for Scientific Teaching at Yale

2007-2009--Professor and Chair, Department of Bacteriology, University 
of Wisconsin

2007-2011--Editor-in-Chief, DNA and Cell Biology

2004-2012--Co-Director (with Bill Wood, University of Colorado), 
National Academies Summer Institute on Undergraduate Education in 
Biology

2003--Series Editor, ``Controversies in Science and Technology''

2002--Howard Hughes Medical Institute Professor

2002-2010--Director, Wisconsin Program for Scientific Teaching

2005-2008--Editor, Applied and Environmental Microbiology

2005-2008--Editor, Cell Biology Education

2001-2007--Co-Director (and Co-Founder with Molly Carnes), Women in 
Science and Engineering Leadership Institute (WISELI)

1997-1999--Director, Institute for Pest and Pathogen Management, 
University of Wisconsin

1995-2007--Professor, Department of Plant Pathology, University of 
Wisconsin

1991-1995--Associate Professor, Department of Plant Pathology, 
University of Wisconsin

1985-1991--Assistant Professor, Department of Plant Pathology, 
University of Wisconsin

1984-1985--Postdoctoral Fellow, Department of Plant Pathology, 
University of Wisconsin

    Senator Nelson. Thank you, Dr. Handelsman.
    Dr. Sullivan.

    STATEMENT OF DR. KATHRYN SULLIVAN, NOMINEE TO BE UNDER 
             SECRETARY OF COMMERCE FOR OCEANS AND 
         ATMOSPHERE AND ADMINISTRATOR OF THE NATIONAL 
          OCEANOGRAPHIC AND ATMOSPHERIC ADMINISTRATION

    Dr. Sullivan. Thank you, Mr. Chairman, Ranking Member 
Thune, and members of the Committee. I am very honored to come 
before you today as President Obama's nominee for Under 
Secretary of Commerce for Oceans and Atmosphere and 
Administrator of the National Oceanic and Atmospheric 
Administration. And Mr. Chairman, with your permission, I will 
switch to acronyms now as well.
    Let me take this opportunity to thank Secretary Pritzker 
and Acting Deputy Secretary Gallagher for their support of my 
nomination and to acknowledge the family and friends who join 
me here today. I am very grateful for their support. Also with 
me in spirit today are my late father and mother, who nurtured 
in me my curiosity about the natural world, my sense of 
adventure and exploration, and a commitment to helping others 
understand our planet.
    I joined NASA in 1978 as a member of the first class of 
shuttle astronauts, also the first group that included women. 
No words can describe the awe of looking down on our blue 
planet from space. It is a singular and spectacular experience 
and one I treasure. It was also a profoundly formative 
experience and one that has led me to NOAA.
    I first joined NOAA immediately upon my return from my 
third shuttle flight as a nominee of George H. W. Bush and 
subsequently President Clinton's appointee to the role of NOAA 
Chief Scientist. I am drawn to the Agency because our mission 
is to observe, forecast, and interpret complex earth systems 
for the benefit of our people and communities. While NOAA is 
not alone in conducting earth science, our commitment to 
provide this information to the American public as useful 
services sets us apart. We are the nation's source of the 
critical and timely environmental intelligence that is 
essential to ensuring our communities are safe, resilient, 
sustainable, and prosperous.
    My time at NASA taught me a lot about myself, about 
organizations, and earth systems, but it was at NOAA that I 
learned how to bring this knowledge to bear to solve real 
problems for communities across our country. These experiences 
have left me with three lessons that will guide me as NOAA 
Administrator if I am confirmed.
    First, I have learned that it is not enough just to 
understand our planet. We must apply this understanding to 
solving the real problems that our citizens, businesses and 
leaders face every single day. And that's exactly what NOAA 
does. We transform scientific data into actionable 
environmental intelligence that can help us live wisely and 
well on this dynamic planet of ours.
    We all know this as the weather forecast that protects 
lives and livelihoods from storms, like Hurricane Sandy, or 
that alert Midwest communities months in advance to coming 
floods. But it is also the nautical charts and navigation data 
that allow cargo to move safely through our ports and harbors, 
the climate data behind plant hardiness zones, the harmful 
algae bloom forecasts that allow local communities to keep 
beachgoers and shellfish farms safe, the solar storm forecast 
that allow utilities to protect our electric grid, and the 
stock assessments that set sustainable levels of catch for our 
Nation's fisheries. All of that is NOAA.
    So, too, are the observational platforms, our satellites, 
radars, buoys, ships, and aircraft that create and sustain the 
flows of data which underpin our ability to provide this 
critical environmental intelligence. And all of this, of 
course, is only possible thanks to the many thousand highly 
talented employees, contractors, and academic partners who 
serve NOAA with exceptional dedication and passion.
    Second, my service in the shuttle program, 18 years in the 
Navy Reserve and my experience at NOAA have all taught me a 
great deal about the importance of operational rigor. The 
breadth, depth, and critical nature of NOAA's operational 
missions are central to our strength and our value to the 
country as an agency.
    Third, an effective organization needs strong leadership 
and management from the top. I have significant management 
experience with organizations of various scales in the 
nonprofit, corporate, and Federal arenas. If confirmed, I will 
apply these years of experience to providing the direction and 
support that NOAA employees need to deliver on our mission.
    I am immensely proud to be nominated for this position 
because I believe, at its core, NOAA is government at its best. 
If given the opportunity, I will work every day with the 
dedicated public servants at NOAA, with our key stakeholders, 
including you, the members of this Committee, and with the 
communities we serve to provide the critical environmental 
intelligence that our citizens, businesses, and coastal 
communities and public leaders need. You can count on me to 
focus on the management and leadership questions that matter 
most to meeting this mission.
    Thank you, again, for the opportunity to testify and for 
your consideration of my nomination. I look forward to your 
questions.
    [The prepared statement and biographical information of Dr. 
Sullivan follow:]

Prepared Statement of Kathryn D. Sullivan, Nominee for Under Secretary 
  of Commerce for Oceans and Atmosphere, United States Department of 
                                Commerce
    Thank you Mr. Chairman and members of the Committee. I am honored 
to come before you today as President Obama's nominee for Under 
Secretary of Commerce for Oceans and Atmosphere and Administrator of 
the National Oceanic and Atmospheric Administration. I would also like 
to thank Secretary Pritzker and Acting Deputy Secretary Gallagher for 
their support of my nomination.
    I am happy to have the support of my friends and family that are 
here with me today. Also with me in spirit are my late father and 
mother, who nurtured in me my curiosity of the natural world, my sense 
of adventure and exploration and my commitment to helping others 
understand our planet.
    When I was six my family moved to California, and the open spaces 
of the San Fernando Valley became my playground. Our family's flying 
and fishing trips kindled in me an interest in the air we flew through, 
the streams we fished in and the ground we stood upon. My deep 
connection with the oceans came later--during a required natural 
sciences course, at the University of California, Santa Cruz. My plan, 
until that fateful semester, was to use a knack for foreign languages 
to explore the world. What I didn't know at the time was that that 
marine biology class would lead me down a path of exploration--first as 
an oceanographer, then as an astronaut, and finally to NOAA. My 
teachers were not just doing science for science's sake. They knew our 
planet like it was their own backyard, and they were using their 
understanding to solve real world problems. They were explorers and 
problem solvers all in one. And I knew instantly what I wanted to do 
with my career.
    I joined NASA in 1978 as part of the eighth class of shuttle 
astronauts--the first to include women. No words can describe the awe 
of looking down on our blue planet from space. It is a singular 
experience, and one I treasure. It is also a key experience that led me 
here to NOAA.
    I first joined NOAA immediately upon my return from my third 
Shuttle flight, as a nominee of George H.W. Bush and, subsequently, as 
an appointee of President Clinton's to the role of Chief Scientist. I 
was drawn to NOAA because our mission is to observe, forecast, and 
interpret complex earth systems for the benefit of our people and 
communities. While NOAA is not alone in conducting earth science, our 
commitment to provide that information to the American public as useful 
``services'' sets us apart. NOAA is the Nation's source of the critical 
and timely environmental intelligence that is essential to ensure our 
communities are safe, resilient, sustainable, and prosperous.
    My time at NASA taught me a lot about myself, organizations and 
earth systems, but it was at NOAA that I learned how to bring that 
knowledge to bear to solve real problems our citizens, businesses and 
leaders face each day. These experiences have left me with three 
lessons that will guide me as NOAA Administrator, if confirmed.
    First, I've learned that it's not enough to just understand our 
planet. We must bring that knowledge to bear to solve the real problems 
our citizens, businesses, and leaders face every single day. That is 
exactly what NOAA does. We transform scientific data into actionable 
environmental intelligence that can help us live wisely and well on 
this dynamic planet. You know this as the weather forecasts that 
protect lives and livelihoods from storms like Hurricane Sandy, or that 
alert Midwest communities months in advance to coming floods. But it's 
also the nautical charts and navigation data that allow cargo to move 
safely through our ports; the climate data behind plant hardiness 
zones; the harmful algae bloom forecasts that allow local communities 
to keep beach goers and shellfish farms safe; the solar storm forecasts 
that allow utilities to safeguard our electric grid; and the stock 
assessments that set sustainable levels of catch in our Nation's 
fisheries. All of that is NOAA. So too are the observational 
platforms--our satellites, radars, buoys, ships and aircraft--that 
create and sustain the flows of data which underpin our ability to 
provide this critical environmental intelligence. If confirmed, a 
central focus of mine will be to insure the scientific integrity and 
quality of this intelligence are sustained and to engage closely with 
stakeholders to guarantee we're delivering the most needed services in 
effective ways.
    NOAA is an agency that has staff working in each and every state 
with constant operations that demand efficiency and sound guidance. 
This brings me to my second point. My service in the Shuttle Program, 
18 years in the U.S. Navy Reserve, and experience at NOAA have taught 
me a great deal about the importance of operational rigor. The breadth, 
depth, and critical nature of NOAA's operational missions are central 
to our strength and value as an agency. We are at sea with our 
fishermen and on the docks when they come home, ensuring our fisheries 
are sustained today and into the future. Our weather forecasters are on 
the front lines with first-responders and emergency managers when 
extreme weather strikes, providing lifesaving forecasts and warnings. 
Our Office of Response and Restoration provides spill trajectories for 
oil and chemical spills, and our satellite operators never take their 
eye off the ball, ensuring we have the real-time data we need, 24 hours 
a day, seven days a week, 365 days a year. Members of the NOAA Corps 
clear ports of debris and ensure safe navigation after major storms and 
deploy buoys essential for detecting tsunamis before they reach shore. 
Our team at the National Integrated Drought Information System works 
with water managers and farmers to help them adjust to drought 
conditions. The people of NOAA rise to the challenge every day. I 
understand how to lead operational teams, and I will ensure that NOAA 
operations are efficient and at-the-ready if confirmed as NOAA 
Administrator.
    Third, an effective organization needs strong leadership and 
management from the top. I have significant management experience with 
organizations of various scales in the non-profit, corporate and 
Federal Government sectors. For nearly a decade, I led Ohio's Center of 
Science & Industry (COSI) through a major transformation that included 
the design and construction of a new facility and total re-design of 
all operating systems and business processes. Most aspects of the 
transformation were achieved by making the most of internal expertise 
mobilized in project teams that I formed, supervised, and integrated. 
Creative and effective management is needed throughout the Federal 
Government, and I firmly believe I will bring that to NOAA. I have also 
served as an independent corporate director on the boards of several 
Fortune 500 companies. This service allowed me to study closely a 
variety of large-enterprise business process and management models, and 
provided me with practical insights that continue to inform my own 
management practices. If confirmed, I will apply my years of management 
experience to provide the support that NOAA employees need to deliver 
on our mission. I believe in, and will ensure that NOAA has strong, 
transparent and forward-looking business practices. And I will make it 
a priority to make the investments and changes needed to ensure NOAA is 
a well-managed agency.
    I am immensely proud to be nominated for this position because I 
believe, at its core, NOAA is government at its best. If given the 
opportunity, I will work every day with the dedicated public servants 
at NOAA, our key stakeholders--including you, members of this 
committee--and the communities we serve to provide the critical 
environmental intelligence our citizens, businesses, coastal 
communities and public leaders need to address the questions and 
challenges they face every single day. You can count on me to focus on 
the management and leadership questions that matter to meeting this 
mission.
    Thank you again for the opportunity to testify and for your 
consideration of my nomination. I would be happy to respond to any 
questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Kathryn Dwyer 
Sullivan (Kathy or Kathryn D.)
    2. Position to which nominated: Under Secretary of Commerce for 
Oceans and Atmosphere and NOAA Administrator.
    3. Date of Nomination: August 1, 2013.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Department of Commerce, 1401 Constitution Ave NW, 
        Washington, DC 20230.

    5. Date and Place of Birth: October 3, 1951; Paterson, NJ.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage). None.
    7. List all college and graduate degrees. Provide year and school 
attended.

        1969-1973 S.S., University of California, Santa Cruz
        1973-1978 PhD, Dalhousie University (Halifax, Nova Scotia, 
        Canada)

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        (a) Graduate Fellow, Dalhousie University (1973-1975) and 
        National Research Council Canada (1975-1978), Halifax, Nova 
        Scotia.
        Relevant work: Marine geology and geophysics research 
        expeditions.

        (b) Mission Specialist Astronaut, NASA Johnson Space Center 
        (1978-1993), Houston, TX.
        Relevant work: Mission Manager, WB-57F high-altitude research 
        aircraft program (1979-1981); Mission Lead & Co-Investigator, 
        Shuttle Imaging Radar-B flight experiment, STS-41G (1983-1984); 
        Mission Specialist, Hubble Space Telescope deployment mission, 
        STS-31 (198501990); Payload Commander, ATLAS-1 Atmospheric 
        Sciences Spacelab mission, STS-45 (1990-1992).

        (c) Chief Scientist, NOAA (1993-1996), Washington, D.C.

        (d) Oceanography Officer, U.S. Navy Reserve (1988-2007)
        Relevant work: Tactical sensor operational performance 
        predictions, CTF-66 (1988-1989); Executive Officer and 
        Commanding Officer, NORA 1570 (meteorological and oceanographic 
        services training unit), NAS Dallas (1989-1993); Environmental 
        sensor and models research portfolio assessment, SPAWAR 0466/
        Naval Research Laboratory 1993-1996).

        (e) President & CEO (4/1996-12/2005) and Science Adviser (1/
        2006-11/2006), COSI (Center of Science & Industry), Columbus OH
        Relevant work: Executive leadership and supervision; full 
        profit and loss financial responsibility; strategic planning; 
        annual operating plans and budgets; communications and 
        marketing strategies; stakeholder relationships; design and 
        funding of science education exhibitions and programs.

        (f) Director, Battelle Center for Mathematics and Science 
        Education Policy, John Glenn School of Public Affairs, Ohio 
        State University (2006-2011).
        Relevance: Conceived of and directed original research in 
        educational policy analysis and methods. Developed and taught 
        graduate level coursework in national science and technology 
        policy.

        (g) Corporation Member, Woods Hole Oceanographic Institution 
        (1997-2011).
        Relevance: This non-governing affiliation with WHOI allowed me 
        to remain current with ocean sciences, especially ocean 
        observing vehicles and technologies.

        (h) National Science Board (2004-2011)
        Relevance: Programmatic and budgetary matters coming before the 
        board allowed me to maintain currency with environmental 
        observation, monitoring and research programs and technology 
        developments in fields ranging from atmospheric and ocean 
        sciences to high-performance computing.

        (i) Assistant Secretary of Commerce for Environmental 
        Observation and Prediction and Deputy Administrator and Chief 
        Scientist, NOAA (2011 to present).
        Relevant work: Agency-wide strategy, planning, budget 
        formulation and direction pertinent to observation, modeling 
        and prediction enterprises; interagency policy and program 
        coordination; international partnerships and formal 
        representation; Congressional testimony and relationships; 
        stakeholder and constituent relationship management; public 
        communications.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years.
    Governor's Institute on Creativity and Innovation in Education: 
Advisory panel on program design (2008-2009)
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years.

        K.D. Sullivan Enterprises LLC (Sole proprietor, 2005 to 
        present)

        N951AG LLC (Sole proprietor, 2006 to present)

        American Electric Power (Independent director, 1997-2011)

        Noblis (Trustee, 2001-2011)

        Waterfire Columbus (Trustee, 2005-2011)

        ris DC/Bullard Street (passive restaurant investment, 2008 to 
        present)

        Pizzuti Companies (science and technology advisor, Exploration 
        Park project, Kennedy Space Center, FL; 2007-2011)

        American Association for the Advancement of Science (Trustee, 
        2004-2008)

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Association U.S. Navy (was Naval Reserve Association) (1988 to 
        present)

        Worthington Hills Country Club (2008 to present)

        Friends of Long Marine Laboratory (2009-2011)

        The Lakes Country Club (1999 to present)

        Ohio State University Faculty Club (2006-2011)

        *Girl Scouts USA (1983 to present; gender restriction)

        American Association for the Advancement of Science (1981 to 
        present; Board member 2004-2008)

        Woods Hole Oceanographic Inst. Corporation (1997-2011)

        The Association of the U.S. Navy (1988 to present)

        The Smithsonian Institution (as long as I can remember)

        COSI Columbus (Member, 1996-2008; President and CEO 1996-2005; 
        Science Advisor 2005-2006)

        Explorers Club of New York (1981 to present)

        *Society of Woman Geographers (1981 to present; gender 
        restriction)

        *Women in Aviation International (2008 to present; gender 
        restriction)

        American Institute of Aeronautics & Astronautics (1981 to 
        present)

        The Planetary Society (1982 to present; Board member 2000-2003)

        Sea Space Symposium (1988 to present)

        Association of Space Explorers (1991 to present)

        *International Women's Forum (1993 to present; gender 
        restriction)

        University of California Santa Cruz alumni association (1996 to 
        present)

        Sigma Xi (1989 to present)

        The Ravines at Worthingridge Condo Assoc. (1996 to present)

        Association of Science & Technology Centers (1996-2005; board 
        term 1997-2001)

        Giant Screen Theater Association (1996-2005; board term 1999-
        2003)

    13. Have you ever been a candidate for and/or held a public office 
(elected, non elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.

        Nominated for Chief Scientist, NOAA by President Bush in April 
        1992 and then by President Clinton in February 1993. Appointed 
        by President Clinton in March 1993 (1993-1996).

        Assistant Secretary of Commerce for Environmental Observation 
        and Prediction and Deputy Administrator, NOAA (2011 to 
        present). Nominated and appointed by President Obama.

    14. ltemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.

        Paula L. Brooks for Representative campaign 2010: $500
        Ralph Regula for Congress Committee 2002: $1,000

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        2013: Honorary Doctorate, Willamette University

        2011: McGovern Science & Society Award, Sigma Xi (Honorarium)

        2010: Women Aviator's Hall of Fame

        2010: Women in Aviation Pioneer Hall of Fame

        2008: Women Divers Hall of Fame

        2007: Explorers Medal, Explorers Club of New York

        2005: Aerospace Legends Hall of Fame, Aviation Week & Space 
        Technology magazine

        2004: United States Astronauts Hall of Fame

        2004: Adler Planetarium Leader in Space Science

        2003: National Science Board Public Service Award

        2002: Honorary degree, Kent State University

        2002: Juliette Award for Women of Distinction, Girl Scouts USA

        2002: Ohio Women's Hall of Fame

        2001: Ohio Veteran's Hall of Fame

        2001: YWCA Women of Achievement

        1997: Lone Sailor Award, U.S. Navy Memorial Foundation

        1992: Honorary degree, Stevens Institute of Technology

        1992: NASA Medal for Outstanding Leadership

        1992: Vic Prather Award

        1991: Honorary degree, State University of New York, Utica

        1988: Honorary degree, Ohio Dominican College

        1988: NASA Exceptional Service Medal

        1987: Ten Outstanding Young Americans Award, U.S. Jaycees

        1987: Ten Outstanding Young People of the World, Jaycees 
        International

        1985: Honorary degree, Dalhousie University

        1985: National Air and Space Museum Trophy

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I have done my best to identify books, articles, columns, 
publications or relevant speeches, including a thorough review of 
personal files and searches of publically available electronic 
databases. Despite my searches, there may be other materials I have 
been unable to identify, find, or remember. I have located the 
following:
Publications

        Generative Leadership: Shaping New Futures for Today's Schools 
        (2008), K. Klimek, E. Ritzenhein & K. D. Sullivan. Corwin 
        Press.

        Women Leading the Way: Reflections on Life and Leadership 
        (2005), The Academy for Leadership & Governance, Columbus Ohio.

        America's Living Oceans: Charting a Course for Sea Change 
        (2003), Pew Oceans Commission final report.

        A Glimpse of Home (2002), Time Magazine Special Report on the 
        Environment (August 26 edition, A4-AS).

        Technology and the City's Future (1997), Mayoral Task Force 
        Report (Co Chair and lead author).

        The Atmospheric Laboratory for Applications and Science-1: A 
        Shuttle Mission (1992), with M.R. Torr; EOS, Transactions of 
        the American Geophysical Union.

        Geography Reaches New Heights: An Astronaut's View of Earth 
        (1991), Update, National Geographic Society, Washington, D.C.

        Earth Observations During Space Shuttle Flight STS-31: The 
        Earth from 600 Kilometers (1991), with Evans et al.; Geocarto 
        International 6(3), 99-112.

        Pioneering the Space Frontier (1986), Report of the National 
        Commission on Space; Bantam Books, NY.

        Geology of the Venus Lowlands: Guinevere and Sedna Planitia 
        (1984), with J.W. Head; Lunar and Planetary Science Conference 
        Proceedings, Houston, Texas.

        Elysium Planitia, Mars: Regional Geology, Volcanology and 
        Evidence for Volcano/Ground-Ice Interactions (1984), with P. 
        Mouginis-Mark; Earth, Moon and Planets 30, 149-173.

        The Newfoundland Basin: Ocean-Continent Boundary and Mesozoic 
        Seafloor Spreading History (1983); Earth and Planetary Science 
        Letters 62, 321-339.

        Radar andInfrared Remote Sensing of Geothermal Features at 
        Pilgrim Springs, Alaska (1982), with K.G. Dean, R.B. Forbes, 
        D.L. Turner and F.D. Eaton; Remote Sensing of Environment 12, 
        391-405.

        The Potential for Manned Earth Observations in the Space 
        Shuttle Era (1979), International Union of Geodesy and 
        Geophysics, 17th General Assembly, Canberra, Australia.

        The Structure and Composition of the Linear Volcanic Chains of 
        the Western North Atlantic (1979), with R. Houghton; Hawaii 
        Symposium onIntra-Plate Volcanism, Hilo, Hawaii.

        Geologist in Space (1979), in: GEOS, Department of Energy, 
        Mines and Resources, Ottawa, Canada, 5-7.

        On the Nature of the Crust in the Vicinity of the Southeast 
        Newfoundland Ridge (1978), with C.E. Keen; Canadian Journal of 
        Earth Sciences 15(9), 1462-1471.

        Mesozoic Evolution of the Newfoundland Basin (1977), with C.E. 
        Keen and B.R. Hall; Earth and Planetary Science Letters, 37, 
        307-320.

        Newfoundland Seamounts: Petrology and Geochemistry (1977), with 
        C.E. Keen; Geological Association of Canada, Special Paper 16, 
        461-476.

        Deep-Drill Investigations of the Oceanic Crust in the North 
        Atlantic (1975), with F. Aumento; in: Geodynamics of Iceland & 
        the North Atlantic, NATO Advanced Study Institute, Reykjavik, 
        83-104.
Speeches
Acting NOAA Administrator

        March 5, 2013: Sea Grant Association

        March 21, 2013: World Meteorological Organization World Weather 
        Watch Day ``50th Anniversary of the WMO's World Weather Watch''

        April 4, 2013, 2013 AMS Washington Forum: Panel: ``Federal 
        Agency Leadership''

        April 8, 2013: NOAA Satellite Conference

        April 30, 2013: G-8 International Conference on Open Data for 
        Agriculture

        May 7, 2013: DOC Bronze Medal and NOAA Career Awards Ceremony

        May 7, 2013: Hydrographic Review Services Panel (HSRP)

        March 8, 2013: USS Monitor Memorial Service

        May 12, 2013: Willamette University Commencement ``Don't Leave 
        the Motto at the School Gates''

        May 18, 2013: 95th NOAA Corps Dining Out Keynote

        May 23, 2013: 2013 Hurricane Outlook Press Conference

        May 23, 2013: White House Women's Leadership Summit on Climate 
        and Energy: Panel ``Climate Science and Energy Action''

        May 28, 2013: NOAA Office of Education Student Scholarship 
        Orientation

        May 30, 2013: 2013 Hurricane Outlook POTUS Brief

        May 31, 2013: Basic Officer Training Class 121 Graduation 
        Keynote

        June 4, 2013: Space Weather Enterprise Forum

        June 4, 2013: Capitol Hill Ocean Week (CHOW) Keynote: ``Healthy 
        Oceans and Coasts for a Resilient America''

        June 27, 2013: Bureau of Safety and Environmental Enforcement 
        (BSEE) Hurricane Forum

        July 16, 2013: 5th Symposium on the Impacts of an Ice-
        Diminishing Arctic on Naval and Maritime Operations: ``Critical 
        Environmental Intelligence as a Force-Multiplier for Arctic 
        Stewardship''

        July 20, 2013: Ocean Exploration 2020
Assistant Secretary for Environmental Observation and Prediction

        March 29, 2011: Goddard ``Critical Environmental Intelligence, 
        Protecting America's Future''

        July 18, 2011: Meeting of the State Climatologists

        September 16, 2011: President's Council of Advisors on Science 
        and Technology

        November 11, 2011: OOS Summit ``A New Decade of the Integrated 
        Ocean Observing System''

        January 10, 2012: Opening Remarks for the 2013 AMS 
        International Session

        February 7, 2012: NOAA 2012 Black History Month Program

        February 21, 2012: National Water Center Groundbreaking

        March 28, 2012: MIT Global Change Forum

        April 14, 2012: NASA Education Keynote

        April 18, 2012: Bryant University Research and Engagement Day 
        ``This Adventure Called Life''

        April 19, 2012: City College of New York--NOAA Cooperative 
        Remote Sensing Science and Technology Center (CREST) Day 
        ``NOAA: Protecting America's Future Through Critical 
        Environmental Intelligence''

        April 19, 2012: City College of New York Earth Day

        June 7, 2012: Marine Operations Center--Atlantic Change of 
        Command

        June 7, 2012: Blue Planet Forum ``Environmental Intelligence 
        for Coastal Communities''

        June 8, 2012: NOAA Ship Ferdinand Hassier Commissioning

        June 22, 2012: NOAA Corps Basic Officer Training Class 121 
        Graduation Keynote

        October 18, 2012: American Pilots' Association 2012 Biennial 
        Meeting

        January 10, 2013: American Meteorological Society Annual 
        Meeting ``Vision and Strategies for a Weather Ready Nation''

        February 11, 2013: Reinsurance Association of America CAT 
        Modeling Conference ``NOAA's Role in Disaster Resilience--Space 
        Weather''

        February 25, 2013: National Estuarine Research Reserve 
        Association Board Meeting

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        June 26, 2013--As NOAA's Acting Under Secretary of Commerce for 
        Oceans and Atmosphere and NOAA Administrator before the House 
        Committee on Science, Space, and Technology, Subcommittee on 
        Environment (Chair, Representative Christ Stewart, R UT-2) 
        during a hearing titled ``Restoring U.S. Leadership in Weather 
        Forecasting, Part 2.''

        April 23, 2013--As NOAA's Acting Under Secretary of Commerce 
        for Oceans and Atmosphere and NOAA Administrator before the 
        Senate Committee on Commerce, Science, and Transportation, 
        Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard 
        (Chair, Senator Mark Begich, D-AK) during a hearing titled, 
        ``Oversight of the President's Fiscal Year 2014 Budget Request 
        for Coast Guard and NOAA.''

        April 18, 2013--As NOAA's Acting Under Secretary of Commerce 
        for Oceans and Atmosphere and NOAA Administrator before the 
        House Committee on Natural Resources, Subcommittee on 
        Fisheries, Wildlife, Oceans, and Insular Affairs (Chair, 
        Representative John Fleming, R LA-4) during an oversight 
        hearing titled, ``Spending for the National Oceanic and 
        Atmospheric Administration, the Council on Environmental 
        Quality, the Office of Insular Affairs, the U.S. Fish and 
        Wildlife Service and the President's Fiscal Year 2014 Budget 
        Request for these Agencies.''

        September 12, 2012--As NOAA's Assistant Secretary for 
        Environmental Observation and Prediction before the House 
        Committee on Science, Space, and Technology, Subcommittee on 
        Investigations and Oversight (Chair, Representative Paul Broun, 
        R GA-10) during a hearing titled, ``Mismanagement of Funds at 
        the National Weather Service and the Impact on the Future of 
        Weather Forecasting''.

        June 27, 2012--As NOAA's Assistant Secretary for Environmental 
        Observation and Prediction before the House Committee on 
        Science, Space, and Technology, Subcommittee on Investigations 
        and Oversight (Chair, Representative Paul Broun, R GA-10) and 
        the Subcommittee on Energy and Environment (Chair, 
        Representative Andy Harris, R MD-1) during a hearing titled, 
        ``Continuing Oversight of the Nation's Weather Satellite 
        Programs--An Update on JPSS and GOES-R.''

        July 28, 2011--As NOAA's Assistant Secretary of Commerce for 
        Environmental Observation and Prediction before the Senate 
        Committee on Appropriations, Subcommittee on Financial Services 
        and General Government (Chair, Senator Richard Durbin, D-IL) 
        during a hearing titled, ``Federal Disaster Assistance--``Are 
        We Weather-Ready?''

        March 10, 2011--As nominee for NOAA Assistant Secretary of 
        Commerce before the Senate Commerce Committee Assistant 
        Secretary for Environmental Observations and Predictions for 
        NOAA. She was confirmed by the Senate on May 11, 2011.

        May 24, 1993--As nominee for NOAA Chief Scientist before the 
        Senate Commerce Committee. Dr. Sullivan was confirmed by the 
        Senate in June, 1993.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    Countless aspects of my background and prior employment qualify me 
for this position including my previous time at NOAA as Assistant 
Secretary for Environmental Observation and Prediction and Chief 
Scientist. Broadly stated, these include my academic preparation in the 
earth sciences, my operational experience in scientific field 
expeditions, spaceflight operations and operational environmental 
forecasting for the U.S. Navy, my prior Federal service with both NASA 
and NOAA and the scientific and technical currency I've been able to 
retain through my National Science Board service. Iwish to serve in 
this capacity, because Ibelieve Ican contribute substantively, if 
confirmed, to the success of one of the Nation's most trusted agencies 
providing the Nation and the world with trustworthy, reliable 
atmospheric science, remarkable environmental service, and outstanding 
stewardship of the Nation's oceans and coasts.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Within the domains overseen by this position, I believe I bear 
responsibility to ensure that all programs and operations are planned, 
budgeted and executed following approved policies and procedures, and 
that proper program management and accounting controls are in place and 
functioning as designed.
    I have significant management experience with organizations of 
various scales in the non-profit, corporate and Federal Government 
sectors. From 1996-2005, I led Ohio's Center of Science & Industry 
(COSI) through a major transformation that included the design and 
construction of a 300,000 square foot, $125 million new facility and 
total re-design of all operating systems and business processes. We 
brought in external expertise for the architectural design and 
construction phases, but all other aspects of the transformation were 
achieved with internal expertise mobilized in project teams that I 
formed, supervised and integrated. From 1997-2011, I served as an 
independent corporate director on the boards of several Fortune 500 
companies. This service allowed me to study a variety of large-
enterprise business process and management models at close hand and 
provided me many practical insights that now inform my own management 
practices. Notably, my chairmanship of the nuclear oversight committee 
of one company and the human resources committee of another (not 
Fortune 500) involved hands-on development of new processes in employee 
performance evaluation, compensation analysis and complex technical 
operations. In the Federal arena, as NOAA Chief Scientist from 1993-
1996 I oversaw the agency's roughly $500 million research, development 
and technology portfolio and conceived and led the first-ever review of 
laboratory programs across the entire agency. Since returning to NOAA 
as Deputy Administrator in 2011, I have overseen and driven management 
changes in the National Environmental Satellite Data and Information 
Service, Marine Operations and National Weather Service.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        1. NOAA's critical environmental intelligence is the most 
        valuable asset the agency provides to the Nation--yet the 
        observational platforms, which are essential to collecting 
        these data, are aging. Opportunities exist to innovate and 
        reimagine these systems for the future--saving significant 
        investments through new public-private partnerships and new 
        technologies. If confirmed, ensuring NOAA can continue to 
        provide this critical environmental intelligence will be a top 
        priority.

        2. The demand for NOAA's services is increasing--meeting this 
        demand will require innovation on a number of fronts within 
        NOAA. One particular area of concern is our ability to 
        transition research advancements into operations. This year, 
        NOAA has made significant advancement on this front for weather 
        forecasting thanks to the Sandy Supplemental, but additional 
        work is needed in this area, which I would seek to continue, if 
        confirmed.

        3. Balancing the multiple missions of NOAA is a challenge, 
        especially when short-term, yet significant acquisition budgets 
        for satellites impact other mission functions. It is a priority 
        of mine, if confirmed, to find and maintain balance across NOAA 
        programs.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    AEP deferred compensation balances: two unfunded memo accounts 
record the amounts due to me since I left the board in 2011. The value 
of one memo account tracks securities in the JP Morgan 401k program 
that is open to all AEP employees. The value of the other memo account 
tracks the AEP stock price. I elected to have these amounts paid to me 
in five annual installments, three of which have been paid to date the 
remaining two will depend on AEP's value on the stock market at that 
time.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department of Commerce's designated agency ethics 
official and that has been provided to this Committee. I am not aware 
of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department of Commerce's designated agency ethics 
official and that has been provided to this Committee. I am not aware 
of any other potential conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    I have engaged in no such activity.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department of Commerce's designated agency ethics 
official and that has been provided to this Committee. I am not aware 
of any other potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    From 1997-2011, I served as an independent director at American 
Electric Power (AEP). During my tenure, I may have been named in 
lawsuits against AEP as a party in my official capacity, but am unaware 
of any findings of wrongdoing on my behalf.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain.
    NOAA employee, Sam Williamson, named me as an additional party in a 
discrimination action he brought against then-NOAA Administrator D. 
James Baker in the 1995-1997 timeframe. Iwas interviewed by DOC 
Counsel's office personnel on several occasions, but never disposed or 
subpoenaed. I was subsequently informed that the matter was closed, but 
have no knowledge of the final disposition.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None to my knowledge.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    Senator Nelson. We are fortunate to have people of your 
knowledge and experience and your willingness to serve our 
country, so thank you.
    I am going to defer my questions for the members of the 
Committee and I would turn to Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Dr. Simon, as I indicated, I am proud of the work that is 
done at the South Dakota School of Mines and Technology. Mining 
education and research have generally been in decline since the 
Bureau of Mines and its programs were abolished in the mid-
1990s. This decline has reached a crisis stage, as many faculty 
and researchers are at or near retirement age and demand is 
increasing for a new generation of workers and technologies.
    The National Academy has recently released a report 
entitled, ``Emerging Workforce Trends in the U.S. Energy and 
Mining Industries: A Call to Action'' which concluded that 
there is a pressing need to attract young people into advanced 
engineering fields and to energy and mining careers.
    And so my question is, if you are confirmed, would you look 
at ways that the Federal Government could focus on revitalizing 
our mining research enterprise?
    Dr. Simon. Senator Thune, thanks so much for that question 
and I entirely agree with you. I think that our mining industry 
in this country is one of our important industries. This 
country has important mineral resources that are key to key 
industries, like the chemical processing industry, to advance 
energy technologies.
    I also agree with you personally that the decision to 
reorganize the Bureau of Mines out of existence a number of 
years ago had some really deleterious effects on our ability to 
train and equip people in these important fields. And so, if 
I'm confirmed, I certainly--I haven't read this particular 
latest academy report, but if I am confirmed, I certainly would 
be happy to work with you and with other people on what might 
be constructively done to make sure that we continue a pipeline 
of trained professionals who can work in this important 
industry.
    Senator Thune. Thanks. I wanted to ask another question 
that deals with more of--it's more of a South Dakota issue, but 
it is also an issue that is affecting sort of the mountains all 
over the country and that has to do with the Mountain Pine 
Beetle epidemic that has destroyed over a third of the Black 
Hills National Forest and it has affected over 100 percent of 
the trees in the Black Hill Elk Wilderness Area, which is an 
area within the Black Hills. And that infestation has only 
continued to grow and it is being experienced in other states 
and other forests around the country as well.
    The question has to do with how could forest R&D help find 
ways to help manage and slow the spread of outbreaks in forests 
like those in my state and improve overall forest health?
    Dr. Simon. Well, thanks for that question, too, Senator. 
And as you mentioned, when I met with the staff and they asked 
me what sorts of issues, what sort of rose to the top of my 
personal priority list of things that I thought was important 
for the government to work on, clearly the whole issue of 
research and development to support forest health and to 
improve forest health throughout the United States is high on 
my list and is precisely, actually, motivated by the very 
example you talked about.
    When I worked for Senator Jeff Bingaman in New Mexico, we 
had Bark Beetle infestations in New Mexico and they spread up 
through Colorado. Now there is, you know, sort of all up and 
down the West, we have just this critical problem. And partly 
because of, you know, change in climatic conditions. You know, 
there was a time in which when we had cold winters, you know, 
and you'd kill off the Bark Beetle larva and eggs. And now 
they're surviving and we're having a terrible problem.
    And I do think that, you know, looking at the general 
condition of our forests, you know, there is, I think, sort of 
a wide range of things that need to be done. There are probably 
some improved management practices on the ground. I think we've 
learned a lot about forest management over the last 50 years. I 
think we've stopped some practices which were probably well-
intentioned at the time, like some forms of fire suppression 
and certain places that, you know, now looking back, probably 
wasn't such a smart thing to be doing.
    But I do think that there has to be a good fundamental 
research agenda there that will give us some new tools to look 
at these issues, to improve the health of forests generally, 
and then go after some of these specific questions. And again, 
if I'm confirmed, that will certainly be something that I'm 
looking to try to make a constructive input to.
    Senator Thune. OK, thank you. It's a very important issue 
to my state and many others.
    Dr. Handelsman, I understand that you have closely studied 
the vulnerability of the U.S. and global food supply. Could you 
elaborate on this potential problem and discuss how 
agricultural research and development might contribute to 
greater food security?
    Dr. Handelsman. Thank you for that question, Senator Thune. 
As you know, that's an area that I'm quite committed to.
    The food security of today is less than we've ever 
experienced in the modern area. And that's partly due to the 
pressures of population growth, but also the changing weather 
and other conditions that affect our ability to raise crops and 
animals. And so I think we need a very robust agricultural 
research agenda to help control some of the losses that we 
experience.
    About 50 percent of our crops are lost to pests and 
pathogens, so largely insects and rodents, as well as bacteria, 
fungi and viruses. If we just controlled all of those losses, 
we would double the food supply. So one very simple, but 
important, investment is in the pests and pathogens and new 
means for control of them that threaten our crops and food 
supply.
    Senator Thune. Thank you, Mr. Chairman. My time has 
expired. I have some questions I could submit for the record to 
Dr. Sullivan as well. I know you will cover the NOAA issues 
well in your questions, too, so thank you.
    Senator Nelson. Thank you. And of course the record will be 
left open for members of the Committee to submit questions.
    Senator Heinrich.

              STATEMENT OF HON. MARTIN HEINRICH, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Heinrich. Thank you, Chairman. And I want to thank 
our panel. It's a pleasure to hear from a panel with so much 
scientific background. And it's not every day that we do that 
here on the Hill, so.
    And in particular, I want to thank you all for your 
commitment to the scientific method and the STEM education. 
I've had the pleasure of knowing Bob for quite some time, from 
back when I was on the Albuquerque City Council, before I was 
even a Member of Congress, and I'm very much looking forward to 
supporting your nomination. I would concur with my colleague 
that the issue of forest health, in particular the impact that 
Bark Beetles are having all up and down the West, as we are 
having warmer and warmer winters, is a huge issue for the 
entire Intermountain West.
    I probably want to--I've had enough chance to work with Bob 
that I just want to thank you for your continued service and 
jump to a question for Dr. Handelsman. And you raised an issue 
which, fortuitously, I was actually talking to some folks about 
this morning, which is the lack of investment, adequate 
investment, in antibiotic research, which I think is a critical 
problem.
    The other side of that equation that I think we also need 
to take a very science-based approach to as to do with just how 
much we are using antibiotics prophylactically within our food 
system, particularly with livestock today. I wanted to ask you 
your thoughts on the role that overuse, or prophylactic use, 
may be playing in infectious resistance to antibiotics.
    Dr. Handelsman. Thank you for that question, Senator. 
Obviously, a topic close to my personal experience. The use in 
agriculture of antibiotics goes way back and, despite its very 
extensive use, we still don't understand the mechanisms 
underlying the growth promotion or, as you say, the 
prophylactic use of antibiotics to promote the food supply. So 
there are some cases where we use antibiotics to control 
disease in both trees and animals, but a vast amount of the 
antibiotic use is prophylactic or growth-promoting.
    One place that we could make an investment is in 
understanding the basis for that. And if we understood the 
growth promotion effects, particularly in poultry and pork, I 
think we could offer the growers better solutions and 
alternatives and greatly reduce the amount of antibiotic that 
we introduce into the environment.
    Senator Heinrich. Do you see a relationship between the use 
of those antibiotics and the development of more aggressive 
infectious strains?
    Dr. Handelsman. The resistance that bacteria in human 
health develop is partly due to selection, the differential 
survival of resistant strains, and some of that selection 
pressure comes from hospitals and medical use, and we have good 
evidence that there is overuse there that could be controlled. 
But some of that is exposure in the environment to antibiotics 
and, in particular, in agricultural settings, so I think 
there's no question that reduction of antibiotic use in 
agriculture would help. Other countries that have banned the 
use of antibiotics in prophylactic situations with animals have 
seen a drop in antibiotic resistance in clinical settings.
    Senator Heinrich. Dr. Sullivan, I want to put a little bit 
of a shout-out for the National Weather Service today, as we've 
been experiencing some amazing rainfall amounts in the 
Intermountain West. Most of the news has been on Colorado and, 
given the scale of what they faced, rightfully so. We have had 
similar, although not quite as acute, events in New Mexico from 
the same storm and found the information from the National 
Weather Service to be absolutely critical, although sometimes 
somewhat hard to get to.
    And I wanted to ask you your thoughts on the use of--the 
expanded use of mobile apps to be able to get to scientific 
data that no other weather service or other agencies may have. 
In many cases, in a state like New Mexico, that is highly 
rural, you can't necessarily get to in any other way. And often 
times a mobile phone app is the best connection for somebody in 
an area that may be experiencing a very out of characteristic 
rainfall, to be able to get to important information that 
allows them to be able to manage an emergency situation. I'm 
just curious if you've given thought to the expanded use of 
those kinds of tools.
    Dr. Sullivan. Thank you, Senator, it's a very important 
question. And let me add my concern and sympathies to the 
events that your citizens are facing in New Mexico. This truly 
has been an utterly unprecedented event and it is quite 
devastating.
    You've put your finger on a very important point which we 
have begun to realize with increasing clarity in just the last 
few years as the number and intensity of extreme weather events 
increase. It's a cornerstone principle under our Weather-Ready 
Nation initiative, which essentially says to us at NOAA we need 
to be technically excellent at the forecast. But the real 
purpose of the forecast is to make sure that it connects in a 
timely fashion and in a way that signals timely action to the 
people who need the information.
    In this area of social media and increasing proliferation 
of mobile devices, that is clearly an avenue that we need to 
understand better, work with our partners in the private sector 
component of the weather enterprise, and do all we can to use 
to maximum advantage.
    Senator Nelson. Thank you, Senator.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and thank you 
for having this hearing. It's good to see all of the witnesses 
here and I, too, want to add my thanks to Dr. Simon for his 
leadership in so many areas. So I look forward to having you in 
this new capacity, but like my colleague, unfortunately I have 
more questions for Dr. Sullivan than I do for Mr. Simon or Ms. 
Handelsman.
    But to follow up on that Weather-Ready question, obviously, 
you know, this is a subject that we care a lot about in the 
Pacific Northwest, as we had to implement a new Doppler system. 
So are you going to support maintaining weather buoys and 
survey assist--you know, stock assessments? Using all of that 
information and planning it out, to a more robust system than 
we have today and making that transparent for the public?
    Dr. Sullivan. Senator, I think it is absolutely critical 
that we sustain a robust observing enterprise to power all of 
NOAA's missions, as I commented in my oral statement. The 
observational data absolutely are the underpinning of what we 
do.
    We have made some strides in the past 2 years to set a 
better, clearer, and more transparent foundation under our 
requirements and be sure those are flowing sensibly and well 
into well-designed portfolios of observing systems. Continuing 
to do that and drive that forward will certainly be a priority 
of mine, if confirmed.
    Senator Cantwell. So do we have the supercomputing power to 
do that?
    Dr. Sullivan. We are on track, thanks in part to efforts 
you help lead and we very much appreciate, and to funds that 
were provided by the Congress in the Sandy Supplemental bill. 
We have been able to move forward, just in these last few 
months, on our operational weather forecasting supercomputers. 
They are today already twice--have already today twice the 
capacity that they had when we last visited with you out on the 
West Coast.
    We are on track to be on par with the best in the world in 
supercomputing capacity and that is an absolutely essential 
ingredient to sustain the quality of forecast services that we 
all wish to have.
    Senator Cantwell. Well, thank you. I can't emphasize enough 
how important this is and so we just need to tell the American 
people if we have a resource shortage here or whether we don't. 
But clearly with the amount of storms that we've had and the 
impact and the loss of life, having NOAA have the greatest 
facilities, not hearing from the Europeans that Sandy is going 
to have the impact that it has, but hearing from NOAA that 
Sandy is going to have the impact that it had, and having 
people prepare for that, to me, is a critical mission for the 
agency, so I hope you'll keep us posted on resources.
    I wanted to ask you, the Seattle Times is running all of 
this, the past few days, stories on ocean acidification, front 
page, not--I mean, it's the entire front page, if you will. And 
so I wanted to get your sense of where ocean acidification will 
be as a priority for you at NOAA.
    Dr. Sullivan. As you know very well, Senator, ocean 
acidification is sort of one of the creeping threats of global 
change and the increasing concentration of carbon dioxide in 
the atmosphere. It's a very difficult problem. It's going to be 
a very difficult problem to monitor and provide foresight about 
to coastal communities.
    We have made some progress in that regard in your region, 
as I know you are aware, with our ocean buoys and our Harmful 
Algae Bloom Warning System. That has paid some real dividends 
to West Coast shellfish farmers and helping them close off 
water intakes and prevent slurping in patches of more acidic 
water that could damage the young oysters that they are trying 
to seed in their pens. It's a large-scale, truly global 
problem, as you know, systemic in affecting the earth's 
systems, but it is also patchy and has very patchy local 
consequences.
    We will certainly continue to work forward with you, if I 
am confirmed, to make sure that we can put in place the right 
source of observing and forecasting and monitoring systems to 
help us be as alert and aware and provide as much foresight as 
possible on this condition.
    Senator Cantwell. So you will develop sensors in critical 
areas, you will continue to do research, you will continue to 
deploy adaptive breeding programs, recommend management?
    Dr. Sullivan. Within the resources available to us, 
Senator, we certainly will do that. All of those are components 
of our current ocean acidification program, as you know.
    Senator Cantwell. OK. Within resources, that's an 
interesting way of phrasing it. I guess I would say we had to 
come up with the resources to get that initial program that you 
just said pays dividends. And without it, I think, you know, 
probably three or four or five generations of families of 
shellfish growers, you know, would have been wiped out. And we 
grow something like 25 percent of the shellfish in one bay in 
our state, so this is a very serious issue. So I hope we can 
not predicate it based on resources, but on the urgency for 
this industry and for the resources to have the information.
    Let me turn to one related aspect of that, because my time 
is almost out, and that is NOAA Research Fleet and the fact 
that NOAA needs to have additional vessels. Do you support 
moving ahead on replacing these aging vessels and making sure 
that NOAA has a fleet of research information that is necessary 
to do its job and responsibility?
    Dr. Sullivan. I do support that, Senator. It is quite 
imperative. Every analysis that has been done over the last 
years of the Federal oceanographic fleet, including NOAA's 
assets, show a very precipitous decline within the next ten or 
so years if we don't begin to reinvest in these very critical 
capital assets. We've been doing the planning and preparation 
within NOAA to move on those fronts and look forward to working 
with you to achieve that.
    Senator Cantwell. So that will be one of your priorities?
    Dr. Sullivan. Yes, ma'am.
    Senator Cantwell. OK, thank you. I see my time is up, Mr. 
Chairman. Thank you.
    Senator Nelson. Thank you, Senator.
    Senator Ayotte.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you, Chairman. I want to thank 
everyone for being here. This is obviously very important 
nominations and positions.
    And Dr. Sullivan, I wanted to talk to you about the plight 
of our fisherman in New Hampshire. You and I had a chance to 
meet and talk about this personally, but we've got a situation 
where, last year, there was a disaster declaration for New 
England groundfish. This year, the cod quotas were cut 78 
percent.
    I can't think of a business, and I've raised this several 
times in this committee, that can go with a 78 percent cut on 
their quotas. And you, when we met, talked about having full 
confidence in Administrator John Bullard's ability to keep 
these small fishing businesses surviving and that he would use 
every tool in his toolbox to assist our fisherman.
    However, when he testified before this Committee in July, I 
told him how troubled I was that NOAA had refused to allow 
interim measures for the 2013 fishing year for Gulf of Maine 
cod and Gulf of Maine haddock. In my view, interim measures 
were a legitimate tool in the toolbox that was not used.
    And we have a situation right now, just looking at the 
numbers, the number of acting fishing boats in New Hampshire 
has been decimated from 26 in 2010, to 14 this year, and this 
past summer only four were fishing. They are leaving the 
fishing--they are leaving the fishery at an alarming rate. As 
you and I talked about when we met, this is a noble, noble 
group of individuals who, many of them, have fished for many 
generations.
    And so I want to ask you, when we think about in the fact 
that we did not grant, that NOAA did not grant the interim 
measures, what action does NOAA plan to take to sustain our 
fishing industry in New Hampshire beyond 2013?
    Dr. Sullivan. Thank you, Senator. This is a very, very 
important issue and I very keenly appreciate both the iconic 
stature of these communities and of this industry in the New 
England region and in your state in particular, and the fact 
that, when we make these fisheries decisions, we are making 
real decisions that affect real people and real livelihoods. I 
am keenly aware of and sensitive to that and I promise you I 
will remain so.
    We will use every tool that we have at our disposal legally 
and otherwise. And as I said to you in our private meeting, I 
am confident that John is turning over every stone, working 
creatively and collaboratively, with fisherman, shore-side 
processors as well, in the region to do all that we can to help 
them through this very difficult time. Weathering the cuts that 
were required by Magnuson is definitely a big challenge that we 
recognize fully.
    Senator Ayotte. Well, as you know, as we talked about when 
we met, our Attorney General, a position that I once held, and 
our Governor have now sued over these regulations and I fully 
support them. Because I support the lawsuit, because I've seen 
the devastation to our fishermen.
    And one of the concerns that I have is, it seems to me that 
NOAA is not balancing both standards. Because if you look at 
the National Standards, you have National Standard 1 that 
focuses on conservation of our fish stocks, but you also have 
National Standard 8, which focuses on making sure that we are 
taking into account the importance of the fishery, the fishing 
communities, and providing for the sustained participation of 
such communities.
    And so I would ask you, right now I don't see how you can 
cut someone's quota 78 percent, not grant interim measures, how 
that is really a fair balance of those two Standards. So in 
your position that you are nominated for, how do you plan to 
balance those standards so that we aren't putting fishermen and 
women out of business?
    Dr. Sullivan. Senator, we don't have a magic figure in mind 
for the perfect balance point between those standards. If 
confirmed, I will certainly follow what guidance the court may 
issue in that matter that your state and Massachusetts have 
tendered and maintain an open and transparent and, I hope, 
collaborative and productive relationship with you and the 
members of this Committee. And increasingly, a trusting and 
open relationship with fishermen in your region to be sure 
that, together, we are finding the right balance points on 
those mandatory standards.
    Senator Ayotte. Will you come to New Hampshire and meet 
with our fishermen and women? Because I would hope that you 
would come meet these people who have worked incredibly hard, 
who are being put out of business, so that you can put a face 
to the individuals and families that are being affected right 
now by the Catch Shares rule and the way that it is being 
implemented.
    Dr. Sullivan. I have met with a small number of New 
Hampshire fishermen when I was up in the state a few months ago 
to visit the University of New Hampshire and our hydrographics 
center. Administrator Bullard has spoken with me about possibly 
joining him to meet folks in some of the communities as well. I 
would look forward to that opportunity.
    Senator Ayotte. Good. We would love to have you there.
    And then finally, one of the issues that you and I talked 
about is the--having good research about what the stocks 
actually are and how will you plan to improve the science 
behind measuring fish stocks so that we can make sure that we 
are getting accurate measurements when we think about these 
quotas and what they do to the livelihood of our fishermen and 
women.
    Dr. Sullivan. That's a problem we remain diligent about and 
need to continue to press forward on, Senator. It is partly a 
question of resources, the demand for virtually all of NOAA's 
services across the board are continuing to increase and I know 
you appreciate the dilemma that that poses in these difficult 
fiscal times.
    We are working increasingly with cooperative research with 
fishermen in the area, making sure that we have their best 
available collective knowledge about the state of the fishery 
as well. And of course we don't rely just on NOAA research, but 
on any and all of the best published, peer-reviewed scientific 
literature to guide our decisions.
    Senator Ayotte. But I would also say that obviously with 
the disaster declaration that we hope will be supported for our 
fishermen, it would be better to allow them to fish. So that 
would be a fiscally responsible decision, too.
    So I thank you. I look forward to the follow up on this and 
I hope that we can find a resolution that allows out noble 
fishermen and women to continue fishing in New Hampshire and 
throughout New England.
    Senator Nelson. Senator, that problem is not only in New 
England, but all across the coastal United States. And of 
course in the cutback of funding, it has made it critical, in 
order to get the funds to do the research, to more concurrently 
address what is the actual number of the fishery.
    Now, help is on the way. And it is as a result of the 
RESTORE Act, of which 2.5 percent is set aside in the RESTORE 
Act and I will quote from that Act. And the legislative intent 
is to, ``Carry out research, observation, and monitoring to 
support the long-term sustainability of the ecosystem, the fish 
stocks, the fish habitat, and the recreational, commercial, and 
charter fishing industry.''
    Specifically, that legislative intent was put in by me with 
regard to the Gulf of Mexico, where we've had a substantial 
problem as well. But once the Judge decides in Federal Court in 
New Orleans what is going to be the penalty assessed against 
BP, and assuming that the appeals run fairly quickly, then that 
money flows, 80 percent of that money flows through the RESTORE 
Act itself. And 2.5 percent of that--let's say the fund can go 
anywhere from $5 to $20 billion dollars. So if you just take a 
midpoint of a $10 billion fine, as you can see, that's starting 
to be some real money for this purpose.
    And as you have very cogently and very pointedly brought up 
the problem with your fish stocks, it is this Senator's hope 
that, with this infusion, they can do the assessments of those 
fisheries in a timely fashion, instead of what has been the 
case in the past where, under the Magnuson-Stevens Act, they 
are dealing with 6 year old data. And that's my hope. So thank 
you----
    Senator Ayotte. Well----
    Senator Nelson.--for bringing that up.
    Senator Ayotte. Thank you, Chairman. And I'm very glad that 
we are going to allocate those resources for better research. 
And the worry that I have, and I know you share, is that those 
resources which are important for having current data on our 
stocks, it could be too late for our fishermen.
    So I think that, in light of the fact that we are going to 
put additional resources to getting better research toward 
this, we need to also, in the interim, make sure that we aren't 
putting them all out of business while we are trying to figure 
this out.
    So I look forward to working with you on that and I know 
that you care deeply about that, too, so thank you.
    Senator Nelson. Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much. Dr. 
Sullivan, a year ago the Commerce Department took the 
unprecedented step in declaring a prospective fishing disaster 
for the New England ground fish fishery. That disaster has 
become a reality.
    At the start of this year, House Republicans blocked 
funding for disaster aid for the New England fishery and others 
around the country also had disaster declarations. I am 
continuing to work with my colleagues across New England to 
find money for our struggling fishermen. We have also asked the 
administration to work across agencies to mobilize resources 
that could help our fishermen and the communities that depend 
upon them.
    Will you commit to working within Commerce and with other 
agencies to find ways to help our fishermen, even as we try to 
overcome opposition in Congress, to disaster fishing?
    Dr. Sullivan. Thank you for that question, Senator. We very 
much appreciate the work that you and others have done in this 
chamber to provide some funding for the declared disasters that 
exist around the country.
    I will certainly commit to working with you to find any and 
all solutions that might be brought to bear on helping 
fishermen get through these tough times.
    Senator Markey. Thank you. Now, New England is also home to 
one of the great fishery rebuilding success stories. The 
Massachusetts Sea Scallop fishery has gone from being closed in 
the 1990s to one of the top valued fisheries in the United 
States today. That achievement came about from collaboration 
between fishermen and scientist to improve management of the 
fishery.
    What is your vision for cooperative research to help meet 
NOAA's mission?
    Dr. Sullivan. The scallop fishery is a great example, 
Senator. It was a very cooperative, productive relationship 
between NOAA and the Fisheries Management Council and the 
fishermen. It reflects tremendous ingenuity on the part of the 
industry and it reflects very collaborative efforts, both on 
the research side and, as you know, on the marketing side.
    Once upon a time, not all that long ago, scallops went for 
something under 50 cents a pound, 38 cents or so, I believe. No 
one wanted them. And look at the value they have now in the 
marketplace and how much we all appreciate them on our 
restaurant plates. That is one of the stories, in his own past, 
that I know motivates John Bullard in his work in the 
Northeast. To continue to improve relationships with the 
fishermen, the communities, the shore-side processors in the 
New England region, work collaboratively on research out on the 
sea, and work together very collaboratively to advance new 
markets for fish stocks.
    Senator Markey. And finally, Dr. Sullivan, our nation's 
weather is becoming more extreme, at great cost in damages and 
sadly in lives lost as well. Scientists are very clear that 
climate change is contributing to many of these extreme events.
    Could you explain how NOAA's climate work contributes to 
NOAA's weather mission and to enhancing public safety and 
keeping the Nation prepared for weather events?
    Dr. Sullivan. I really appreciate that question very much, 
Senator Markey. It's a very tight interplay between the climate 
work that NOAA does and our general mission and responsibility 
to provide foresight to the American people about environmental 
conditions.
    You know, this planet doesn't respect the academic 
boundaries we build in universities between oceanographers or 
atmospheric scientists or chemists, nor does it respect the 
time scales that we find pertinent and convenient in our daily 
lives. It's an integrated system of systems and that's a 
reality that informs how we go about studying and working with 
the climate at NOAA.
    Just to cite one example, if we did not have the 
understanding that we have today of the El Nino southern 
oscillation phenomenon, if we did not have the capability we 
have today to provide outlooks months in advance throughout the 
state of the El Nino, that would affect and that would 
undermine forecasting capability we have for longer range 
outlooks on hurricanes and severe storms through all of our 
seasons. The longer term informs the shorter term and vice 
versa.
    Senator Markey. Thank you, Dr. Sullivan. Dr. Simon, the 
Department of Energy has proposed a complete shutdown and 
elimination of funding for MIT's Fusion Energy Facility. That 
will cause a loss of jobs, loss of graduate students, loss of 
expertise and experimental ability in this important field. The 
Department has said that it needs to shut down its National 
User Facility at MIT in order to pay for the United States' 
contribution to an international fusion project, but the MIT 
facility is the only one in the world that can accomplish some 
key fusion science goals and the international project is 
struggling to meet its construction timetable and budget.
    Before taking irrevocable steps to shut down one of the 
nation's preeminent fusion facilities, I think we should 
develop a roadmap for the country's fusion future so that we 
can make decisions that best serve this scientific field. If 
you are confirmed, will you work to ensure that such a roadmap 
is developed with full input from the research community?
    Dr. Simon. Senator, thank you very much for that question. 
As someone who has had the opportunity to work on the difficult 
issues of, you know, fitting scientific programs within, you 
know, given budgets, I know how important it is to have sort of 
a clear idea of where you're going and who you need to bring 
along with you along the way, which is what a roadmap provides.
    And I certainly, if I were confirmed, I certainly would be 
very interested in working with you and with others to make 
sure that, going forward in the fusion program, which has a lot 
of promise but also involves very complicated and high cost 
facilities, that are very difficult to build, frankly, and 
manage, that we have that kind of roadmap in place and that we 
work cooperatively with people in the academic community, 
people in the industry, as well as people in the Department of 
Energy who are trying to manage this complicated set of issues.
    Senator Markey. Thank you. And finally, Mr. Chairman, thank 
you.
    In 2002, Congress enacted a law that I authored to provide 
potassium iodide to public facilities such as schools and 
hospitals, as well as to the people who live within 20 miles of 
a nuclear power plant. This medication is a cheap and effective 
way to prevent radioactive iodine from causing thyroid cancer 
or other disorders. That was the principle impact after the 
Chernobyl accident.
    But to be most effective, it must be taken within a few 
hours of exposure to the radiation produced during a nuclear 
reactor meltdown. That is why health experts, including the 
American Thyroid Association, recommend that it be pre-
distributed to individual households. That way, people 
evacuating during a radiological emergency could take their 
dose as they leave their homes, instead of waiting an uncertain 
amount of time for an evacuation to be completed.
    The Bush administration's Department of Health and Human 
Services started to implement my law, but then the head of the 
Bush administration's Office of Science and Technology Policy 
ordered implementation to stop and actually said that it would 
be more effective if people just evacuated.
    Although I have tried, on many occasions, to ask this 
administration to reverse that decision and implement the law, 
it has not yet done so. The Pilgrim Nuclear Generating Facility 
is in Plymouth, about 45 miles from Boston. If there was a 
meltdown, not only would you have residents from the vicinity 
of the reactor evacuating the area, you would also have people 
from Cape Cod doing so also. Now, it can take 8 hours to get 
from Cape Cod to Boston in a normal traffic jam many days. Can 
you imagine how long it would take people from all around the 
Pilgrim reactor and the Cape if everyone was trying to escape, 
riding past the actual meltdown?
    It is absurd not to provide people with this medication 
that they can take as they sit in traffic, as they try to 
evacuate. It is absurd in the case of Fukushima, when 
evacuations were ordered hours after significant radiation 
releases began, to withhold this drug from people who might 
need it. And it is absurd that this administration to continue 
to refuse to follow the law and continue to rely on a 
disingenuous misinterpretation of the law that was adopted by 
the previous administration to waive its full implementation.
    I have met with Dr. Holdren and his staff on this matter 
and corresponded with his office and other administration 
officials on several occasions. In March of this year, I joined 
with public health and nuclear safety experts to send a letter 
to Dr. Holdren with a detailed analysis of why the Bush 
administration's decision was flawed. I ask unanimous consent 
that that be included in the record.
    And I thank you, Mr. Chairman, for giving me this 
opportunity.
    [The information referred to follows:]

                                   House of Representatives
                                     Washington, DC, March 28, 2013

Hon. John P. Holdren,
Director, White House Office of Science & Technology Policy,
Executive Office of the President,
Washington, DC.

Dear Dr. Holdren:

    We write to urge you to overturn the decision of your predecessor 
that effectively blocked the implementation of a 2002 law requiring the 
distribution of potassium iodide to public facilities such as schools 
and hospitals as well as to the people who live within 20 miles of 
nuclear power plants in order to protect them against the effects of a 
radioactive iodine release. We believe that a failure on your part to 
do so would be tantamount to a rejection of both sound science and the 
opportunity to learn important lessons from the 2011 nuclear meltdowns 
in Japan.
    Potassium iodide, known by its chemical symbol KI, protects the 
thyroid gland by flooding it with stable iodine so that the gland 
cannot take up the cancer-causing radioactive form that can be released 
during melt-downs of nuclear reactors.\1\ If an earthquake, terrorist 
attack, or accident caused a radiation release in the United States, 
one of the greatest risks to health comes from radioactive forms of the 
chemical element iodine. Children are the most vulnerable because their 
thyroid glands concentrate more iodine on a per unit mass basis than 
adults and are more sensitive to radiation because of their rapidly 
dividing cells.
---------------------------------------------------------------------------
    \1\ http://www.birdflumanual.com/resources/Self_Defense/files/
Guidance%20for%20use%20of
%20KI%20for%20nuclear%20emergency%20USG.pdf
---------------------------------------------------------------------------
    Timing of KI distribution is critical as the drug is most effective 
if used within 3-4 hours of exposure.\2\ According to the Food and Drug 
Administration (FDA), inhalation of radioactive iodine is a significant 
contributor to exposure and is of particular concern for those residing 
in the immediate area of a nuclear accident or otherwise directly 
exposed to the radioactive plume. This means that it is critical to 
distribute KI to residents and local authorities before a radiation 
release happens, rather than scrambling to try to do it afterwards as 
happened during the 1979 Three Mile Island accident, or at Fukushima 
when its distribution was only ordered five days after the nuclear 
accident commenced.\3\
---------------------------------------------------------------------------
    \2\ http://www.fda.gov/Drugs/EmergencyPreparedness/
BioterrorismandDrugPreparedness/uc
m072265.htm
    \3\ See September 29 2011 article in the Wall Street Journal 
entitled ``Japan Officials Failed to Hand Out Radiation Pills in 
Quake's Aftermath''
---------------------------------------------------------------------------
    Section 127 of the Bioterrorism Preparedness and Response Act of 
2002 directed the President to establish a program to make KI available 
free to State and local governments for distribution to residents 
living within 20 miles of a nuclear power plant. Previously, 
distribution was limited to just those within 10 miles, and only to 
states that requested it from the Nuclear Regulatory Commission (NRC).
    The Congress' choice of a minimum 20-mile KI distribution radius 
was driven by its recognition that radiological exposure during a 
nuclear emergency could exceed the ``intervention level'', set by the 
NRC to be 5 rem to a child's thyroid gland, at distances greater than 
10 miles from the event. Despite the 2002 law and a multitude of 
studies and other endorsements related to the use of KI,\4\ your 
predecessor, the late Dr. John Marburger, in a January 22, 2008 \5\ 
memorandum (hereafter referred to as the Marburger memo), chose to 
invoke a novel and erroneous interpretation of Section 127(f) of the 
law, previously rejected by the Department of Health and Human 
Services, to prevent KI distribution. Section 127(f) was included in 
the law to allow halting of KI distribution only if superior radiation 
protection was achieved in the future with a newly-developed drug or 
method. However, instead of citing a new prophylaxis, Dr. Marburger 
declared that evacuation and removal of contaminated foodstuffs were 
``more effective . . . than the administration of KI.'' He used as a 
basis for his decision an analysis prepared at his request by the 
Federal Radiological Preparedness Coordinating Committee (hereafter 
referred to as the FRPCC analysis).\6\
---------------------------------------------------------------------------
    \4\ Please see http://markey.house.gov/document/2011/march-16-2011-
markey-sec-sebelius-regarding-ki for a description of some of these.
    \5\ Decision Memorandum from John H. Marburger, III, Director of 
Office of Science and Technology Policy, January 22, 2008
    \6\ October 23 2007 Paper entitled ``Interagency Technical 
Evaluation Paper for Section 127(f) of the Bioterrorism Act of 2002'' 
prepared by the Federal Radiological Preparedness Coordinating 
Committee, October 23, 2007.
---------------------------------------------------------------------------
    In recent months, and in the context of the Fukushima meltdowns, we 
have reviewed the Marburger memo, the FRPCC analysis, numerous 
documents related to the response to the Japanese catastrophe, and 
other government and academic publications related to the use and 
benefits associated with the administration of KI in the event of a 
nuclear emergency. We have concluded based upon this review that Dr. 
Marburger's original decision was predicated on unrealistic assumptions 
that were flawed at the time it was issued. When viewed through the 
lens of the Fukushima meltdowns, these assumptions seem nothing short 
of absurd. What follows is a summary of our assessment:
1. The decision assumes that catastrophic nuclear events are unlikely 
        to occur in the U.S. because of the robust design of U.S. 
        nuclear power plants.

    The Marburger memo\7\ states that ``A nuclear power plant accident 
that creates public health risks beyond the 10 mile range would be a 
highly unusual catastrophic event,'' and that ``for the types of 
nuclear reactors in use in the United States, there are very few 
accident scenarios that produce [the sort of effects that would require 
the use of KI].'' The FRPCC analysis further states that ``because of 
the construction of nuclear power plants in the U.S., the release of 
radioactive materials including I-131 as a result of either a highly 
unlikely successful terrorist attack or failure of multiple reactor 
safety systems would be a very rare event and would evolve over many 
hours or days . . .\8\
---------------------------------------------------------------------------
    \7\ See page 6 of the Marburger memo
    \8\ See page 8 of the FRPCC analysis
---------------------------------------------------------------------------
    The Mark 1 design of the Fukushima Daiichi reactors is utilized in 
23 nuclear reactors in the U.S. Not only did a catastrophic failure 
occur at multiple reactor units at the Fukushima Daiichi power plant 
within hours of the loss of offsite power, but additionally, so did the 
first radioactive releases \9\ from these facilities. It has also 
become clear \10\ that initial estimates of the radiation released were 
lower than what actually occurred, which raises questions about whether 
the protective measures that were ordered were adequate.
---------------------------------------------------------------------------
    \9\ See, for example, page 230 of http://pbadupws.nrc.gov/docs/
ML1117/ML11175A277.pdf which is one of many such timelines obtained by 
NRC officials from TEPCO, the owner of the Fukushima Daiichi nuclear 
power plant, that indicate that the earthquake occurred at 2:46 PM 
Japan time on March 11 and that a radiation release was suspected about 
11 hours later. Additionally, the November 2011 ``Special Report on the 
Nuclear Accident at the Fukushima Daiichi Nuclear Power Station'' by 
INPO notes that radiation levels of 50-120 mrem/hour were measured at 
the Unit I doors about 9 hours after the earthquake.
    \10\ http://www.businessweek.com/news/2011-10-27/fukushima-station-
discharged-more-radiat
ion-than-estimated.html and http://mainichi.jp/english/english/
newsselect/news/20130222p2a
00m0na009000c.html
---------------------------------------------------------------------------
    We agree that catastrophic releases of radiation are likely to be 
rare events in any country. We do not believe, however, that the design 
of U.S. nuclear reactors renders these events to be impossible within 
the U.S., or that their small likelihood justifies a failure to prepare 
adequately.
2. The nuclear accident scenario used as a basis for the Marburger 
        decision is unrealistic.

    The FRPCC analysis modeled a nuclear accident scenario that assumed 
a ``design basis'' accident \11\ containment leakage, or in other 
words, the sort of radiation release that would occur under a ``design 
basis'' accident scenario.\12\ This artificial constraint should not be 
used as the basis for any policy that is designed to be protective of 
human health in case a beyond design basis accident such as that at the 
Fukushima Daiichi nuclear power plant should occur.
---------------------------------------------------------------------------
    \11\ See page 16 of the FRPCC analysis
    \12\ http://www.nrc.gov/reading-rm/doc-collections/cfr/part050/
part050-appj.html
---------------------------------------------------------------------------
    In an April 15, 2011 letter \13\ to the Nuclear Regulatory 
Commission (NRC), Rep. Markey asked whether any of the nineteen events 
(i.e., stronger than expected earthquakes and tsunamis, hydrogen 
explosions, etc.) believed to have occurred at the Fukushima Daiichi 
nuclear power plant are currently within the NRC's ``design basis.'' 
The NRC's response \14\ indicated that only three of these nineteen 
events were fully considered to be within its design basis, meaning 
that one cannot assume that either U.S. nuclear reactors' designs or 
NRC regulations protect against any of the other sixteen from 
occurring.
---------------------------------------------------------------------------
    \13\ http://markey.house.gov/document/2011/april-15-2011-letter-
nrc-reagrding-fukushima-inspections
    \14\ http://markey.house.gov/document/2011/august-11-2011-nrc-
response-inspection-questions
---------------------------------------------------------------------------
    It is also worth noting that the ground motion at the North Anna 
nuclear plant due to the 2011 Virginia earthquake exceeded the design 
basis for that plant.\15\
---------------------------------------------------------------------------
    \15\ See for example http://www.virginiabusiness.com/index.php/
news/article/nrc-inspectors-say-earthquake-did-not cause-significant-
damage-to-north-ann/314466/
---------------------------------------------------------------------------
    Continuing to base any decision on whether to distribute KI on a 
model that assumes that natural disasters, terrorist attacks or other 
accidents will never exceed the design-basis severity for those events 
flies in the face of recent history.
3. The Marburger decision is based on unrealistic accident timing and 
        evacuation scenarios.

    The FRPCC analysis \16\ states that ``for dominant scenarios, the 
offsite release of fission products may be delayed for 24 hours or 
longer from the start of an event,'' and that the scenario analyzed 
does not result in a large release of radiation for more than 20 
hours.\17\ The analysis thus concludes that if evacuations are 
initiated within 12 hours of the event, that the populations that might 
be impacted by radioactive iodine would be able to be relocated before 
the plume (which is assumed to be traveling at 5 miles per hour) 
arrives. Finally, the analysis assumes that 99 percent of those 
directed to evacuate would do so as directed, and uses a KI-efficacy 
assumption that expects that when populations were ordered to be 
evacuated, they might stop at KI stockpiling centers along the way in 
order to obtain any recommended dosages.
---------------------------------------------------------------------------
    \16\ See page 10 of the FRPCC analysis
    \17\ See page 14 of the FRPCC analysis
---------------------------------------------------------------------------
    In stark contrast to the theoretical scenario devised by the FRPCC, 
what actually occurred in Japan was quite different: The area had been 
devastated by the earthquake and tsunami, making evacuation and 
communication difficult. Radiation releases began within about 11 hours 
of the earthquake, the accident proceeded to intensify thereafter \18\ 
and the radioactive releases continued for some time until the reactors 
were brought under control.
---------------------------------------------------------------------------
    \18\ See, for example, page 230 of http://pbadupws.nrc.gov/docs/
ML1117/ML11175A277.pdf which is one of many such timelines obtained by 
NRC officials from TEPCO, the owner of the Fukushima Daiichi nuclear 
power plant , that indicate that the earthquake occurred at 2:46 PM 
Japan time on March 11 and that a radiation release was suspected about 
11 hours later. Additionally, the November 2011 ``Special Report on the 
Nuclear Accident at the Fukushima Daiichi Nuclear Power Station'' by 
INPO notes that radiation levels of 50-120 mrem/hour were measured at 
the Unit I doors about 9 hours after the earthquake.
---------------------------------------------------------------------------
    Moreover, it took the NRC five days to order the evacuation of U.S. 
citizens within 50 miles surrounding the stricken reactors.\19\ The 
Japanese government first ordered a mere 11.8 mile evacuation zone 
about 7 hours after the earthquake,\20\ instructed those living between 
1.8 miles and 6.2 miles to stay indoors after about nine hours,\21\ 
ordered all living within 6.2 miles to evacuate after about 16 
hours,\22\ and only broadened that to a 12.4 mile evacuation zone about 
26 hours after the earthquake, which was also several hours after the 
first hydrogen explosion occurred.\23\ In fact, a recent article \24\ 
indicated that ``in one area, the level of radiation had surged to more 
than 700 times the normal level, indicating that many local residents 
were exposed to high levels of radiation before they evacuated.''
---------------------------------------------------------------------------
    \19\ http://www.nrc.gov/reading-rm/doc-collections/news/2011/11-
050.pdf Other countries ordered similar measures. Please see, for 
example, page 257 of http://pbadupws.nrc.gov/docs/ML1128/
ML11285A009.pdf
    \20\ http://www.tepco.co.jp/en/press/corp-com/release/11031106-
e.html
    \21\ http://www.tepco.co.jp/en/press/corp-com/release/11031203-
e.html
    \22\ http://www.tepco.co.jp/en/press/corp-com/release/11031211-
e.html
    \23\ http://www.tepco.co.jp/en/press/corp-com/release/11031227-
e.html
    \24\ http://mainichi.jp/english/english/newsselect/news/
20130222p2a00m0na009000c.html
---------------------------------------------------------------------------
    Japan also failed to order the distribution of KI until five days 
after the accident began,\25\ which may well have lead to an increased 
future risk of thyroid cancer and other thyroid disorders for the 
exposed population. This possibility is borne out by projected dose 
analysis: In May 2012, the Japanese Ministry of Education released \26\ 
a map of the projected dose of radioactive iodine to infants under a 
year old, which indicates that a greater than 5 rem dose may have been 
experienced tens of miles away from the reactors. Problems with 
evacuation and communications during a crisis are not unique to Japan; 
The mass confusion and failures of the U.S. federal, state and local 
governments during Hurricane Katrina led to unnecessary deaths and 
other harm. And a 2003 report by former FEMA Commissioner James Lee 
Witt, entitled ``Review of Emergency Preparedness of Areas Adjacent to 
Indian Point and Millstone,'' \27\ concluded that the NRC's emergency 
response plans assumed that people would comply with directions they 
were provided with and ``do not consider the reality and impacts of 
spontaneous evacuation,'' meaning that individuals ordered to evacuate 
might not do so in the manner they were directed and that others 
directed to stay in their homes would choose to evacuate anyway. This 
could lead to greater than expected traffic flow and a failure to 
execute a timely evacuation of the area before radiation reached it.
---------------------------------------------------------------------------
    \25\ See September 29 2011 article in the Wall Street Journal 
entitled ``Japan Officials Failed to Hand Out Radiation Pills in 
Quake's Aftermath''
    \26\ Please see the maps linked at http://ex-skf.blogspot.com/2011/
05/ministry-of-education-quietly-released.html
    \27\ http://www.nirs.org/reactorwatch/emergency/epwittrpt2003.pdf
---------------------------------------------------------------------------
    Recent experience related to the evacuation of large populations 
faced with a pending emergency--or even a severe snowstorm--makes clear 
that these events never go as they should. Assuming otherwise ignores 
this history, and places these populations at unnecessary risk of harm.
4. The Marburger decision ignores the most rational scenario for KI 
        use.

    The FRPCC analysis models two basic scenarios \28\ to evaluate the 
effectiveness of KI distribution: (1) the population is evacuated and 
does not take KI or (2) the population is not evacuated and does take 
KI.
---------------------------------------------------------------------------
    \28\ See, for example, Figure 1.1 of the FRPCC analysis
---------------------------------------------------------------------------
    Scenario 1 ignores the possibility (discussed above) that 
communication failures, a more rapidly developing radiation release 
than anticipated, or other problems could severely hinder any ordered 
evacuation. KI must be taken within a few hours of exposure to be most 
effective. Thus, if a radioactive plume moves more quickly than an 
evacuation for any reason, the exposed populations will not gain the 
same benefit from simply taking the medication later if they do not 
have access to it at the time at which they are exposed.
    Scenario 2 assumes that it is possible that a release of 
radioactive iodine severe enough to require the administration of KI 
could occur but that an evacuation would not also be ordered. Since KI 
does not protect against the effects of any radioisotopes other than 
radioactive iodine, and since a release of radioactive iodine would 
likely be accompanied by a release of other dangerous radionuclides, 
this scenario seems somewhat unlikely.
    Our belief is that neither of the scenarios contemplated in the 
FRPCC analysis is the one that should have been analyzed. Rather, we 
believe it should have analyzed the scenario assumed throughout the 
2004 National Academy of Sciences (NAS) report ``Distribution and 
Administration of Potassium Iodide in the Event of a Nuclear Incident'' 
that ``the need for administration of KI is necessary only once to 
protect the thyroid gland against inhalation of radioiodine from a 
passing plume (cloud) and that further protection from radioiodine will 
be accomplished by evacuation and control of contaminated milk and 
other foods.''
    In other words, people at risk of exposure to radioactive iodine 
could be directed to take KI as they evacuated, not as a substitute for 
evacuation. We believe the Marburger decision failed to analyze the 
benefits associated with this most rational scenario for KI use.
5. The Nuclear Regulatory Commission staff supports pre-distribution of 
        KI--at least to themselves.

    NRC staff members who were sent to Japan to assist with the 
response efforts were all given KI in case it was needed, even though 
the majority of them were not expected to get closer to the stricken 
reactors than Tokyo.\29\ The decision to pre-distribute KI to these 
individuals was a prudent measure, since it was unclear at the time how 
severe the radiation releases could get. The same logic should be 
applied to protective measures for residents surrounding nuclear power 
plants in this country.
---------------------------------------------------------------------------
    \29\ See for example page 91-95 of http://pbadupws.nrc.gov/docs/
ML1124/ML11244A167.pdf According to private communications between 
Congressman Markey's staff and NRC staff, a small number of the roughly 
two dozen U.S. NRC personnel deployed to Japan since the earthquake did 
leave Tokyo. One toured a staging area 12 miles away from the reactor 
in early April, and subsequently took van tours to the Fukushima site 
in both early May and mid-July. This individual spent about 10 minutes 
inside the undamaged units 5 and 6 reactors. Another two individuals 
also toured the staging area 12 miles away in mid-June and took a van 
tour of the Fukushima site, but did not leave the vehicle they were in. 
These three individuals wore full protective gear, including 
respirators, during their tours.
---------------------------------------------------------------------------
    In its October 3 paper number SECY-11-0137 entitled 
``Prioritization Of Recommended Actions To Be Taken In Response To 
Fukushima Lessons Learned,'' NRC staff recommended to the NRC 
Commissioners that ``pre-staging of potassium iodide beyond 10 miles'' 
be added to the list of potential regulatory changes being considered 
for the future.
    While we believe the 2002 law already requires such pre-staging, we 
nevertheless commend the NRC staff for their recognition that the 
current 10 mile distribution zone may not be sufficient when confronted 
with Fukushima-scale radiation releases and Fukushima-caliber 
evacuation and communications challenges.
6. Many scientific and public health experts believe KI should be more 
        widely distributed.

    Section 127 of the 2002 Bioterrorism law required a study by the 
National Academy of Sciences on the use of potassium iodide. In 2004, 
its report, Distribution and Administration of Potassium Iodide in the 
Event of a Nuclear Incident, concluded that ``KI should be available to 
everyone at risk of significant health consequences from accumulation 
of radioiodine in the thyroid in the event of a radiological incident . 
. . To be most effective, KI must be taken within a few hours before or 
after exposure to inhaled or ingested radioiodine . . . KI distribution 
should be included in the planning for comprehensive radiological 
incident response programs for nuclear power plants. KI distribution 
programs should consider pre-distribution, local stockpiling outside 
the emergency planning zone (EPZ), and national stockpiles and 
distribution capacity.''
    The American Thyroid Association (ATA), the leading worldwide 
organization dedicated to the advancement, understanding, prevention, 
diagnosis and treatment of thyroid disorders and thyroid cancer 
recommends the pre-distribution of KI to residents located within 50 
miles of a nuclear reactor.\30\
---------------------------------------------------------------------------
    \30\ http://www.thyroid.org.professionals/advocacy/documents/
2011_03_30_ATA_Kloos_
Holdren.pdf
---------------------------------------------------------------------------
    We believe that the decision made by your predecessor to assert 
that the wider distribution of potassium iodide directed in Section 127 
of the Bioterrorism Act is not needed because evacuation and 
contaminated food interdiction are more effective at mitigating the 
potential health effects associated with exposure to radioactive iodine 
was based on flawed science and assumptions that have been shown by the 
events of Fukushima to be highly unrealistic. To perpetuate this 
decision would require a willful effort to ignore the lessons that 
should be learned from the Japanese catastrophe. We urge you in the 
strongest possible terms to overturn it.
            Sincerely,

Edward J. Markey
Member of Congress

Bryan R. Haugen, M.D.
President
American Thyroid Association

John C. Morris, M.D.
Secretary/COO
American Thyroid Association

Catherine Thomasson
Executive Director
Physicians for Social Responsibility

S. David Freeman

Barbara R. Smith, CAE
Executive Director
American Thyroid Association

Thomas B. Cochran, Ph.D.
Consulting Senior Scientist, & former
Nuclear Program Director
Natural Resources Defense Council, Inc.
  
  

    Senator Nelson. By the way, Senator Markey has the 
distinction of having gone from the position of the most senior 
member of the House Commerce Committee to the least senior 
member of the Senate Commerce Committee.
    And you asked a tremendous question about sodium iodide. 
Now, we are not so concerned right around here and in many 
other cities that are not within 20 miles of a nuclear reactor. 
And the industry is pretty safe at this point, but we are 
concerned about a dirty bomb.
    So I'd like to ask the two of you going to OSTP, what is 
the advisability of having sodium iodide handy in the case of a 
dirty bomb and is it--what is unique about a nuclear facility 
with regard to radioactive iodine? And is that the kind of 
radiation that comes out of the nuclear facility that the 
sodium iodide would be an anecdote for as opposed to a dirty 
bomb? Your comments, for the record, please.
    Dr. Simon. Sure. Thank you, Mr. Chairman, for asking that 
question. And I think that that's a--it's a question that 
actually has kind of come up because people have looked at 
various different kinds of potential nuclear accidents and 
tried to sort of distinguish between them and figure out what's 
the most important problem involved with that.
    You know, clearly during the operation of a nuclear power 
plant, you know, a variety of isotopes are created by the 
nuclear reaction and one of them is radioactive iodine. So in 
the context of a catastrophic accident at a nuclear power 
plant, it is possible to have a substantial release of 
radioactive iodine. Your body metabolizes it through the 
thyroid gland and so obviously, if you were exposed to a pulse 
of radioactive iodine, it will go to your thyroid and 
potentially cause problems.
    And as Senator Markey pointed out and others have pointed 
out, if you, you know, shortly before or after, you see that 
pulse of radioactive iodine, if you take a large amount of 
potassium iodide, sodium iodide, whatever, usually it's 
potassium iodide, it sort of occupies all of the sites in your 
thyroid gland that the iodine would otherwise settle in. So it 
sort of has a sort of temporary blocking effect, until your 
exposure to that radioactive iodine has passed.
    Now in the case of a dirty bomb, I guess the answer to the 
question is sort of, it depends. Not every dirty bomb is going 
to actually, you know, create a large pulse of radioactive 
iodine that you would be associated with. So it may not be 
actually a useful sort of prophylactic thing to do in that 
sense because, you know, dirty bombs are certainly different in 
what happens on a nuclear basis than what happens in a nuclear 
power plant.
    Senator Nelson. Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman, and thanks for 
letting us have a second round here. I want to go back to Dr. 
Sullivan, thank you.
    I think a lot of my colleagues are asking you questions 
because I think it shows the significance of a coastal economy 
to our Nation. And you know, I was able to ask you a little bit 
about the science and research you would be willing to put 
behind the shellfish industry, but I wanted to also ask you if 
you are committed to helping the industry grow. It is about--
more than 3,000 jobs in Washington State and about $270 
million.
    And the reason I am asking that is because one of the key 
issues is, as the industry tries to make progress, and I always 
like to, you know, the geoduck industry, which is phenomenal 
and costs nothing to grow practically, it's outrageous what it 
sells for in Asia these days. You can't even find geoduck 
anymore in the Seattle market, that's how much the export is 
going overseas.
    But as these guys try to figure out how to grow, the 
oversight, without NOAA's leadership, has been up to the Army 
Corps of Engineers who basically says, I don't know how to 
figure this out. So will you commit to having NOAA play a 
leadership role in trying to define how the industry grows and 
overcoming these hurdles with the Army Corps of Engineers?
    Dr. Sullivan. Senator, we see tremendous potential in 
growing the aquaculture industry to help both preserve and 
protect jobs on and near the water and also contribute the 
United States food security. Those are the underpinning points 
of our national shellfish initiative.
    We are working very closely, predominantly out of our 
Milford lab, but also out of our Seattle labs, on helping the 
industry develop new techniques, looking at more efficient 
sustainable feeds, transferring that technology to industry 
and, to your last point, very much working to try to streamline 
the permitting process and make sure that is a clearer easier 
path and that the scientific expertise that NOAA can contribute 
to that is brought to bare.
    Senator Cantwell. So you commit to playing a leadership 
role then and not letting this just be Army Corps of Engineers 
gray area?
    Dr. Sullivan. There are, I believe, some jurisdictional 
issues that drive some of that, but we understand our role and 
take our role very seriously in helping lead on the development 
of aquaculture in the United States.
    Senator Cantwell. Great, thank you. And on, you know, part 
of our challenge here has been just where NOAA has been on 
nominees. Obviously, your position as administrator then--the 
issue of your former post and then obviously the deputy 
assistant secretary and so all of this has led to many rungs 
down on the ladder not also being fulfilled.
    And one of the challenges we've seen is in getting an 
appointment for the Halibut Commission. So this has been open 
for 2 years and this has been a big challenge to move forward 
on policy and process. So I guess I'm asking you whether you 
will commit to resolving that issue in a quick time period.
    I mean, there's going to be disputes about who thinks, you 
know, what the Halibut Commission should look like, but the 
issue is not to let that controversy stalemate us in getting a 
nominee.
    Dr. Sullivan. I certainly agree with you on that point, 
Senator, and I very much recognize the importance of the 
International Halibut Commission to key fisheries in the 
northwestern waters of the United States.
    I do commit to working with you to make sure that moves in 
as timely a fashion as possible and we will keep your staff 
closely informed of all updates that we get.
    Senator Cantwell. OK. And then I guess my last question--
and again, thank you for answering all of these in detail, but 
again, it just shows you how critical this industry is to the 
Pacific Northwest, will you use your leadership at NOAA to 
drive a targeted research for the at-risk species like Alaska 
King Crab and will you work to leverage some of the 
institutions that are already in place, like the Ocean 
Acidification Center at the University of Washington? 
Obviously, NOAA and the UDub work very closely together, but 
what we are trying to do is leverage more of this research to 
move forward. We are very proud of what the Pacific Northwest 
has done on fisheries management issue.
    When I listen to my colleagues on the other side of the 
aisle, we are ahead in recovery and sustainability, but we want 
to keep moving and obviously we have threats today. So will you 
commit to helping drive targeted research of these species that 
are at risk and using outside resources to help understand 
impacts?
    Dr. Sullivan. We certainly value the partnerships that we 
have at the University of Washington, Senator, and we need the 
range of talents and the diversity of views that our University 
partners like UDub can bring to bear. So I do place quite a 
premium on working cooperatively with outstanding institutions 
in our states and regions.
    I am not familiar with the finer points of the details of 
all of our fisheries research programs at this moment. If you 
will, I would ask to follow up with you on the question of 
species, targeted species research.
    Senator Cantwell. Well, I think what we are trying to--you 
know, Senator Collins and I had passed a bill out of this 
Committee several years ago on climate adaptation, basically 
just saying to agencies, no matter what you think of the larger 
political issue of how the climate is changing, we have to have 
some adaptation policies.
    And I guess what I'm asking you is, as it relates to ocean 
acidification, what are the species at most risk and what do we 
need to do? And again, going back to that science that 
prevailed from the buoy information, we were able to identify a 
better seeding process to then----
    Dr. Sullivan. Right.
    Senator Cantwell.--save the shellfish industry. So I guess 
what we're saying is, you know, targeting some of the most at-
risk species like Alaskan King Crab and figuring out what we 
need to do in relationship to that to help that particular 
species survive.
    Dr. Sullivan. You've asked me a question beyond the level 
of detail that I normally operate at, Senator. Let me pledge to 
get back with you on that.
    Senator Cantwell. OK, all right. Thank you, Mr. Chairman.
    Senator Nelson. Thank you, Senator. Well, I'll do the 
clean-up here.
    Dr. Simon, we've had a foreign oil habit in the past. What 
do you see OSTP can do to promote the President's Climate 
Action Plan which includes reducing carbon pollution and making 
the government more energy efficient?
    Dr. Simon. Well, thank you very much for that question, Mr. 
Chairman. As you pointed out, sort of our energy policy in this 
country actually has to operate on a number of different 
facets. It has to operate on a level of making sure that we 
utilize our energy as efficiently and effectively as possible 
and obviously we have to keep in mind that there is this 
balance that we have to strike between our energy policy 
objectives and our environmental policy objectives. They are 
both important and we need to make sure that we, you know, 
accomplish both of them.
    I think that we've had, you know, in the last couple years, 
some successes in moving the needle on our foreign import 
dependence. In 2005, we were 60 percent dependent on foreign 
oil imports on a net basis. Last year, we were 40 percent 
dependent, OK? That's a big Delta. And there are a couple of 
reasons why that happened.
    OK, one reason is we became more efficient. Cars and 
trucks, particularly light-duty vehicles, use less oil and gas, 
use less petroleum, to go than they did before. So our 
improvement in the energy efficiency in cars, which is driven 
in large part by the 2007 Act and the work of this Committee in 
providing a framework for increase in fuel economy standards, 
was a big part of that.
    Another big part of that is that we've seen, through the 
power of technology, increased domestic production of oil, 
particularly petroleum and gas. In the last year, we had a 15 
percent growth in our domestic reserves of oil.
    And so these elements, you know, more efficient use, more 
supply, a more diverse supply, you know, we have more ethanol 
in our gasoline stream now than we did 10 years ago. About 10 
percent of our gasoline is ethanol. Those have all come 
together to drive down our import dependence and will continue 
to do so. And I think that the President is committed to 
progress on all those fronts and I think that it will make a 
difference in the future, in terms of our energy security and 
our economic security.
    Senator Nelson. Dr. Handelsman, one of the things we need 
to do is to translate federally funded scientific discovery out 
into new companies. Give us some of your ideas.
    Dr. Handelsman. Thank you for that question, Senator 
Nelson. I think this has been an area of increasing interest in 
the Federal agencies that fund our fundamental research. There 
is no question that the basic research is what fuels many of 
the companies and much of the technology that we've seen 
develop over the last 50 or 60 years in this country. So I 
think the basic research engine has to be kept strong for that 
to be a robust process.
    But in addition, a number of the agencies have developed 
programs focused on translating basic research into 
applications. My understanding is that those are very 
successful programs. A recent one at NSF, the I-Corps program 
has a new experiment, but I think it provides an interesting 
model to analyze. Any decisions that we make on that, I would 
want to see data about. I think we need to very carefully look 
at the efficacy of programs of that sort. And since I haven't 
seen an evaluation, I wouldn't advocate one or another right 
now, but that is something I would really look forward to 
working with you on, Senator.
    Senator Nelson. How would you characterize STEM education 
in the U.S. today?
    Dr. Handelsman. Well, thank you for your question. And of 
course, I've studied quite a lot and have a great interest in. 
STEM education today, I think, is still strong but is faltering 
and we need to make some radical changes in the way that we 
teach and the programs that we offer for those who teach, as 
well as the students, at every level.
    I think the current strategic plan from the administration 
is quite robust, focuses on the three goals of producing 
100,000 more STEM teachers and a million more STEM graduates at 
the college level, as well as public outreach in STEM. And I 
think that plan has many, many elements that will radically 
change the STEM system.
    In particular, I think we need to focus on the college 
education we offer because, in college, we see a 60 percent 
attrition of students who start college interested in STEM but 
graduate in other fields. If we simply reduced that 60 percent 
loss to 50 percent, we would be three-quarters of the way 
toward the increased production of STEM majors that the 
President has targeted of one million majors in the next 
decade.
    Senator Nelson. With all of the many scientific priorities, 
how do we go about making sure that our research agencies 
adequately address the multitude of issues that are in front of 
us?
    Dr. Handelsman. Well, thank you for your concern on that 
issue, Senator. It is one that I certainly share. And I think 
that one thing that we can use is the collaborative nature of 
the agencies as well as the convening power of OSTP to foster 
those collaborations.
    And one of the things that I think we perhaps don't do 
enough of in the research world as well as in the funding world 
is work across agencies to identify priorities and then figure 
out strategic investments that balance the strengths of the 
different agencies and avoid duplication.
    So I think that's a process. I don't think there is a 
single answer to it, but it takes rigorous review of the 
anticipated changes that our Nation is facing, the major 
research initiatives that are needed to confront those 
challenges, and then working with the agencies to collaborate 
on effective research approaches to solve those problems.
    Senator Nelson. Dr. Sullivan, I've talked with you 
privately about the RESTORE Act and the need to get that money 
out in the assessment of the fishery stock, so I won't go into 
that here.
    There is nothing like an approaching storm to focus in the 
attention of the country. And your agency has the tools that 
have done such a tremendous job in the past. As an 
administrator of NOAA, tell us what are your goals to try to 
improve hurricane tracking and forecasting?
    Dr. Sullivan. Senator, that's an absolutely critical 
question near and dear, of course, in particular to your heart 
as a Floridian, I know. We have been working--we work very 
closely with academic partners and our own laboratories to try 
to improve our skill in forecasting both the track and the 
intensity of hurricanes.
    We mounted, some years ago, a hurricane forecast 
improvement program that brings the best scientific minds 
together to identify where the most promising leverage points 
are in both of those arenas and then mount very focused 
observing modeling and research process study efforts to unlock 
those.
    HFIP has produced some very good progress when it comes to 
track and intensity. The error curve on track has gone steadily 
down over the last decade or so. The intensity problem is a 
tougher-to crack, we are honestly not there yet. It is just 
stuck at about the same level we had some decades ago.
    I believe we have a promising capability now in hand, and a 
candidate transition into operations, and that is the Doppler 
radar that we fly in our hurricane research birds through the 
stinger that you're familiar with out of the tail of the P-3.
    So there is not a single answer. It will turn out to be 
both about better understanding and better representation of 
the actual physics of the storm itself, as well as better 
understanding of the larger scale surrounding processes that 
control where a storm moves.
    Senator Nelson. For the Committee's information, explain 
how you can increasingly, in these tight budgets, utilize 
commercial assets. Information, for example, coming off of 
commercial satellites, in order to help improve your tracking.
    Dr. Sullivan. We take advantage of commercial sources for 
targeted weather data today. We purchase data from several 
Mesonets that run wind profilers and lightening sensors in 
different highly populated portions of the country.
    And perhaps most powerfully and innovatively, we work 
collaboratively with private sector entities to equip 
commercial airliners with small instrumentation packages that 
give us measurements, vertical measurements, through the 
atmosphere of temperature and moisture as the two main drivers 
of the energy in the atmosphere as the aircraft make their 
transits and in particular, of course, their climbs and their 
descents.
    We do a lot of that now. There are some potentially 
promising alternatives developing in the corporate sphere as we 
speak. I think my priority as administrator, if confirmed, 
would certainly be to be sure we are staying on top of what new 
private sector arrangements might genuinely be viable, but also 
doing that with a study die. One of the lessons that I learned 
in my astronaut days, and I know it is one that you appreciate 
keenly Senator, is when things are really critical, you make 
sure you make the second connection before you undo the first 
connection. That's how every space walker handles their safety 
tethers, I can promise you that.
    And when it comes to the critical data streams that fuel 
our weather forecast, I believe that is the philosophy that we 
need to follow as well. I look forward eagerly to promising new 
developments that might let us change the equation, but be sure 
we have seen firm proof of their viability before we make a 
change.
    Senator Nelson. Before I turn the Committee over to Senator 
Begich, would you explain the importance of the mission, in a 
few years, of warning us earthlings about a solar explosion?
    Dr. Sullivan. I would be glad to do that, Senator. We, of 
course, live on a planet that orbits a very dynamic star and it 
can send out, periodically, tremendous bursts of radiation and 
chunks, literally large chunks, of magnetic field, streaming 
toward us at millions of miles an hour. There are several ways 
that we monitor and alert our communities to be aware of the 
kinds of impacts that this may have.
    Our GF stationary satellites have instrumentation packages 
aboard them that can detect energetic X-rays and other symptoms 
of the charged particle stream that is coming our way. We and 
the Defense Department and the United States Geological Survey 
operate ground-based networks of magnetometers that can detect 
the currents, the electrical currents that those chunks of 
magnetic field can induce in the earth. Those are of grave 
concern to operators of long-range transmission lines, long run 
pipelines that, from an electrons point of view, are just a big 
long conductor in which you can make charge flow.
    A very vital asset in providing these predictions is also, 
in effect, a weather buoy. A satellite currently called ACE, 
the Advanced Composition Explorer, that sits a million miles 
away from Earth, along the line to the Sun, and basically 
functions as the early warning sentinel when one of these 
blasts is really coming our way.
    So the actual doing of all of this is a very close 
collaboration between our colleagues at NASA, who are 
responsible for the fundamental understanding of the Sun, our 
partners in the Defense Department, who hold the military 
forecasting responsibility for severe weather events, and our 
own Space Weather Prediction Center.
    I should add that the other sector of our economy that is 
very significantly interested in this, of course, is the entire 
space commerce satellite operator segment because these vast 
streams of charged particles can disrupt, damage and destroy 
very precious satellite systems.
    Senator Nelson. Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Senator. Thank you for 
all being here. And I just have a few questions. I appreciate 
you being patient and going through this process of nomination. 
And again, I wish you all the best in the process moving 
forward.
    First, Dr. Sullivan, thank you for, one, coming to Alaska, 
as you have done and the conversations that we have had on many 
issues that Alaska faces. I always joke with the Commerce 
Secretary that half of her job is fisheries. Three-quarters of 
your job is fisheries. There is a lot of satellite activity and 
other things you work on, but my view is fisheries is a pretty 
important issue for us.
    Let me talk to you about one quick issue and this is about 
the whole issue of pirate fishing, basically people stealing 
our fish. I know there is a fancy word for it, illegal, 
unreported, unregulated--no one understands that. They are 
pirates. They steal our fish and then they try to sell it to 
us.
    And so when I look at the issue of the crab industry right 
now, the crab fishery and the Russians and what they are 
starting to do now, and have been doing for some time for us, 
we estimate just alone, in the losses to our fisheries in the 
crab industry, almost a half a billion dollars, by pirate 
fishing as well as claiming to be Alaskan crab which, of 
course, we know from my state that's a premium price. If you 
have Alaskan crab versus Russian crab, Alaskan crab gets 
premium because, of course, it's better.
    So if confirmed, what will you do to help? I know we have 
legislation but, I mean, what can you do from your 
administrative standpoint to have these pirates dealt with? I 
have my way of dealing with them, but that's an Alaska way, so.
    Dr. Sullivan. I think I'm not certified to use your Alaska 
method.
    Senator Begich. We will help you.
    Dr. Sullivan. Pirate fishing is an absolutely vital issue 
that we at NOAA will continue to work on very ambitiously with 
our partners at the State Department and other agencies, as 
appropriate. We work, as you know, very closely with the United 
States Coast Guard. They are our fisheries enforcement 
presence. Surveillance and enforcement is one key part of the 
solution to this.
    But working hard on the international front, through the 
various bilateral agreements and treaty agreements that we have 
is really the other key lever. This is something NOAA has 
worked on very hard over the past 4 years, striking new accords 
with the European Union, among other parties. We continue to 
work it through many of the Pacific region, regional marine 
fisheries organizations. I can assure you it will remain high 
on my radar screen, high on the radar screen of my Assistant 
Secretary for Conservation and Management, and we look forward 
to working with you to find what solutions may be brought to 
bear.
    Senator Begich. Fantastic.
    Dr. Sullivan. It's a long run and a tough problem, but it 
must be solved. Our fishermen deserve a level playing field.
    Senator Begich. Is the State Department working with you? 
Do you think they understand the importance? I know they have, 
you know, higher items on their list every day, it seems, and 
this may not be registering. Do you think it is registering 
enough?
    Dr. Sullivan. I believe it does register. It certainly 
registers very strongly on the radar screen of Assistant 
Secretary Kerri-Ann Jones and we've worked very closely with 
her. And I think we've got the right links within the OES 
division of State to work this issue and the priority to take 
it higher when we need to.
    Senator Begich. OK. As you progress on that, keep us 
informed. And I sit on the Subcommittee on Appropriations for 
State and Foreign Ops and I would be happy to know if there is 
any issues that may need funding capacity, too. So please keep 
us informed.
    Dr. Sullivan. We will do that. Thank you, Senator.
    Senator Begich. You bet. Another issue, and you and I have 
talked about it on fisheries, and that is the whole issue of 
the Arctic and the research capacity. I know there was 
questions earlier about research and vessels and so forth, but 
let me be more specific. You, I think, are aware that I have an 
Arctic Research Bill, 1344, which is trying to get some 
additional resources and capacity and getting the Commission, 
the Arctic Commission, to have capacity for grant making.
    It's kind of a two-part question. First, do you believe 
there is a need for additional research and monitoring within 
the Arctic and the environment and what we are doing there? And 
second to that is, are you familiar enough with my legislation 
to make comment on it at this time? Go ahead.
    Dr. Sullivan. Senator, as the dynamics of the Arctic region 
change, as shipping changes, as nations adjust their policies 
and commercial activity grows, it is going to be absolutely 
indispensable that we have better environmental data from that 
region.
    As you know, we've worked closely with a number of the oil 
companies that have been active in the Chukchi and the Bering 
Sea. We've made cooperative arrangements with them to get some 
additional data. It is something I care about and am concerned 
about very much because the rate of change is frankly faster 
than the rate of program change has been in the past year.
    So I do look forward to working with you to try to move 
forward at the right rate and with the right activities in that 
regard. I am broadly familiar with the outlines of your Bill, 
but not with its finer detail and points. I did have a good 
discussion on some aspects of it with Fran Ulmer when I was 
last up at the state.
    Senator Begich. OK.
    Dr. Sullivan. I would be happy to look at it more closely 
and get you a detailed comment.
    Senator Begich. I would appreciate that. And then on top of 
that, I think the industry--we did something maybe two and a 
half years ago, give or take, where we were able to get several 
of the industry folks to sign an MOU----
    Dr. Sullivan. Right.
    Senator Begich.--with NOAA to share that data, have some 
basic lines of understanding of that the data is that you would 
like to have them look at----
    Dr. Sullivan. Right.
    Senator Begich. So there's not a debate over the data, it's 
looking at the results of the data. And do you believe that has 
been helpful or will be helpful in the future, that kind of MOU 
where industry and agency are working together?
    Because they'll spend, I'm guessing on Shell alone, they'll 
probably spend $50-plus million on research, which, I mean, you 
would probably love a research budget like that for the Arctic. 
But I mean, just to know that they'll do that, do you think 
that that sharing arrangement is going to be helpful?
    Dr. Sullivan. The MOU that we already have with Statoil and 
Shell and ConocoPhillips has definitely been valuable. In the 
first few months of the very first season, it doubled the 
number of weather observations----
    Senator Begich. Fantastic.
    Dr. Sullivan.--in the Chukchi Sea. So that alone is 
indicative of the promise that it offers for the future. As you 
know, it contains many annexes, touching on different 
categories and different disciplines of data.
    Senator Begich. Right.
    Dr. Sullivan. Those have come on in due course and we look 
forward to working with the companies in the seasons ahead to 
get the data from those new agreements. So weather has already 
paid a dividend and I see great promise in the other ones, so 
we will continue with that.
    We have talked about that and factored it into other plans. 
It's something I discussed with other parties up in the region 
on my last trip through the state. I think it's a model of a 
kind of arrangement we can use to an increasing degree.
    Senator Begich. Fantastic, good. Let me ask you, one area, 
as you know, we've had some issues with the EIS and the Arctic, 
the Environmental Impact Statement, on Arctic oil and gas 
drilling.
    Early on, we had many different agencies kind of doing 
their own thing and now there is an interagency working group, 
as you know, among the different agencies that touch the 
Arctic. So there's a--I don't want to call it necessarily a one 
shop stop, but it's a more coordinated effort to understand 
what each agency is doing. I still have some concerns about how 
that EIS is moving forward, but am recognizing that there is 
multiple potential developments going to happen there and that 
the EIS needs to understand that.
    I guess mine is a more fundamental question. I know you and 
I have talked about this and that is, do you believe that, one, 
NOAA needs to continue to be part of that interagency working 
group? And two, does NOAA recognize that oil and gas 
development is moving forward in the Arctic? It's not a 
question of denying oil and gas development, it's about how to 
manage it for the best end-result, environmentally as well as 
economically and job opportunities. I'll let you--it's kind of 
a one, two question.
    Dr. Sullivan. I very much believe that NOAA needs to remain 
engaged with the interagency working group on permitting, 
Senator. Both the scientific expertise that we bring on a 
number of areas and legal responsibilities and mandates that we 
hold really require that we do that, so we will stay engaged on 
that process.
    And with respect to the DEIS, we take your point and 
recognize very much, as the President's recently released 
National Strategy for the Arctic Region says, that energy 
development and expansion of commerce is something that clearly 
is happening and is going to happen in the Arctic region. We, 
as a country, need to be prepared with the right scientific 
information, the appropriate response capabilities from search 
and rescue to spill response, as might be needed, and ready to 
allow that to go forward in a responsible fashion.
    Senator Begich. Fantastic. Let me, if I can, go to two 
quick issues and then I have one last quick question for each 
of the remaining two nominees.
    One is on the Weather Service and the hiring freeze issues. 
You know, I am starting to hear that maintenance issues, 
forecaster slots, I mean, I can go through the list of what's 
happening. I recognize this is a sequestration issue, but tell 
me your sense now of how you look forward with regard to the 
weather service and ensuring that we have the right staffing in 
these very tight financial conditions you're working in.
    Dr. Sullivan. Thank you, Senator. I did implement an 
agency-wide hiring freeze in response to the continued 
uncertainty about both sequestration and the FI-13 
appropriations process. It was an unfortunate but a necessary 
and a responsible management action to take at that time.
    We instituted, at the same time, a board to review any 
needs for mission-critical positions that might come up and 
receive input from any of our operating line units about where 
we needed to be sure that we filled a critical vacancy. That 
group continues to work and we are very focused on making sure 
that we do all we can to not short-key mission priority seats.
    I know you understand the real dilemma here, however. And 
that is the need for and the urgency surrounding the provision 
of NOAA's services across the entire agency continue to go up. 
They go up in response to increasing numbers and intensity of 
extreme events. And in your state, they go up because of the 
rate of environmental change and the expansion of human 
activity in the Arctic region. No business can really carry on 
with customer demand, as you are going up, and income going 
down without eventually doing more with less becoming do less 
with less.
    It is a very real dilemma. I know it faces members of this 
body. It certainly faces all of us charged with managing 
Executive Branch agencies.
    Senator Begich. That's OK. I'll hold my rant here in a 
second on the budget, but the National Marine Fisheries 
Service, are we close, do you think, to having someone in that 
position at some point here?
    Dr. Sullivan. I am working very actively on that, Senator. 
It is one of my absolutely highest priorities.
    Senator Begich. Thank you very much. Let me, very quickly--
Doctor, is it Handelsman? Handelsman? On STEM education, this 
might be more of a commentary, but I just want to make sure you 
know where I'm coming from.
    When it comes to the area of STEM education, I like to call 
it STEAM, Science, Technology, Engineering, Arts, and Math, but 
the important part here that I want to really stress, I know 
the President's last budget wanted to consolidate a lot of 
these. I'm opposed to that, especially around this arena, 
because it's very specialized work. And I know there was, I 
think, five categories kept out in that original 2013 proposal. 
I have no idea what they are planning as they work through this 
next cycle, I just want to make sure you know where I am on 
this.
    As the Chair of the Oceans Subcommittee, I think it is 
critical that we ensure, for example, the Sea Grant program and 
others have access in being able to do what I consider very 
specialized STEM education. That is not when you walk out to 
the mainstream out here, they think of engineers, they think of 
mathematicians, no disrespect to astronauts, but you know what 
I'm saying here.
    And I just really want to stress this point that this--I 
recognize the work of consolidation and I'm all for trying to 
figure out efficiencies, but sometime in efficiencies, you lose 
emphasis. In an area, I can tell you, one that pays good when 
they are working, but we have to have people that are working 
in this field. So I just wanted--I don't know if you have any 
comment, I just wanted to make sure you heard that from me.
    Dr. Handelsman. I appreciate hearing it from you, Senator, 
and I agree with all of the principles that you just stated. 
The consolidation, as you know, was initiated by Congress to 
look at efficiencies and defragmentation of the programs. And 
so I think we all agree on basic principles that were the 
reason for looking at our 226 STEM programs across 13 agencies.
    Senator Begich. Right.
    Dr. Handelsman. And I am completely supportive of the 
efficiency and non-duplication principle, but I think we can 
protect those principles, as you said, without damaging or 
cutting into any of the programs that are specialized in one 
particular agency or another or have been proven to work in 
their current condition or formulation.
    And so I haven't reviewed or heard the nuances of the 
arguments of why the certain consolidation choices were made, 
so I wouldn't want to make a----
    Senator Begich. OK.
    Dr. Handelsman.--a judgment about any one of them at this 
point, but I certainly assure you that I think we need to 
balance the specialized program concerns, particularly in NOAA 
and NASA. I agree they are unique programs.
    I should mention though that in the current budget, I 
believe that the NOAA Sea Grant College Fund are----
    Senator Begich. Are protected.
    Dr. Handelsman. Right, protected and increased and include 
a $10 million increase for the Grand Challenge in Ocean 
Mapping.
    Senator Begich. Absolutely.
    Dr. Handelsman. So I think that was a strong positive.
    Senator Begich. We consider that an A+. Thank you very 
much.
    Dr. Simon, let me--I just want more of a general question. 
You heard the conversation I had with Dr. Sullivan about Arctic 
oil and gas exploration and the President's view. I heard a 
little bit when I came in, Senator Nelson's conversation you 
had, I think, it sounded like the Gulf you were talking about, 
I'm not sure.
    But I want to make sure, in your new role, you understand 
the importance of oil and gas development in the Arctic, 
recognizing there is challenges but recognizing it is 
happening. It's not a question of if it is happening any 
longer.
    Dr. Simon. I do, sir. And I agree with you, I think that 
certainly in the Beaufort and Chukchi Seas, we have tremendous 
offshore resources that are in the process--we are in the early 
stages of trying to develop them. We have to do that in a safe 
and effective way. The President very clearly has that as a 
high priority and I look forward to working with you, and 
anyone else interested, in making sure that happens.
    Senator Begich. Fantastic, thank you.
    Let me end in just, again, thanks to all of the nominees. 
As I said, I won't get on my rant about the budget, but I will 
say one thing. It is a shame that we are at this point. You 
know, we have a budget that has passed the Senate. I didn't 
support it, but it passed. The House passed a budget. And for 
all the politicking in this place, we sure--it seems like we 
could sit down and resolve this budgetary issue. But because of 
just pure partisan politics, we are unable to.
    And it's really a shame and, I think, it's a disgrace to 
the American people that we can't get a budget. After three 
years of being hammered on that we did not have a budget, we 
pass a budget and now we can't sit down, as one another, and 
figure out how to solve this. Not you, as administration, but 
the minority and the majority, the House and Senate.
    I think the American people are, more and more everyday, 
getting fed up with the penny-ante politics that go around 
here. They want to see results. And maybe this next few weeks 
may be painful, as you see some of the news reports right now 
on, you know, debt, extending the debt limit, dealing with the 
budget, the shutdown.
    I will tell you the Appropriations Committee has passed 11 
of their 12 appropriations bills on the Senate side. We are 
ready, but it seems the way this place operates on the Senate 
floor is, you could have an item like we have now, an energy 
and efficiency, but we are going to talk about everything but 
that. It's the most amazing thing.
    When I was Mayor of Anchorage, they would never ever allow 
a non-germane discussion. If you want to have that issue, bring 
it up in another forum. But the American people want us to get 
our work done.
    And to you all, that hopefully will be approved, the 
Federal Government, we are in the business of services. We are 
a service company, that's who we are, the largest service 
company in this country. We deliver services every single day. 
If we continue to do as--a great example, customers are 
increasing, because unless I missed something, the population 
is not shrinking in this country, on many aspects. And because 
of that, as the population grows and we keep cutting to the 
bone or below the bone or into the marrow, the net result is we 
will not provide the services that the American people want and 
need in this country, core basic services.
    And when you think about weather, the things that you've 
been able to do, you know, the Sandy storm could have been even 
greater damage without the knowledge that we have. When we have 
troops fighting overseas, it is weather that helps us determine 
when those troops move in certain areas. A lot of people forget 
that. It's not just about turning on the Weather Channel and 
thinking about how you drive to work that day.
    There's many other aspects to the services you provide that 
are really given free to many people, to utilize, to better 
their lives and plan their business or, in the case of the 
military, plan how to maneuver in foreign countries, as well as 
training. The list goes on and on. The airlines--you know, the 
shopping list is unbelievable.
    So we have to be careful here. And I would hope that some 
of my colleagues on the other side of the aisle would recognize 
that we are a service company. We provide service and we should 
be the best of any company. And for us to degrade the service 
every single day by nitpicking or doing 6 week budgets is 
irresponsible.
    So that's--I'm talking to you, through you. This is my 
rant. When I get the mic and they let me close it off, that's 
how life works. I've learned this from my colleagues after 5 
years, so I will take the advantage.
    Again, thank you all very much. Thank you for your 
willingness to serve, to your families that support you, 
because I know you cannot do it alone. And I really greatly 
appreciate you sticking through this time and listening to a 
lot of questions and rants.
    I think I need to keep the record open for--seven? The 
record will be kept open for 7 days for additional questions 
from members of the Committee.
    The Committee is now adjourned.
    [Whereupon, at 11:41 a.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California
    I would like to congratulate Dr. Kathryn Sullivan on her nomination 
to be Under Secretary of Commerce for Oceans and Atmosphere and 
Administrator of the National Oceanic and Atmospheric Administration 
(NOAA). She has served as the Acting Under Secretary of Commerce for 
Oceans and Atmosphere and Acting NOAA Administrator since February 
2013, and I look forward to her continued leadership.
    Dr. Sullivan has roots in my home state of California where she 
spent much of her childhood. She earned a bachelor's degree from the 
University of California, Santa Cruz before going on to receive a 
doctorate from Dalhousie University in Canada.
    Dr. Sullivan has exemplary professional experience from her time in 
the Federal Government, and the non-profit and corporate sectors. She 
previously served as NOAA's Chief Scientist, in the U.S. Navy Reserve, 
and in the NASA astronaut corps, which makes her nomination to be the 
Under Secretary of Commerce for Oceans and Atmosphere and NOAA 
Administrator especially fitting.
    In her role, Dr. Sullivan will be responsible for programs that 
protect our coastal ecosystems and coastal economy, and help address 
the threat of climate change, to name a few.
    NOAA's role in protecting our coastal ecosystems and sustaining our 
coastal economy is so important to California and our Nation. National 
marine sanctuaries help preserve our magnificent marine and Great Lakes 
areas for generations to come. And, in California alone, half a million 
jobs and $36 billion in economic activity depend on ocean tourism, 
recreation, and fishing.
    NOAA also plays an essential role in providing up to date climate 
science. From record high temperatures, to severe wildfires, to severe 
storms, to shrinking Arctic sea ice and rising sea levels, the agency's 
climate data and monitoring supplies critical information charting the 
growing impacts of this climate disruption on our country. Continuing 
NOAA's science driven mission is crucial in helping our Nation confront 
the very real threat of climate change.
    Once again, I congratulate Dr. Sullivan on her nomination, and I 
look forward to continuing to work with her on these and other 
important issues.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                          Dr. Robert M. Simon
    Question. In Minnesota and across the country we have seen the 
positive impact that renewable fuels and other bio-based products have 
had on small towns and rural areas. Renewable fuels provide good jobs, 
improve the environment, and help us to reduce our dependency on 
unstable parts of the world. If confirmed what will you do to encourage 
continued research and development in bio-based products?
    Answer. Thank you for asking me about this important topic. As you 
point out, bio-based products, including renewable fuels, play an 
increasingly important role in our economy. By one rough estimate, in 
2011, bio-based products such as biofuels, biologically based 
materials, chemicals, and industrial enzymes accounted for more than 
$115 billion in revenues in the United States alone. The scope of the 
products being produced from bio-based starting materials is also 
expanding. While the large-scale production of bio-based products 
started with ethanol production for fuel purposes, technological 
advances spurred by research and development (R&D) expenditures related 
to biofuels have resulted in new products and market opportunities to 
use bio-based materials in cosmetics and as replacements for higher-
value petrochemicals, such as plastics. These new economic 
possibilities, in addition to the introduction of second- and third-
generation biofuels that can be used as ``drop-in'' replacement fuels, 
will strengthen the opportunities for economic growth in small towns 
and rural areas. Indeed, in February of 2012, the President issued a 
memorandum for the heads of executive departments and agencies 
directing them to take a series of important steps to significantly 
increase Federal procurement of biobased and other sustainable 
products, in essence to use the purchasing power of the government to 
drive innovation and create jobs.
    Key to all of this is maintaining the strength and diversity of the 
R&D base that supports bio-based innovation. If confirmed, I would work 
with my colleagues in OSTP and elsewhere in the Administration to 
pursue strategies that would encourage this growing segment of our 
economy. That would include working with the Department of Energy and 
the Department of Agriculture to ensure their efforts are strongly 
aligned with each other and focused on the most compelling 
opportunities for bio-based applications in the future, supporting 
efforts by universities to work more effectively with industry to move 
R&D advances out of the laboratory into the marketplace, and working 
with colleagues in the Administration to ensure we have the trained 
personnel needed to support future bio-based R&D and its applications.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                          Dr. Robert M. Simon
Senate Experience
    Question 1. Dr. Simon, how will your experience as a Senate 
Committee Staff Director, both in the Majority and the Minority, 
influence how you will perform your job at OSTP?
    Answer. Thank you for asking this question. One of the things I 
learned as a Senate Committee Staff Director, both in the Majority and 
the Minority, was that when you get down to the substantive details on 
important issues relating to energy and environment, there are usually 
openings to finding bipartisan common ground. The chance of finding 
those openings is greatly enhanced if one is listening to and 
respecting the voices that come from a range of regions, communities, 
and stakeholders with an interest in a given policy area. In 
particular, I have found that Members and their staffs from across the 
political spectrum invariably have useful information and insights to 
contribute. Listening carefully to that broad input helps one 
understand the potential real-world effects of any particular proposal. 
Searching for common ground across party lines is generally the best 
way to make progress on an issue--certainly in the Senate, but also in 
government more broadly. I hope to apply these lessons that I learned 
in the Senate to the issues I will be responsible for at the Office of 
Science and Technology Policy (OSTP), if confirmed.
STEM program streamlining
    Question 2. This April, the OSTP and the Office of Management and 
Budget proposed a Federal STEM reorganization plan with the goal of 
eliminating redundant and ineffective STEM education programs. Members 
of Congress from both parties have raised concerns about this proposal, 
claiming that it would eliminate effective programs and that it ignores 
the expertise and tools that exist within mission agencies like NASA 
and NOAA. How would you work with Congress going forward to improve the 
coordination and efficiencies of these programs across the Federal 
Government?
    Anwer. Thank you for this important question. Both the Congress and 
the Administration share the common goal of improving both the 
coordination and the efficiency with which the Federal Government 
carries out its activities related to STEM education. The Committee on 
Commerce, Science, and Transportation has played a leading role in 
advancing this by authorizing the formation of a committee under the 
National Science and Technology Council to coordinate STEM education in 
the very first substantive section of the America COMPETES 
Reauthorization Act of 2010. This Committee on STEM Education (CoSTEM) 
has been facilitating planning, coordination, and implementation 
activities to create a more effective set of Federal STEM education 
programs. If confirmed, I would stay abreast of Congressional interest 
in, support for, and perspectives on STEM programs, particularly 
relating to the program areas of OSTP for which I would have 
responsibility. I would look forward to working with you and this 
Congress as we look for the best ways to use Federal STEM education 
programs to improve STEM education and encourage greater participation 
in STEM careers.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                           Dr. Jo Handelsman
STEM program streamlining
    Question 1. This April, the OSTP and the Office of Management and 
Budget proposed a Federal STEM reorganization plan with the goal of 
eliminating redundant and ineffective STEM education programs. Members 
of Congress from both parties have raised concerns about this proposal, 
claiming that it would eliminate effective programs and that it ignores 
the expertise and tools that exist within mission agencies like NASA 
and NOAA. How would you work with Congress going forward to improve the 
coordination and efficiencies of these programs across the Federal 
Government?
    Answer. Thank you, Senator Thune, for this question. As you know, 
STEM education programs are of particular interest to me and, if 
confirmed, I would look forward to working to make them as strong and 
efficient as possible. Since I think we all believe in the fundamental 
principles of efficiency and coordination that underpinned the 
reorganization, I would examine the programs, determine the rationale 
for choices, and work with the Congress to build the best constellation 
of programs we can. I have a collaborative leadership style and would 
enter into this process with a presumption of fostering collaborative 
relationships. If confirmed, I intend to address this issue with the 
kind of cooperation that Congress and the Administration proved 
possible when, under the leadership of this Senate committee, the 
America COMPETES Reauthorization Act of 2010 was enacted.
    There is reason for optimism. The America COMPETES legislation led 
to the creation of the new National Science and Technology Council 
(NSTC) Committee on STEM Education (CoSTEM). CoSTEM recently released a 
5-year Federal STEM Education strategic plan, which I understand has 
been well-received both inside and outside government. Already, CoSTEM 
member agencies are working together to implement the strategic plan's 
vision of a more effective, efficient, and coordinated Federal STEM 
education enterprise that sustains and builds upon agency capabilities 
and assets in STEM education.
    If confirmed, I would look forward to working with you, CoSTEM 
member agencies, and the scientific community to implement that 
strategic plan in a manner that achieves our shared goals. The 
principles I would strive to uphold are twofold: (1) we should protect 
programs that are supported by evidence; and (2) we should honor the 
unique features and capabilities of our Federal agencies to deliver the 
best STEM education programs to our students and institutions of 
education at all levels.
The ``Scientific Teaching'' Method
    Question 2. Dr. Handelsman, could you explain the ``scientific 
teaching'' method you have developed and written about, and discuss how 
that model could help improve U.S. STEM education?
    Answer. Scientific teaching has a number of meanings. First, it is 
about using evidence in teaching, just as we do in scientific research. 
This means relying on scientific research about learning in making 
choices about classroom practice, and incorporating regular informal 
and formal assessment of learning into teaching, just as we include 
metrics for scientific phenomena in scientific research. Second, 
scientific teaching means treating the classroom more like a research 
lab. A key aspect of research labs is that they capitalize on the 
different talents and strengths of each member through hands-on lab 
work and creative problem-solving. This approach should be extended to 
the classroom such that teaching methods are adapted to further expand 
opportunities for students from diverse backgrounds to participate more 
fully in the learning process. Finally, scientific teaching is about 
scientific content. This means teaching the process of science and 
scientific thinking as well as the products of scientific 
investigation.
    Scientific teaching can be a useful framework to apply to the 
Federal education agenda because it provides a roadmap to three key 
elements highlighted in the CoSTEM strategic plan: Our choices should 
be evidence-driven; we should foster diversity and use it to strengthen 
the teaching in STEM classrooms; and we should emphasize the process as 
well as the products of scientific investigation. If confirmed, I would 
look forward to working with you and this Committee to realize these 
goals.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                           Dr. Jo Handelsman
    Question. I appreciate your focus on increasing the presence of 
women and girls in STEM fields. What steps would you take to 
particularly encourage females to pursue educations in careers in 
science, technology, engineering and math?
    Answer. There are two types of approaches to increasing 
representation of women in STEM fields. One involves interventions that 
are generally helpful to all STEM students and workers, but have a 
differentially positive effect on women, and the second is specific to 
girls and women.
    The general approaches to attracting and retaining students in STEM 
fields first involve improving pedagogy in STEM teaching at all levels. 
The broad group of teaching practices known as ``active learning,'' 
which engage students actively in acquiring knowledge and expertise, 
have a differentially positive effect on performance and retention of 
girls and women in STEM fields. Research shows that training teachers 
in active learning techniques does not seem sufficient to change their 
practices in the classroom--they themselves must learn in STEM classes 
through active learning to incorporate these approaches in their own 
classrooms. Therefore, it is critical that we adopt active learning 
approaches at the college level so that future teachers at all levels--
K-12, college, graduate, and postgraduate--experience active learning 
and consequently use it in their own teaching.
    Second, there are a variety of tactics that can be used to increase 
retention of women and girls in STEM in college. A high priority should 
be to incorporate research courses and other research experiences into 
college courses taken in the first two years of college, before the 
attrition from STEM majors occurs. These courses can be linked with K-
12 classrooms in which younger students play a role in the research 
projects and the college students mentor the younger students, 
electronically or in person.
    Approaches that are specific to girls and women in STEM fields 
generally involve providing role models. Research indicates that most 
people do not pursue paths where they do not see people ``like them.'' 
In child development, as gender identification becomes more important 
to a girl's self-image, she is less likely to remain in STEM. 
Therefore, it is essential to provide diverse role models with whom 
girls can identify in all areas of STEM. Using examples of women 
scientists throughout science fields, making prominent women scientists 
visible to young girls, and incorporating women scientists into the 
scripts of prime time television are proven methods for providing role 
models.
    Finally, women often drop out of STEM fields at higher levels 
because of a lack of institutional structures to support work-life 
balance. Key interventions that promote women's careers include 
explicit discussion of career options, role models who have combined 
family and successful STEM careers, provisions for pregnancy and breast 
feeding, and maternal leaves that do not penalize women.
    If confirmed, I would work with educational institutions and 
Federal funding agencies to continue to invest in research and to 
provide and incentivize programs and policies that would foster the 
evidence-based interventions and innovations described here.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                        to Dr. Kathryn Sullivan
    Question 1. We appreciated your expressions of support for 
cooperative management, the process through which fishermen and other 
third parties including research institutions work collaboratively with 
the agency to collect data, produce necessary science, and otherwise 
help manage the fishery resource that is of mutual concern. What is 
your vision for how cooperative management could enhance fisheries 
management, and how can the committee help you achieve that vision?
    Answer. Cooperative research and management is essential to NOAA's 
core mission to sustainably manage marine fisheries that ensure these 
valuable resources contribute to healthy ocean ecosystems and thriving 
coastal communities and economies. NOAA has a long history of 
cooperative research and management and will continue to leverage the 
capacity of a widely distributed network of partner academic 
institutions, commercial and recreational fishermen, state and tribal 
leaders, interstate marine fisheries commissions and other entities to 
improve the science and management of our Nation's valuable marine 
resources. Cooperative research and management also is helping us build 
greater confidence in the science and management. Congress can help by 
continuing to support the FY 2014 Presidential Budget which includes an 
increase of $1,029,000 for cooperative research and supporting other 
areas of the NMFS budget that include cooperative research and 
management.

    Question 2. As you assume your new portfolio at NOAA, cooperative 
management will be one of many priorities and is unlikely to receive 
your direct attention on a daily basis. Who on your team do you expect 
to take day to day responsibility for this issue?
    Answer. Sam Rauch, NOAA's Acting Assistant Administrator for NMFS, 
and Dr. Richard Merrick, the Chief Science Advisor for NMFS, have made 
cooperative research and management a top priority. I rely on their 
leadership on this, and I know they are not only strengthening our 
partnerships, but are seeking out more ways to collaborate effectively 
with partners in academia, industry, and other entities. In addition to 
Mr. Rauch and Dr. Merrick, Dr. Mark Schaefer, our newly confirmed 
Assistant Secretary for Conservation and Management, has this issue in 
his portfolio, and I will look to him to keep me informed of progress 
in this important area if I am confirmed.

    Question 3. In these tight budget times, outside funding for 
cooperative management could be essential. Does the agency have the 
authority and appropriate mechanisms to receive private resources for 
projects that involve NOAA and third parties?
    Answer. We are looking for opportunities to leverage resources 
(e.g., seeking funding and in-kind contributions from non-Federal 
sources) in support of our research activities and other mission 
activities and to clarify our authority to receive such funding. In all 
of these efforts NOAA will work to ensure that there are no real or 
perceived conflicts of interest in connection with leveraging of 
resources.

    Question 4. Could you describe the comprehensive cooperative 
research and management program called for in MSA section 318, 
including operating documents and how the program is funded? Concerning 
funding, identifying budget items for the program by funding class 
would be particularly helpful.
    Answer. NOAA has established a cooperative research program that 
has effectively engaged and benefited from collaborations with a broad 
range of external stakeholders. Through this program, NOAA has 
increased the quantity and quality of data; inclusion of stakeholders' 
knowledge in science and management; improved relevance of research to 
fisheries management; and reduced costs of science. Additionally, this 
program has and continues to promote a shared understanding of science 
and support for management decisions by stakeholders and improved 
relationships with constituents. If confirmed as Administrator, I will 
continue to support cooperative research as a key component of our 
fisheries science enterprise.

    Question 5. Many cooperative management efforts have focused on 
improving monitoring in specific fisheries, and have used technology--
electronic reporting or monitoring systems--to aid these efforts. 
Please describe NOAA's legal, technical, and operational considerations 
in implementing electronic reporting (vessel trip reports, logbooks, 
landing receipts) and electronic at sea monitoring and how the current 
rule-making on these issues can insure that these technologies are 
adopted in more U.S. fisheries.
    Answer. There are a number of challenges to incorporation of 
electronic monitoring, including:

  <bullet> Law enforcement procedures (e.g., to ensure proper chain of 
        custody of video)

  <bullet> Confidentiality policies (e.g., needed to govern all acts 
        observed on video)

  <bullet> Information technology infrastructure improvements (e.g., 
        data transmission and storage needed for broad scale 
        implementation)

  <bullet> Funding (e.g., identifying the exact costs and source of 
        funding for implementing electronic technologies)

  <bullet> Technology advances (e.g., improving image recognition)

  <bullet> Moving from pilot projects to full implementation (i.e., 
        scalability)

    NOAA is currently evaluating electronic technologies for use in 
data collection and monitoring to provide timely, accurate, and cost-
effective information. The regional offices and science centers are 
reaching out to regional councils, fishermen, and other stakeholders to 
address these challenges and to identify, evaluate, and implement these 
new technologies where appropriate to improve fisheries data reporting 
and monitoring. I am committed to NOAA being a world-class science 
agency, and as such, we must adapt as technology advances. If confirmed 
as Administrator, I would continue to make this a top priority.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Dr. Kathryn Sullivan
International Pacific Halibut Commission
    Question 1. The National Oceanic and Atmospheric Administration 
(NOAA) oversees the appointment process for the International Pacific 
Halibut Commission (IPHC). Mr. Bob Alverson, a halibut fisherman from 
Seattle, was nominated to be a Commissioner on the IPHC for the non-
Alaska seat. Recreational, commercial and tribal Pacific halibut 
fisheries provide jobs to fishers, outfitters, processors, seafood 
retailers and shipyards throughout the Pacific Northwest. According to 
the IPHC's Annual Report, the sport halibut fishery is second only to 
salmon, with landings reaching over 370,700 pounds in 2010. In 
addition, the commercial halibut catch on the West Coast was 407,600 
pounds supporting many commercial fishing jobs in our coastal 
communities, in the Puget Sound and in ports up the Columbia River.
    Despite Pacific halibut's importance to our coastal economies, the 
NOAA has failed to appoint commissioners. Mr. Alverson has been waiting 
over a year and a half to hear from the Department.
    Dr. Sullivan, much of this delay has occurred during your tenure as 
Acting Administrator at NOAA. By what date will you have commissioners 
selected, and notified of their selection? In your role as 
Administrator, how will you prevent long, costly, drawn out appointment 
processes in the future?
    Answer. I absolutely understand how critically important this 
fishery is to both Washington and Alaska, and if confirmed, I assure 
you that working closely with the White House to get these Presidential 
appointments through the process quickly will be a high priority for 
me.
Shark Finning and NOAA Overreach
    Question 2. Shark populations globally are declining at alarming 
rates. My home state took action on this issue by passing a law in 2011 
to ban the possession and sale of shark fins--the market for which 
drives overexploitation of sharks worldwide. We joined a growing number 
of states in recognizing that the main way to combat the global 
slaughter of sharks is to remove the market for, and trade in, shark 
fins. In May of this year, however, the National Marine Fisheries 
Service (NMFS) issued a proposed rule in which the agency articulated a 
view for the first time that state laws like Washington's may be 
preempted by the recent Shark Conservation Act of 2010. My question for 
you relates to the way in which the agency handled itself in this 
matter.
    Dr. Sullivan, Federal agencies are required under Executive Order 
13132 to engage in a consultation process with states whose laws may be 
affected, when the agency intends to preempt state law. During your 
time as Acting Administrator of NOAA, NMFS failed to consult with my 
state, and any other state, before issuing its proposed rule on shark 
fins. Please explain how the agency was able to do this legally. 
Furthermore, will you give me your commitment that this will not happen 
again under your leadership?
    Answer. Pursuant to EO 13132, NOAA did reach out to affected states 
prior to issuing the proposed rule to alert them that the proposed rule 
would identify the potential for conflicts between state and Federal 
law. As noted in the proposed rule and its preamble several states and 
territories have enacted shark fin laws. These laws differ from state 
to state. Some of these laws restrict the possession of shark fins in a 
way that could create a problem for fishermen who must land the fish 
caught in Federal waters with fin attached to comply with Federal law.
    NOAA continues to engage in discussions with these states to work 
toward accommodating both Federal and state interests through the 
interpretation and implementation of Federal and state law. Those 
discussions are ongoing, including discussions with the State of 
Washington. We are hopeful that we can find solutions that will allow 
both state and Federal laws to co-exist.

    Question 3. Dr. Sullivan, currently California's shark fin law, 
which is similar to Washington's law, is subject to litigation. Private 
parties from industry have challenged the law, and the State of 
California and interveners are defending the law. The U.S. Department 
of Justice filed an amicus brief in the Ninth Circuit Court of Appeals, 
taking the position on behalf of NMFS that the California law is 
preempted by Federal law. I am not weighing in on ongoing litigation, 
but I want to understand how NMFS has been conducting business between 
interested parties.

    a. NMFS is currently engaged in consultation with the State of 
California, just as it is with the State of Washington, ``in an effort 
to avoid . . . a conflict'' between state and Federal law that would 
result in preemption. Executive Order 13132, 64 Fed. Reg. 43,255, 
43,257 (August 10, 1999). Please explain why this aggressive action in 
the courts--which flatly denies any compatibility between state and 
Federal law--does not undermine the consultation process required by 
Executive Order 13132 as a way of collaboratively avoiding conflicts 
between state and Federal law?
    Answer. As you mention, one of the states with a shark fin ban is 
California, whose ban became effective July 1, 2012. The Chinatown 
Neighborhood Association sued the State of California to enjoin that 
law.
    Because the District Court addressed the question of Federal 
preemption in its opinion denying a preliminary injunction in that 
case, and because the topic of preemption was briefed by both plaintiff 
and defense, the United States submitted an amicus brief to the Ninth 
Circuit addressing the topic of preemption. The brief was filed on July 
22, 2013 due to the fact that the Ninth Circuit Court of Appeals 
scheduled oral argument in this matter for August 14, 2013. The 
Department of Justice and NOAA had no control over the schedule in the 
Ninth Circuit litigation.
    On August 27, 2013, the Ninth Circuit issued a limited ruling on 
the appeal in Chinatown Neighborhood Association et al., vs. Governor 
Edmund J. Brown, et al., which will not affect the ongoing rulemaking.
    NOAA is still engaged in the rulemaking process. The public comment 
period on the proposed rule, which closed on July 31, 2013, allowed 
commenters to take the United States' views, as expressed in the 
proposed rule and in the amicus brief, into account in their 
submissions. In addition, NOAA is still actively engaged in discussions 
with states with existing shark fin bans to work toward accommodating 
both Federal and state interests through the interpretation and 
implementation of Federal and state law. These discussions with states, 
as well as comments received during the public comment period, will of 
course inform NOAA's final rulemaking process.

    b. Will you ensure that NMFS will conduct itself in a more measured 
way with respect to preemption, following through with a full 
consultation process before taking litigation positions, under your 
leadership? You should know, that this type of behavior from NMFS 
regarding legal opinions and non-legal ``white papers'' (which are non-
legal, legal documents prepared by NOAA's lawyers) is a pattern which 
creates enormous uncertainty in our states and with our stakeholders.
    Answer. If confirmed as Administrator, I will certainly work to 
ensure that we develop productive consultation relationships and work 
cooperatively with our state fishery management counterparts. Our 
relationship with them and the compatibility of Federal and state 
regulations is critical to achieving successful and sustainable 
management of our Nation's fisheries.
Prescott Grant
    Question 4. The NOAA John H. Prescott Marine Mammal Rescue 
Assistance Grant Program was zeroed out in the President's Fiscal Year 
2014 and Fiscal Year 2013 budget requests. As you know, the Prescott 
Program fuels highly leveraged grants to regional marine mammal 
research and stranding response organizations. Over the last 13 years, 
the program provided funding critical to responding to over 57 unusual 
mortality events, facilitated stranding response for over 20,000 marine 
mammals, produced 120 peer reviewed scientific studies, and led to the 
discovery of 10 infectious diseases.
    Dr. Sullivan, in your view, will NOAA be able to meet their 
statutory requirements of the Endangered Species Act (P.L. 93-205), the 
Marine Mammal Protection Act (P.L. 92-522) among other statutes, if the 
program is defunded? For example, how will NOAA respond to 
anthropogenic impacts on marine mammals such as entanglements and oil 
spills? In your opinion, will regional stranding response centers be 
able to remain open without the grant program? How will regional oiled 
marine mammal response capability change if these regional stranding 
centers are not able to remain open? As Administrator, how will you 
prioritize this program?
    Answer. The Prescott Grant Program provides competitive grants to 
eligible members of the National Marine Mammal Stranding Network to 
rescue, rehabilitate, or investigate sick, injured or distressed live 
marine mammals and to determine the cause of death or disease in dead 
marine mammals. Following a thorough budget review to see if savings 
could be found through organizational and program changes, NOAA 
proposed to eliminate the Prescott Grant Program in FY 2013 and FY 2014 
as part of the President's efforts to find efficiencies and savings in 
a constrained fiscal environment.
    NOAA anticipates some stranding network organizations would 
continue to operate in the absence of the Prescott Grant program, but 
loss of Federal funds may reduce their ability to operate at their 
current level and may inhibit their ability to raise private funding 
through research proposals, foundations, and private donations.
    NOAA places huge value on its long-standing partnership with 
stranding network members to obtain the vital information about marine 
mammal health needed to develop effective conservation programs for 
marine mammal populations in the wild. If confirmed as Administrator, I 
can assure you that NOAA will continue to try to assist network 
partners as much as possible. Through the FY 2013 appropriations 
process, $1.1 million was provided for the Prescott program. With that 
appropriation, NOAA was able to award 12 grants to stranding network 
members from 10 states totaling $1.046 million. An additional $10,866 
was awarded to the National Fish and Wildlife Foundation for future 
emergency grants to the stranding network to be used as needed.
Climate Change
    Question 5. Climate change is impacting our oceans in a number of 
ways: from warming, to sea level rise, and ocean chemistry. 
Understanding how climate change is impacting species, ecosystems and 
processes has proven to be a challenge--especially in the marine 
environment.
    Dr. Sullivan, how do you view your new role as the NOAA 
Administrator with respect to climate research, education and outreach? 
How could NOAA help communities, businesses and policy makers better 
understand how climate change will impact human health, transportation, 
weather, and coastal economies?
    Answer. If confirmed as NOAA Administrator, I am committed to 
helping communities, businesses, and policy makers understand how 
climate change will impact human health, transportation, weather, and 
coastal communities. Our Nation must understand these impacts, so we 
can prepare and adapt effectively. To meet this goal, NOAA will 
continue its efforts to bolster its capacity to observe changes in 
climate, climate variability, and impacts of climate changes by 
sustaining our world-class observation, monitoring, research, and 
modeling efforts, and to understand the role of humans within the 
climate system. If confirmed, I will ensure that NOAA continues to 
produce the type of regional climate information and tools that are 
requested by resource managers, decision makers, and the public such as 
cities planning for sea level rise and storm surge, businesses seeking 
to make their supply chains more resilient to environmental impacts, 
and individuals looking to be better prepared for extreme weather 
events. By building upon NOAA's strong scientific foundation and 
working with our external and internal partners, I am committed to 
ensuring that relevant and credible scientific information and tools 
are delivered in a timely manner to communities, businesses, and policy 
makers needed for both mitigation and adaption of climate impacts.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                          Dr. Kathryn Sullivan
Seafood Certification
    Question 1. While independent certification of seafood 
sustainability may have started out with good intentions, these 
programs have come under criticism for changing goalposts and 
increasing costs. Alaska dropped its third-party certification of 
salmon in favor of United Nations FAO-based Responsible Fisheries 
Management (RFM) standards. Fisheries managed under the Magnuson-
Stevens Act (MSA) operate under national standards for sustainability 
and NOAA has its Fish Watch program.
    But now some buyers, including Federal agencies such as the Park 
Service, operate under guidelines set by other third-party certifiers. 
One retailer won't purchase Alaska snow crab because it is not 
certified by the Marine Stewardship Council (MSC) in favor of Russian 
crab which is known to be mismanaged and a major source of illegal crab 
on the world market. As a result, many Regional Fishery councils have 
proposed certification standards be written into the Magnuson-Stevens 
Act (MSA) during its ongoing reauthorization.
    What are your ideas about how NOAA can better assure retailers and 
consumers about the sustainability our seafood products, the strict 
standards that exist in MSA, and how our management process of 
scientific-based harvest levels, monitoring and observing, and stock 
assessment and reassessment makes U.S. fisheries among the best managed 
in the world?
    Answer. As Administrator, touting the success of our fisheries 
management system will remain a top priority. The fisheries management 
process established under the Magnuson-Stevens Act has established the 
United States as a recognized global leader in responsibly managed 
fisheries and sustainable seafood. NOAA is taking a proactive role in 
telling the story of the success of U.S. fisheries, using a variety of 
approaches to highlight the value, quality, and sustainability of U.S. 
harvested and farmed seafood, including the website FishWatch. 
FishWatch delivers neutral, regularly updated information on seafood 
harvested in the United States. The website introduces consumers to the 
dynamic process of sustainably managing living resources in an ever-
changing ocean environment. This tool also provides factual information 
about the biological and ecological status of a fishery and lets users 
draw their own conclusions relative to satisfying a purchasing 
standard, based on science provided by NOAA's National Marine Fisheries 
Service (NMFS). We continue to improve the content of FishWatch and 
explore opportunities for expanding its reach.
    In addition, to assist sellers, NOAA can issue declarative public 
statements in the form of letters in response to requests from harvest 
sector groups on whether a particular fishery is ``sustainably 
managed'' based on the Magnuson-Stevens Act National Standards. In 
those letters, we highlight the fact that, in the United States we have 
virtually eliminated overfishing and are rebuilding overfished stocks 
to sustainable levels in all federally managed fisheries.
Confidentiality
    Question 2. In May 2012, NOAA issued a proposed rule to update 
current regulations and reflect changes to the information 
confidentiality provisions in the 1996 and 2006 Magnuson-Stevens Act 
reauthorizations. While the proposed rule reflects Congressional 
intent, fishermen are concerned the final rule may actually weaken the 
confidentiality provisions and allow disclosure of proprietary 
information that Congress intended to remain confidential.
    What is the status of this rulemaking? If confirmed, will you stand 
by the approach in the proposed rule and preserve the Congressional 
intent in the 1996 and 2006 amendments to keep proprietary data 
confidential?
    Answer. We understand the concerns fishermen are voicing about the 
data confidentiality provisions. We are currently evaluating the 
comments we received on the proposed rule and are deciding what changes 
should be made in the final rule. Congressional intent is fundamental 
and is, and will continue to be, central to our analysis as we work on 
the final rule.
Ocean Observing
    Question 3. The Integrated Ocean Observing System (IOOS) is a great 
example of a successful Federal-regional partnership. In my home state, 
the Alaska Ocean Observing System (AOOS) works as a functional link 
between the state and Federal Government, supporting monitoring of 
ocean acidification, changing ocean conditions due to climate change, 
and developing data integration and visualization tools to improve 
safety at sea and ecosystem management. What are your plans, as the 
head of NOAA, to expand this capacity among the 17 IOOS agencies and 
ensure that IOOS program grows to its full potential?
    Answer. Events over the last few years, including Sandy and the 
Deepwater Horizon oil spill, have awakened U.S. communities to the 
value and necessity of timely ocean information. U.S. IOOS investments 
in remote and in situ observations, environmental modeling, improved 
interoperability between diverse systems, and the implementation of 
data standards are supporting real-time decision making across the 
country. NOAA, as the lead Federal agency for IOOS, is using its 
appropriated funds to: expand access and use of ocean, coastal, and 
Great Lakes observing data; improve products and services through new 
modeling and decision support tools; maintain and improve observing 
capabilities at the NOAA, Federal, and regional levels; coordinate the 
transition of research to operations and lead training and capacity 
building activities; and strengthen IOOS's regional and Federal 
governance.
    There is much more work to do to build and organize the ocean-
observing infrastructure of the Nation and I look forward to working 
with you on this continuing challenge if confirmed.
Arctic Research Funding
    Question 4. The changing Arctic is one of my top priorities as well 
as that of the Administration but there is concern from commercial 
fishermen that funding for the Arctic research is NOT be diverted from 
other NOAA research and monitoring in the Bering Sea and Gulf of 
Alaska, especially the fish surveys conducted by NOAA Fisheries. I know 
similar concerns are shared nationwide. How do we address increased 
research needs in the Arctic without jeopardizing basic NOAA research 
needed to manage our fisheries, forecast the weather and monitor our 
oceans? How would you recommend improving Federal Arctic science 
programs overall? Would my Arctic Research bill, S. 1344, help address 
these needs?
    Answer. The Arctic is a unique, dynamic environment that holds 
great promise in both scientific research and economic development. As 
the resources of the Arctic become more accessible, it is important 
that sufficient research is conducted to provide a better understanding 
of the Arctic ecosystems and climate to ensure these resources are 
maintained responsibly. NOAA's Arctic Research Program provides 
invaluable data and forecasts, such as sea ice forecasts, which are 
critical to safe marine transportation and resource extraction 
activities in this dynamic environment. In a time of declining budgets, 
we must ensure that every penny is spent as wisely as possible. NOAA 
understands the importance of the Arctic and has, and will continue to, 
make this research a priority, and we look forward to working with you 
to advance our knowledge and understanding of the region. NOAA works 
closely with its partners to conduct Arctic research, and close 
collaboration and coordination will be even more important given budget 
realities. NOAA supports the intent of S. 1344 to facilitate Arctic 
research efforts and if confirmed as Administrator, I would look 
forward to working with you to advance our understanding of this 
vitally important region.
Permitting and Authorizations
    Question 5. I appreciate NOAA's work in recent years to promptly 
issue needed permits and authorizations, such as Incidental Harassment 
Authorizations. Given the short summer open-water season during which 
much exploration and development occurs, will you continue to work to 
promptly process needed permits and authorizations in the future?
    Answer. Yes, NOAA will continue to work with industry and our 
stakeholders to ensure that permit applications are processed as 
efficiently and thoroughly as possible.
NOAA Arctic Research Ship
    Question 6. Ship-wise, do we have the right tools in the fleet to 
deal with the opening Arctic? We have closed the Arctic to fishing 
because we lack the science to properly manage the fishery. Does NOAA 
have the organic capability to conduct Arctic research at sea? How will 
we get the scientific data to manage these resources without the 
ability to operate in the Arctic?
    Answer. The Arctic and sub-Arctic regions are already experiencing 
significant environmental and economic impacts from climate change. The 
United States must actively collaborate with other Arctic countries and 
international organizations to better understand and manage resources. 
Understanding and managing effectively in a regime of Arctic change 
requires significant and accurate information on Arctic marine 
ecosystems, marine life, ocean circulation patterns and acidification, 
human health and well-being in coastal communities, transportation, and 
other activities. NOAA's scientific capabilities can be deployed in 
partnership with other government agencies and academia to increase our 
fundamental understanding of this region. NOAA's services can also be 
used to support safety and security needs for transportation and energy 
and mineral exploration. I don't think our agency alone has the needed 
tools to deal with the changing Arctic; NOAA will need to continue 
working with other agencies and international organizations especially 
as budgets continue to decline and resources become more scarce.
    NOAA will also be providing a more formal update to Congress about 
efforts to assess Fleet composition and coordination. The update will 
outline a path forward that addresses mission demand and provides a 
balanced approach as well as a `best fit' to the Nation's needs and 
requirements and yields a sound return on the investment of taxpayer 
dollars.
NOAA Alaska Ship Staffing
    Question 7. Some NOAA ships are consistently away from their 
homeports for more than 300 days a year, including the Alaska-based 
Oscar Dyson and Fairweather. Does this present challenges for staffing 
these ships? What is NOAA's plan to ensure these ships are effectively 
staffed? Is NOAA able to offer inducements such as COLAs to the wage-
marine crew on ships with these arduous schedules? Are there other 
things the agency can to do take care of the officers and crew of ships 
that have no effective homeport, in addition to the normal wages and 
benefits that crews of all ships are eligible for?
    Answer. NOAA ships are staffed by wage mariners that may choose any 
NOAA homeport as their duty station. In the case of both Oscar Dyson 
and Fairweather, the ships are staffed with a mix of personnel from a 
multitude of homeports, not just Alaska. Maintaining staffing is a 
recurring issue due to the nature of the work and time underway for 
most maritime fleets. NOAA has developed a robust augmentation pool of 
qualified personnel that rotate throughout the Fleet. While not 
perfect, it does mitigate most gaps due to scheduled and unscheduled 
leave, or loss of an employee due to retirement or resignation.
    Pay for Wage Mariners is governed by Federal pay authorities, and 
as such are not entitled to the payment of COLA. For ships that are out 
of their homeport and/or underway, Wage Mariners accrue 1 day of shore 
leave for every 15 days out of homeport. For ships such as Oscar Dyson 
and Fairweather, the mariners can accrue additional shore leave above 
the normal wages and benefits of ships that regularly return to their 
homeport.
Arctic Permitting Processes
    Question 8. I appreciate your comments during the hearing about the 
importance of interagency processes, especially for complicated 
environmental reviews and regulatory proceedings. What have you 
observed, during your time as Acting NOAA Administrator, that has 
worked well about the Interagency Arctic Working Group and other 
interagency processes? What has not worked well? Based on your 
observations, what specific changes will you seek to make challenging 
interagency process more effective?
    Answer. Executive Order 13580 established the Interagency Working 
Group on Coordination of Domestic Energy Development and Permitting in 
Alaska, chaired by the Department of the Interior, to coordinate the 
Federal agencies responsible for overseeing the safe and responsible 
development of onshore and offshore energy resources and associated 
infrastructure in Alaska. NOAA participates in regional, staff, and 
Deputy-level meetings and calls. The Working Group has brought a new 
level of communication and coordination to our work in the Arctic. If 
confirmed, I Iook forward to continuing this close coordination.
Arctic Science and Decision Making
    Question 9. Given the many syntheses that have been done compiling 
Arctic data and studies, combined with the ongoing data streams you 
have from industry and other groups, we're able to proceed with more 
informed decision-making.
    NOAA has placed a large value on precautionary approaches, 
especially for the Arctic, but one reason the U.S. and companies that 
operate here invest so much in data acquisition and analysis is to 
reduce the range of scientific uncertainty and allow more informed 
decision-making. While this investment continues, how will you make 
sure that science helps shape development decisions in productive or 
appropriate ways? As we gain a better understanding of Arctic 
ecosystems and environments are we able to adjust our level of 
precaution?
    Answer. Science is the foundation of NOAA's work and having the 
best available science is critical to our many missions. As we are able 
to hone our scientific understanding of the Arctic's ecosystems and 
climate, we will be able to make decisions and provide the forecasts 
that our stakeholders rely on based on more precise data. While all 
uncertainty can never be eliminated, through scientific research and 
discovery NOAA will be able to increase the reliability of our 
products. NOAA is making necessary investments to improve our 
understanding of the Arctic for that very reason.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                          Dr. Kathryn Sullivan
    Question 1. I keep hearing that NOAA's research budget keeps 
getting slashed, and at the same time that we have pressing needs for 
data and important questions we need to answer--whether it is questions 
about the status of fish stocks or what acidification and climate 
change mean for our shellfish farmers in Connecticut?

    a. How do you see NOAA accomplishing its core mission of informing 
important management choices in an era of declining research budgets?
    Answer. I agree that this is an area of concern as budgets are 
being reduced and investments in research are harder to maintain. The 
President's FY14 Budget Request placed a priority on research and 
development and the Disaster Relief Appropriations Act of 2013 Congress 
passed also helped make an investment in targeted research. If 
confirmed, I can assure you that I will continue to make research a top 
priority for this agency and do everything I can to make sure our core 
mission of science, stewardship, and service continues to inform the 
important management decisions we make on a daily basis.

    b. Are the alternative revenue streams or budget cuts that can be 
made to allow NOAA to conduct the critical research that needs to be 
done?
    Answer. I believe we need to be careful about making more cuts to 
our programs, since we have been experiencing those cuts for a couple 
of years now and actually have a higher demand for our products and 
services as time goes on. If confirmed, I will continue to examine ways 
to better leverage external funding and partnerships so the agency can 
continue to remain on the cutting edge of research.

    Question 2. Strict new rebuilding requirements, coupled with the 
annual catch limit mandate, create problems achieving sustainable yield 
for healthy stocks co-harvested in fisheries where some catch of 
rebuilding species is inevitable. In such instances, rebuilding stocks 
become ``choke'' species, preventing full harvest of healthy stocks and 
creating allocation battles. The problems Georges Bank yellowtail 
flounder are causing for New England haddock and scallop fishermen 
illustrate the situation. For instance, even though Georges Bank 
haddock is highly abundant, only a small fraction of its annual catch 
limit can be harvested. Likewise, yellowtail by-catch limits are 
driving scallop management decisions. Indeed, increasingly small 
yellowtail flounder allocations to the scallop fishery and associated 
accountability measures risk closing the scallop fishery in highly 
productive areas on Georges Bank. Conservation is important to our 
fishing communities, but so is the need for abundant stocks to be 
harvested.

    a. What steps are NOAA Fisheries and the fishery management 
councils taking to help ensure that fishermen have access to abundant 
resources, such as scallops and haddock?
    Answer. I am keenly aware of the need to provide access to economic 
opportunity while also meeting our conservation goals. NOAA has worked 
quickly with the New England and Mid-Atlantic Fishery Management 
Councils to increase catch limits when stock assessments have shown 
that a stock is in good condition and to open up additional fishing 
opportunity when possible. The New England Fishery Management Council 
(New England Council) has reduced minimum fish sizes for many 
groundfish stocks, such as haddock, to reduce discards and allow more 
fish to be landed. The New England Council also has provided special 
access programs for vessels using selective gear, so that the healthier 
stocks can be targeted while catching fewer fish from the less abundant 
stocks. In addition, we are working with the scallop fishery to develop 
ways to reduce bycatch so that this valuable fishery is not curtailed 
by low yellowtail quotas.
    We are exploring options to allow sectors access to portions of 
areas that were closed to address groundfish fishing mortality while 
maintaining closures in areas needed to protect habitat, vulnerable 
groundfish stocks, spawning stocks, and protected species. We worked 
with the New England Council to increase the catch limit for Gulf of 
Maine winter flounder when a new stock assessment was completed and 
showed that the stock was no longer subject to overfishing. We moved 
quickly to increase quotas for redfish, white hake, and pollock, as new 
scientific advice became available. We have also looked for flexibility 
to provide additional fishing opportunities to harvest healthy fish 
stocks. For example, we created new exempted fishery programs to enable 
greater harvests of spiny dogfish, skates, and redfish, and removed 
possession limits on monkfish for certain trips. We will continue to 
look for flexibility in Federal laws and ways to provide additional 
fishing opportunities to harvest healthy fish stocks.

    b. What flexibility can be added to the Magnuson-Stevens Act to 
better balance conservation with access to abundant resources, such as 
scallops and haddock?
    Answer. NOAA is reviewing National Standard 1 guidelines to look at 
additional flexibilities that can be applied to fisheries management. 
The National Standard 1 guidelines address ending overfishing, 
including the requirements for annual catch limits and accountability 
measures, and stock rebuilding. We have taken public comments on 
revisions to the guidelines, and NOAA continues to analyze the issues 
raised by the Councils and the public. NOAA is planning to issue an 
options paper this winter that will discuss areas where guideline 
revisions may be able to provide more flexibility for the Councils and 
fishermen, while still meeting the requirements of the Act. I support 
these efforts, and if confirmed, I will continue to look for 
opportunities for the Agency to find flexibility while also meeting our 
conservation mandates.

    Question 3. We have been successfully reducing over-capacity issues 
in our fishing fleets for nearly two decades.

    a. Are we nearly where we need to be in terms of matching the 
fleet's capacity with sustainable harvest levels or are further cuts 
going to be required?
    Answer. NOAA works with fishery management councils, the industry, 
and other partners to reduce regulatory inefficiencies that prevent 
fishermen from ``right-sizing'' their businesses. In a fluid, dynamic 
fishery with sufficient flexibilities and opportunity for profit, 
fishermen will adjust capacity to current conditions. While NOAA has 
done several studies to understand the relationship between existing 
fishing capacity and fleet size, the results of these studies indicate 
that over-capacity exists, but the extent of estimated over-capacity is 
affected to a large degree by the estimation method. And it's 
impossible to determine whether existing fishing capacity is in line 
with potential long-term fishery yields. We believe that fishing 
capacity is neither an advisable fishery management tool nor goal. It 
is better thought of as a result of a confluence of fishery management 
decisions and environmental conditions.

    b. Are there other sectors where we could be putting displaced 
fishermen to work? When there was a net ban in Florida, training 
programs ushered in millions of dollars of new clam farming production.
    Answer. Aquaculture is an increasingly important component of 
marine sustainability, in which fishermen can play a critical role. 
Marine aquaculture provides regional economic development, new 
employment opportunities for interested or displaced fishermen, and can 
augment commercially important species. If confirmed, I will continue 
to support the development of new business and training opportunities 
for our Nation's fishermen.

    c. Should we be re-training fishermen to grow mussels or seaweed? 
What can NOAA do to streamline permitting for mussel farms in Federal 
waters? We import millions of dollars of mussels from Canada.
    Answer. Mussel farming is providing important marine-based jobs for 
fishermen in the Northeast. NOAA recently provided a grant to support a 
demonstration mussel farm in Federal waters off Massachusetts. The 
project trains local fishermen to farm mussels and the participants are 
working to obtain Federal permits. In addition, Federal disaster funds 
were used in Maryland to train watermen in oyster farming and to 
provide incentives to start oyster farming ventures. This has helped 
lead to 40 new shellfish farms with at least half started by watermen 
in recent years.
    NOAA is working with our federal, state, local, and tribal partners 
to streamline permitting processes for marine aquaculture; to provide 
models, decision tools, and the best available science for efficient 
and effective regulatory decisions; and to educate the public about the 
economic and ecological benefits of marine aquaculture. We intend to 
continue these efforts.

    d. NOAA has determined that the Magnuson-Stevens Act gives it 
authority to regulate shellfish aquaculture activities in Federal 
waters. Are there any shellfish aquaculture experts or representatives 
on the Regional Councils? Should the Regional Fisheries Management 
Councils have any regulatory authority over shellfish aquaculture 
permitting?
    Answer. The makeup of each fishery management council reflects the 
expertise and interests of the states in that region. While we have not 
specifically asked governors to nominate shellfish aquaculture experts 
to serve on regional fishery management councils, it is likely that 
some members who represent commercial fishing, seafood businesses, 
academia, tribes, and state and Federal agencies have relevant 
expertise in shellfish aquaculture.
    NOAA maintains that ``fishing'' under the Magnuson-Stevens Act 
includes the harvesting of cultured fish and shellfish. If a species is 
included in a fishery management plan, a grower must obtain 
authorization from NOAA. Although this requirement does not apply to 
species not covered by a fishery management plan, we expect fishery 
management councils in regions where interest in offshore aquaculture 
is expanding to consider developing aquaculture fishery management 
plans in the future. The Gulf of Mexico Fishery Management Council took 
such an approach when it developed its aquaculture-specific fishery 
management plan. The Gulf aquaculture fishery management plan does not 
include any shellfish species, but it provides a good example of how a 
council can take a regional approach to managing commercial aquaculture 
in Federal waters. That said, NOAA is interested in continuing to work 
with Congress to explore alternative approaches that could provide the 
necessary regulatory clarity for aquaculture to develop in Federal 
waters.

    Question 4. One of the issues that I hear about from shellfish 
farmers in Connecticut is that certain environmental regulations can 
pose challenges for shellfish permitting, which is a big industry in my 
state.
    For instance eelgrass is protected as ``essential fish habitat'' 
under Magnusson-Stevens Act. Yet I hear from scientists that shellfish 
aquaculture provides many of the same ecosystem benefits that eelgrass 
provides, including improvements in habitat and water quality.

    a. Should we move away from a policy that mandates ``no net loss of 
eelgrass''--to one that says ``no net loss of ecosystem function''?
    Answer. NOAA does not have a formal policy on any net loss of 
eelgrass. Our 2011 Aquaculture Policy supports a regulatory approach 
that provides opportunity for the aquaculture industry, as well as 
protects high priority habitats that are essential to fisheries. NOAA 
recognizes the valuable role the shellfish aquaculture industry plays 
in providing sustainable seafood and ecosystem services, restoring 
habitats, and creating jobs in coastal communities. And we understand 
the value of eelgrass and its susceptibility to degradation, which have 
made it a priority for habitat protection through NOAA's multiple 
consultation mandates. Since NOAA's mandates require that it conserve 
aquatic vegetation and shellfish and foster sustainable aquaculture, 
NOAA will work with its partners to seek ways to fully consider the 
ecosystem services of shellfish aquaculture in the permitting process.

    b. Is there a way for us to preserve biodiversity and ecosystem 
services while creating new jobs and providing sustainable seafood as 
well?
    Answer. Providing sustainable seafood and creating jobs is a prime 
goal of NOAA and, if confirmed as Administrator, it would be a top 
priority of mine. In addition to striving to bring the Nation's wild 
fish stocks back to healthy and sustainable levels, NOAA invests in 
initiatives that support aquaculture as an important component of how 
the agency can reach this goal. There is a perception among some 
stakeholders of intrinsic conflict in balancing the goals of preserving 
biodiversity and ecosystem services and creating new jobs and providing 
domestic safe sustainable seafood for the Nation. However, we have many 
examples from the United States and around the world that show seafood 
can be caught and cultured sustainably. NOAA believes that increasing 
and diversifying our domestic seafood supply through expansion of 
sustainable marine aquaculture can be accomplished through careful 
regulation informed by sound science and technology development and 
transfer to U.S. seafood growers.

    Question 5. Information collected by fisheries observers represents 
an important source of data for fishery conservation and management. 
For instance, observer data is used in many fisheries to track a 
fishing fleet's level of bycatch against its overall bycatch limits. 
Certain fishermen, such as scallop industry participants, are required 
to pay for their own observers, and that can be very expensive. I 
understand it can take many months for NOAA Fisheries to be able to 
compile and analyze data obtained from observers so these data can be 
used to estimate bycatch levels. As a result, fishermen can end up 
``flying blind'' during the fishing season in terms of knowing where 
their catches are in relation to bycatch catch limits.

    a. What more can NOAA Fisheries do to ensure observer information 
is accurate?
    Answer. NOAA has developed national minimum eligibility standards 
for observers. These requirements are designed to ensure that observers 
are fully qualified and have the appropriate background and education 
needed to perform the necessary duties of an observer and to collect 
timely and accurate information. The National Observer Program Advisory 
Team, comprised of observer program managers from across the country 
including NOAA headquarters staff, routinely reviews the national 
standards to determine if improvements are needed. In addition to these 
requirements, all data collected by observers must go through a 
thorough quality assurance/quality control process.

    b. What more can NOAA Fisheries do to ensure that observer 
information is available in time to be useful to the fishermen who are 
paying for it?
    Answer. As described above, all data collected by observers must go 
through a quality assurance/quality control process to ensure the 
accuracy of the data. Observer programs strive to provide accurate data 
as quickly as possible.
    The Northeast Fisheries Observer Program and other observer 
programs are looking into additional ways to collect and submit data 
electronically in order to make information available more quickly to 
fishermen. For example, the Northeast Fisheries Observer Program and 
other observer programs across the country have begun incorporating 
handheld devices such as rugged iPads and toughbook computers to record 
and submit observer data electronically through wireless networks and 
satellite. Data confidentiality, IT security, and manageable costs are 
also taken under consideration.
    From a national perspective, NOAA recently approved a policy 
regarding the adoption of electronic technology solutions in fishery-
dependent data collection programs. The NOAA policy requires each 
region to evaluate the adoption of electronic technologies for the 
fisheries in their areas of responsibility. The core principle is a 
regionally driven focus to promote shared information and improve 
coordination across regions to improve overall data collection 
efficiency and effectiveness. We are striving to obtain the appropriate 
amount and quality of data at the least cost in time and money over the 
long term.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Edward Markey to 
                          Dr. Kathryn Sullivan
    Question. The home port of the NOAA ship Henry B. Bigelow is Woods 
Hole, Massachusetts. This is appropriate since Dr. Bigelow was a 
founder of Woods Hole Oceanographic Institution, and because the ship 
supports fisheries research from the Northeast Fisheries Science Center 
in Woods Hole. However, the Bigelow is currently docked in Newport, 
Rhode Island, unable to work out of Woods Hole due to insufficient dock 
infrastructure. What resources and actions are needed to bring the 
Bigelow home to Massachusetts?
    Answer. The homeport for NOAA Ship Henry B. Bigelow is Woods Hole, 
MA, but due to the draft of the vessel, lack of funds for dredging, and 
pier length, NOAA Ship Henry B. Bigelow has not been able to use the 
pier facility at Woods Hole and therefore was, and still is, 
temporarily docked in Newport, RI, where NOAA's Office of Marine and 
Aviation Operations has successfully negotiated and funded the upgrades 
needed for use of the Navy pier through 2016. If confirmed, I will work 
to ensure NOAA identifies a clear path forward to address the homeport 
question.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Brian Schatz to 
                          Dr. Kathryn Sullivan
    Question. During Secretary Pritzker's nomination hearing, I asked a 
question regarding an operating license amendment request before the 
Commercial Remote Sensing Regulatory Affairs Office that would allow an 
improved position for U.S. industry versus its European and 
international competitors, including unlicensed aerial services. She 
graciously offered to look into the process and work with us for a 
timely answer to the request.
    I am advised that we are reaching the statutory end point in the 
review process. May I have your assurance that this process will move 
forward expeditiously and you will continue to be on the forefront of 
U.S. competitiveness in this growing market?
    Answer. On May 12, 2013, a U.S. private remote sensing company 
requested an amendment to its license(s) to operate its commercial 
remote sensing space systems to sell imagery commercially at down to 
0.25 meter resolution. The current resolution limits, as provided in 
the company's license, were established by a National Security Council 
Deputies Committee and therefore any decision to change the limits 
should be appropriately made by this Committee. Accordingly, the 
Department of Commerce is currently working with the Department of 
Defense and the Intelligence Community to schedule a National Security 
Council Deputies Committee meeting in the immediate future. I want to 
assure you that we are working this amendment request as expeditiously 
as possible, and if I am confirmed, I will continue to follow this 
process. We strongly support maintaining a competitive advantage and 
retaining market leadership by the U.S. commercial remote sensing 
industry, while taking national security and foreign policy concerns 
into consideration.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Martin Heinrich to 
                          Dr. Kathryn Sullivan
    Question. During my state's recent catastrophic wildfires and 
historic floods, the local National Weather Service offices that serve 
New Mexico have been invaluable partners in protecting public safety by 
developing targeted, locally driven tools and data sets that quickly 
react to changing events and needs on the ground. Especially in fast-
developing situations like wildfires and flash floods, the 
responsiveness, expertise, and accessibility of the local NWS staff has 
provided critically important information to local residents and first 
responders alike.
    I understand that NOAA prefers to work with private partners, when 
possible, to distribute public information like weather data; however, 
in emergency situations where public safety is at risk, and where the 
effects of larger weather patterns are very different on a small scale 
(as happens with rain on wildfire burn scars) it seems wise to have the 
NWS to provide its information and locally tailored data products to 
citizens directly through the technologies they prefer to use, like 
mobile apps, rather than relying on private companies that may not have 
information regarding specific needs critical to public safety. NWS 
produces forecasts and models with great depth and detail, which are 
often not fully communicated in the products available from private 
companies.
    With the widespread reliance on cell phones and other mobile 
electronic devices, would you consider the development of an NWS app to 
deliver important weather, safety, and related information directly to 
the American public?
    Answer. At NOAA and in our National Weather Service (NWS), we 
recognize that this is a very important and rapidly developing area of 
service and technology. Wireless communication technology and the 
prevalent use of mobile devices have changed the way people communicate 
and share information on a day-to-day basis. Providing environmental 
information services through mobile devices using wireless 
communication technology to a myriad of customers and partners has the 
potential to increase the effectiveness of NWS warnings designed to 
protect life and property. NWS also supports direct delivery of 
information to core partners, such as those in emergency management at 
the state and local level, through multiple dissemination pathways. As 
with every new innovation, there are important factors which must be 
considered to ensure their effectiveness, including but not limited to 
meeting user needs; technological availability and requirements; and 
ensuring wise use of taxpayer resources, including recognizing the 
capabilities currently provided by a thriving public-private weather 
and climate enterprise. If confirmed as Administrator, I commit to 
working with you, our customers, and our partners on this critical 
area.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                          Dr. Kathryn Sullivan
NOAA Mission and Fiscal Prioritization
    Question 1. Dr. Sullivan, today, NOAA faces many challenges, 
including maintaining continuity in coverage for weather satellites, 
making needed improvements in fisheries management, and continuing the 
restoration of the Gulf of Mexico following the Macondo well blowout. 
And, like all Federal agencies, NOAA must adjust to new fiscal 
realities. This presents a real management challenge.
    Given these challenges, and the growing private-sector demands for 
timely and accurate information from NOAA in all its mission areas, how 
will you prioritize and allocate limited resources across the wide span 
of NOAA's missions?
    Answer. You are exactly right that the demands for our products are 
increasing while all of our missions are strained under sequestration 
and the uncertainty surrounding funding. In the face of declining 
budgets, one of my top priorities is to continue to find balance among 
our numerous mission areas. However, sustaining these cuts into future 
Fiscal Years will increase the impacts to our ability to deliver the 
services the Nation relies on and decrease our ability to conduct the 
research and development that continues to improve our services. If 
confirmed, addressing the immediate and ongoing challenges of 
sequestration and ensuring the continuity of NOAA's incredibly valuable 
programs will be a high priority of mine.
National Integrated Drought Information System
    Question 2. Dr. Sullivan, recently, the Commerce committee 
favorably reported S. 376, The Drought Information Act of 2013, which 
reauthorizes the National Integrated Drought Information System 
(NIDIS). This program, with NOAA as the lead Federal agency, provides 
an effective drought early warning system; coordinates research in 
support of the drought early warning system; and builds upon existing 
forecasting and assessment programs and partnerships. Drought issues 
are always a concern in South Dakota, so drought early warning is 
important. What successes have come from the NIDIS program and what 
challenges do you see with the current program? Are you supportive of 
NIDIS's reauthorization?
    Answer. Yes, I support the reauthorization for this very important 
program. Since the inception of the program in 2007, NIDIS has been 
providing a dynamic and accessible drought information system that 
enables users to determine the potential impacts of drought and the 
associated risks, as well as provides them with decision support tools 
to prepare for, and mitigate, the effects of drought. As such, the 
program has garnered strong user support. With 41 percent of the Nation 
currently suffering from drought, it is more critical now than ever 
before that credible information is made available in a timely manner, 
so that people and communities have as much time as possible to plan 
and respond. To meet this need, the U.S. Drought Portal--a one-stop-
shop for credible and easily accessible drought information and 
products--has been a successful tool for both the public and private 
sectors.
    Another successful element of NIDIS is the implementation of 
regional drought early warning information systems. A relatively new, 
but successful area of focus for NIDIS is working with livestock 
producers to manage risks related to drought. One specific example is a 
series of workshops across South Dakota on drought risk management for 
cattle producers that connect climatology, economics and insurance, 
rangeland management, vegetative health and productivity, and water 
resource management in a way that ranchers could use to help plan and 
prepare better for drought.
    Much of the support that NIDIS has generated, and the program's 
ability to meet the Nation's needs, results from the strong 
partnerships that the program has with other agencies, outreach 
organizations, and an enabling set of programs and observational 
capabilities. We also hope to build on these partnerships to launch the 
Drought Resilience Partnership, called for in the President's Climate 
Action Plan, to develop new ways to deliver drought information and 
tools nationwide. Maintaining these critical partnerships is the 
biggest strength and the biggest challenge facing the program, along 
with declining budgets.
NOAA Satellite Programs
    Question 3. Dr. Sullivan, NOAA's satellite programs, primarily run 
by the National Environmental Satellite, Data, and Information Service 
(NESDIS), comprise nearly 20 percent of the Department of Commerce's 
budget. The two most prominent programs, the Joint Polar Satellite 
System (JPSS) and the Geostationary Operational Environmental 
Satellite-R series (GOES-R), together accounted for one-third of NOAA's 
Fiscal Year 2013 budget request. Satellite program challenges have 
already resulted in some milestones being extended, risking gaps in 
critical satellite coverage and requiring careful management of 
resources to keep the program on track. At the same time, certain 
satellite programs have had a history of poor management, and, in spite 
of improvements, NOAA's satellite programs have been named one of the 
top five management challenges facing the Department of Commerce in a 
recent Office of Inspector General (OIG) report (Report no. OIG-13-003, 
November 9, 2012). Further, recent analysis by the Government 
Accountability Office indicates that both JPSS and GOES-R continue to 
be threatened by schedule slips and inadequate contingency plans 
(reports GAO-13-676 and GAO-13-597, respectively). Moving forward, what 
steps do you intend to take to ensure that NOAA can continue to provide 
vital environmental and weather data from these satellites?
    Answer. These satellite programs are National assets which have 
received significant attention from the Congress and the 
Administration. Over the past several years, significant changes have 
been made to ensure the appropriate management, scope, and acquisition 
strategies are in place to enable these satellite programs to remain on 
schedule and within budget in order to meet the Nation's weather and 
environmental data needs. Many of these changes implemented the 
recommendations of the GAO, OIG, Congressional direction, and views of 
a group of eminent satellite acquisition experts. Over the last year, 
the JPSS program made significant progress, remaining on schedule and 
in budget and repeatedly meeting critical milestones. The JPSS program 
has reduced the life cycle cost to $11.3 billion by transferring non-
weather instruments to NASA and other programs within NOAA, trimming 
content, and improving efficiency. In regards to the GOES-R Series 
Program, both NOAA and NASA have worked to ensure that it is executed 
on budget and on schedule. However, a $54 million reduction from the 
sequestration and rescission that was included in the enacted FY 2013 
appropriations required the program to change the committed launch 
dates for GOES-R from the 1st Quarter of FY 2016 to the 2nd Quarter FY 
2016, and to move the committed launch dates for GOES-R from the 2nd 
Quarter FY 2017 to the 3rd Quarter FY 2017. The Program will continue 
to work aggressively in order to have GOES-R and GOES-S ready as early 
as possible. To keep JPSS and GOES-R on schedule and within budget, we 
need the requested appropriations in the President's FY 2014 Budget. I 
can assure you I am focused on ensuring NOAA's satellites are managed 
efficiently and effectively and will continue to do so if I am 
confirmed.
National Weather Service
    Question 4. Recent examples of funds being inappropriately moved 
around within the National Weather Service call for increased top-level 
attention to be paid to this important line office. The National 
Academy of Public Administration has released a report entitled, 
``Forecast for the Future: Assuring the Capacity of the National 
Weather Service.'' This report made several recommendations to move the 
Weather Service forward. The NWS plays a key role in South Dakota 
agriculture, as it does for various sectors of the economy around the 
nation, because at the end of the day, we all rely on the predictive 
weather intelligence NWS provides. What role will you play, if 
confirmed, in supporting the National Weather Service as it seeks to 
implement reforms? Are there particular reforms you would prioritize?
    Answer. I am a strong believer that organizations must evolve to 
keep up with rapidly advancing technology and changing demands. If 
confirmed, my goals for the National Weather Service (NWS) are to 
strengthen it and to ensure it is the flexible, agile organization it 
must be to meet the increasing demands for the services and products it 
provides. I will closely follow the recommendations and advice of the 
NAPA report, which Congress commissioned. Any change to the NWS must be 
deliberate and will benefit from the input of many interested parties 
and experts. We have embarked on a process to plan that future. It is 
my sincere hope that in the coming months the dialogue with Congress, 
our employees, and our stakeholders can focus on how to create a more 
nimble organization.
Aquaculture Policy
    Question 5. The United States now imports more than 90 percent of 
our seafood. NOAA's own Aquaculture Policy states that the agency will 
``encourage and foster sustainable aquaculture development.'' How will 
you work within NOAA and with other agencies to streamline aquaculture 
regulations so that the U.S. can capitalize on available resources and 
become competitive in the global aquaculture industry?
    Answer. I share your support for streamlining aquaculture 
regulations and helping our businesses become more competitive. NOAA 
agrees that the development of shellfish aquaculture and other types of 
aquaculture has lagged behind much of the rest of the world, and that 
aquaculture in the United States can contribute more to the Nation's 
economy, seafood supply, and overall food security. That is why the 
President's National Ocean Policy Implementation Plan identified this 
issue and why we are working with our federal, state, local, and tribal 
partners to streamline permitting processes for marine aquaculture; to 
provide models, decision tools, and the best available science for 
efficient and effective regulatory decisions; and to educate the public 
about the economic and ecological benefits of marine aquaculture. We 
intend to continue these efforts.
Timely Communication with Congress
    Question 6. Written questions for the record are an important way 
for our Committee Members to understand better the positions of the 
Departments and agencies over which we have jurisdiction. We hope that 
those Departments and agencies view the responses to such questions as 
an opportunity to further educate Members about their challenges and 
views.
    NOAA has not been as responsive to this Committee as many of us 
expect. In one instance in the 112th Congress, NOAA failed to provide 
answers to questions for the record ten months after the questions were 
submitted to the agency and eventually the hearing record was closed 
with no NOAA response. This Congress, timeliness and responsiveness 
from NOAA has improved, especially following our most recent nomination 
hearing and confirmation of Dr. Mark Schaefer for Deputy Administrator 
at NOAA.
    Should you be confirmed, will you do your best to ensure that 
communications between NOAA and our Committee and its Members are 
timely and accurate? In particular, I would appreciate responses to 
substantive questions for the record within no more than three months; 
in cases where official responses on that timeline are impossible, I 
would appreciate the agency to communicate the reason for the delay to 
the Committee. Will you abide by that practice?
    Answer. If confirmed as Administrator, I will certainly work to 
ensure that communications between NOAA and Members of this Committee 
are timely and accurate. Our relationship with this Committee is very 
important to us, and we will strive to be more transparent regarding 
reasons for any delays.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                          Dr. Kathryn Sullivan
    Question 1. As you know, accurate and up-to-date science is 
essential for proper fishery management. May I get your commitment to 
make data collection a priority within the agency?
    Answer. Yes, if confirmed, I will continue to make data collection 
in support of our fishery management structure a priority for NOAA. 
Investment in fisheries science directly supports the Administration's 
mission to conserve and manage coastal and marine ecosystems by 
improving the quality of the science available to manage commercial and 
recreational fisheries for sustainability and optimum yield, thus 
supporting coastal communities and the U.S. economy both today and for 
the future.

    Question 2. NOAA recently proposed listing 66 coral species as 
endangered species by estimating the health of the species over the 
next 100 years. While I understand we are in the early stages of the 
process, I am concerned about the potential economic impact this 
listing may have on recreational fishermen and businesses in Florida. 
May I get your commitment to work with my office as the agency moves 
forward with this listing?
    Answer. If confirmed, you have my commitment to work with your 
office as NOAA continues through this listing process. As you know, 
NOAA's proposed listings under the Endangered Species Act for 66 coral 
species and reclassification of two additional species is one of the 
most complex listing processes the agency has ever undertaken. NOAA 
published our proposed rule on December 7, 2012, and we continue to 
work diligently on our final determination, reviewing the numerous 
public comments received during the public comment period and at 18 
public hearings conducted during that time. We recently announced a 
six-month deadline extension from December 2013 to June 2014 for the 
final determination deadline for all 66 species to ensure our final 
determination is based on the best scientific and commercial 
information available. We will continue to work with your office 
throughout this process.

    Question 3. As you know, the Subcommittee has begun the process of 
working to reauthorize the Magnuson-Stevens Act. Should you be 
nominated what policies would you highlight and prioritize in the 
reauthorization?
    Answer. The Administration has not taken a formal position on 
reauthorization. However, the work that NOAA does to support the multi-
billion dollar commercial and recreational fishing industries is 
critically important to the economy. The Magnuson-Stevens Act (MSA) has 
been very successful in ending overfishing and rebuilding fisheries and 
has established the United States as a recognized global leader in 
responsibly managed fisheries and sustainable seafood. This success is 
a product of hard work and ingenuity by the industry and a sound 
Federal fishery management system. Still, we also realize that there 
can always be improvements to the way we do business. As we move 
forward, I believe we should do so in a very open and deliberate way to 
ensure that we do not undermine the success we have seen thus far, 
while addressing the problems that confront our fisheries today.
    We understand there is substantial interest from stakeholders and 
Congress on potential legislative changes to the MSA. We have begun the 
process of talking to stakeholders and plan to continue to engage with 
external partners and Congress on how we can improve management of 
Federal fisheries, be it through policy or regulatory changes or 
statutory changes.

    Question 4. Are you concerned that regulatory policies could 
negatively impact the commercial remote sensing industry in the U.S.? 
What policies do you advocate to ensure U.S. industry continues to be 
the frontrunner in Commercial Remote Sensing?
    Answer. The Department of Commerce supports the 2003 U.S. 
Commercial Remote Sensing (CRS) Policy which sets the goal to ``advance 
and protect U.S. national security and foreign policy interests by 
maintaining the Nation's leadership in remote sensing space activities, 
and by sustaining and enhancing the U.S. remote sensing industry.'' The 
Administration reaffirmed its strong support of the U.S. commercial 
remote sensing industry in the 2010 U.S. Space Policy.
    The Department of Commerce is currently working with the other 
interested U.S. Government agencies to determine any appropriate 
changes that may help the U.S. commercial remote sensing industry 
maintain a competitive advantage and retain market leadership while 
taking national security and foreign policy concerns into 
consideration. If confirmed as Administrator, I will work with the 
Secretary and other interested U.S. Government agencies to strike the 
balance between protecting U.S. national security interests while 
supporting the growth of this important U.S. industry.

    Question 5. Please describe how you plan to implement the National 
Ocean Policy.
    Answer. The National Ocean Policy (NOP) coordinates and aligns 
coastal and ocean-related actions of Federal agencies to bolster our 
ocean economy, improve ocean health, support coastal communities, 
strengthen our security, and access the best available information to 
ensure we are using our ocean resources to the maximum benefit of all 
Americans. We have heard from coastal communities, ocean industries and 
stakeholders that they are looking for an easier way to navigate the 
various ocean-related authorities, missions and decision-making 
processes of Federal agencies. Because NOAA is primarily an ocean 
agency, most of our existing, mandated authorities support the 
activities outlined in the NOP Implementation Plan. But there are still 
many decisions that require the coordination of agencies and issues. In 
this regard, the Plan enhances NOAA's ability to identify areas of 
improved cooperation, shared priorities, information sharing and 
decision making to control costs and strengthen ocean, coastal, and 
Great Lakes stewardship. In addition, the Plan enhances NOAA's ability 
to implement our existing statutory authorities, using existing 
resources, to identify specific actions to bolster our ocean economy, 
improve ocean health, support local communities, strengthen our 
security, and access the best available information. NOAA will also 
take advantage of the Federal coordination framework to ensure that 
existing resources are applied in a way that complements other Federal 
programs, so that people on the ground realize the maximum benefits 
from Federal programming and funding. Ultimately, the NOP bolsters 
NOAA's ability to respond to the most pressing challenges facing our 
Nation's oceans and the businesses, communities, and people that rely 
on them.

    Question 6. The next benchmark stock assessment for red snapper in 
the South Atlantic is expected to be complete in 2014 after a one year 
delay. May I get your commitment that this assessment will stay on 
schedule?
    Answer. Yes, this assessment will stay on schedule. It will begin 
with a data workshop in August 2014, timed to enable inclusion of the 
2013 data and will be completed with a review workshop in June 2015.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Lisa Murkowski to 
                          Dr. Kathryn Sullivan
    Question. Can you confirm that NOAA Fisheries is working with the 
small boat fixed gear fleet in Alaska to develop an Experimental 
Fisheries Permit to further develop electronic capabilities? Please 
identify the steps the agency is taking to ensure this EFP will be in 
place for 2014.
    Answer. I share your desire to see more electronic monitoring 
capability in our fisheries. On May 3, 2013, NOAA issued an Electronic 
Technology Policy Directive that directs our Regional Offices and 
Science Centers to work with partners and stakeholders to create 
regional plans to identify, evaluate, and implement (where appropriate) 
electronic reporting and monitoring technology.
    I am aware that there are efforts underway in Alaska to develop an 
application for an Exempted Fishing Permit (EFP) that would allow for 
small boat fishermen to use electronic monitoring in place of human 
observers. I also understand that the North Pacific Fishery Management 
Council is prepared to discuss this topic at its October meeting, 
should an application be submitted. The staff in NOAA's Alaska Regional 
Office have met with the group developing the EFP and provided feedback 
and guidance on their efforts. Should an application be received, 
sufficient time is needed for evaluating the scientific study plan and 
completing the required analysis prior to the December 2013 Council 
meeting.
    I agree that this technology will provide options for monitoring 
that may help fishermen--and especially small boat fishermen that do 
not have the space to carry an observer. We want to implement 
electronic monitoring as fast as possible--but need to ensure that the 
data we get are accurate and reliable. If confirmed, I will continue to 
make this a priority and will update you and your staff on our 
progress.

                                  [all]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
